<html>
<title> - TRACKING TOWARD ZERO: IMPROVING GRADE CROSSING SAFETY AND ADDRESSING COMMUNITY CONCERNS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
 TRACKING TOWARD ZERO: IMPROVING GRADE CROSSING SAFETY AND ADDRESSING 
                           COMMUNITY CONCERNS

=======================================================================

                                (116-51)

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2020

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                         transportation
                             
                             
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-574 PDF            WASHINGTON : 2020 
 
 
 
 
 
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania


     Subcommittee on Railroads, Pipelines, and Hazardous Materials

 DANIEL LIPINSKI, Illinois, Chair
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               LIZZIE FLETCHER, Texas
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           MARK DeSAULNIER, California
DOUG LaMALFA, California             STEPHEN F. LYNCH, Massachusetts
LLOYD SMUCKER, Pennsylvania          TOM MALINOWSKI, New Jersey
PAUL MITCHELL, Michigan              GRACE F. NAPOLITANO, California
BRIAN K. FITZPATRICK, Pennsylvania   STEVE COHEN, Tennessee
TROY BALDERSON, Ohio                 JESUS G. ``CHUY'' GARCIA, Illinois
ROSS SPANO, Florida                  ELEANOR HOLMES NORTON,
PETE STAUBER, Minnesota                District of Columbia
GREG PENCE, Indiana                  EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri (Ex Officio)    ALAN S. LOWENTHAL, California
                                     COLIN Z. ALLRED, Texas, Vice Chair
                                     ANGIE CRAIG, Minnesota
                                     CONOR LAMB, Pennsylvania
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Daniel Lipinski, a Representative in Congress from the State 
  of Illinois, and Chairman, Subcommittee on Railroads, 
  Pipelines, and Hazardous Materials:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Eric A. ``Rick'' Crawford, a Representative in Congress from 
  the State of Arkansas, and Ranking Member, Subcommittee on 
  Railroads, Pipelines, and Hazardous Materials:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, opening statement.........................     4
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure, prepared statement.............................    79
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    80

                               WITNESSES

Karl Alexy, Associate Administrator for Railroad Safety and Chief 
  Safety Officer, Federal Railroad Administration:

    Oral statement...............................................     6
    Prepared statement...........................................     7
Brian Vercruysse, P.E., Rail Safety Program Administrator, 
  Illinois Commerce Commission:

    Oral statement...............................................    11
    Prepared statement...........................................    13
Mark Christoffels, Chief Engineer, San Gabriel Valley Council of 
  Governments:

    Oral statement...............................................    21
    Prepared statement...........................................    24
Rachel Maleh, Executive Director, Operation Lifesaver, Inc.:

    Oral statement...............................................    29
    Prepared statement...........................................    31
Hon. Matthew O'Shea, Alderman, 19th Ward of Chicago, Chicago City 
  Council:

    Oral statement...............................................    40
    Prepared statement...........................................    42
Jason M. Morris, Assistant Vice President, Safety and 
  Environmental, Norfolk Southern Corporation:

    Oral statement...............................................    45
    Prepared statement...........................................    47

                       SUBMISSIONS FOR THE RECORD

Statement of Jerry C. Boles, President, Brotherhood of Railroad 
  Signalmen, Submitted for the Record by Hon. Peter A. DeFazio...    80
Submissions for the Record by Hon. Daniel Lipinski:

    Letter of February 13, 2020, from Ann Begeman, Chairman, 
      Surface Transportation Board...............................    82
    Letter of February 11, 2020, from John Patelli, Head of 
      Regulatory and Federal Affairs/Associate General Counsel, 
      CSX Transportation.........................................    84
    Letter of February 19, 2020, from Hon. Jim Cooper, a 
      Representative in Congress from the State of Tennessee.....    86
    Letter of February 14, 2020, from Hon. John Cooper, Mayor, 
      Metropolitan Government of Nashville and Davidson County, 
      Tennessee..................................................    87
    Letter of February 10, 2020, from Jeff Syracuse, Metropolitan 
      Council Member, District 15, Nashville, Tennessee..........    87
    Statement of Paul P. Skoutelas, President and Chief Executive 
      Officer, American Public Transportation Association........    88
    Letter of February 20, 2020, from Mike O'Malley, President, 
      Railway Supply Institute...................................    94
Submissions for the Record by Hon. Eric A. ``Rick'' Crawford:

    Statement of Ian Jefferies, President and Chief Executive 
      Officer, Association of American Railroads.................    95
    Fact Sheet: ``How Railroads Collaborate With Stakeholders to 
      Reduce Grade Crossing Impacts,'' Association of American 
      Railroads..................................................    99
    Letter of February 17, 2020, from Chris Arvas, State 
      Coordinator, Idaho Operation Lifesaver.....................   100
    Letter of February 14, 2020, from Vern Keeslar, Executive 
      Director, Utah Operation Lifesaver, Inc....................   102
Statement of Patrick Goddard, President, Virgin Trains USA 
  Florida, LLC (aka Brightline Trains), Submitted for the Record 
  by Hon. Frederica S. Wilson....................................   102

                                APPENDIX

Questions to Karl Alexy, Associate Administrator for Railroad 
  Safety and Chief Safety Officer, Federal Railroad 
  Administration, from:

    Hon. Peter A. DeFazio........................................   109
    Hon. Randy K. Weber, Sr......................................   116
Questions from Hon. Sam Graves to Jason M. Morris, Assistant Vice 
  President, Safety and Environmental, Norfolk Southern 
  Corporation....................................................   118

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            January 31, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Railroads, Pipelines, 
and Hazardous Materials
    FROM:  LStaff, Subcommittee on Railroads, Pipelines, and 
Hazardous Materials
    RE:      LSubcommittee Hearing on ``Tracking Toward Zero--
Improving Grade Crossing Safety and Addressing Community 
Concerns.''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Railroads, Pipelines, and Hazardous 
Materials will meet on Wednesday, February 5, 2020, at 10:00 
a.m. in 2167 Rayburn House Office Building to hold a hearing 
titled, ``Tracking Toward Zero--Improving Grade Crossing Safety 
and Addressing Community Concerns.'' The purpose of this 
hearing is to learn from stakeholders about current challenges 
affecting highway-railroad grade crossing safety, trespassing 
and suicide incidents, blocked grade crossings, as well as 
efforts to mitigate safety and societal concerns of these 
issues. The Subcommittee will hear testimony from the Federal 
Railroad Administration (FRA); Illinois Commerce Commission; 
Alameda Corridor-East Construction Authority; Operation 
Lifesaver, Inc.; Chicago City Council; and Norfolk Southern 
Corporation.

                               BACKGROUND

I. HIGHWAY-RAIL GRADE CROSSINGS

GRADE CROSSING SAFETY

    A highway-rail grade crossing (``grade crossing'') is a 
location where a highway, road, or street intersects with a 
railroad right-of-way at the same level (at-grade). An 
estimated 210,000 grade crossings are located throughout the 
U.S. rail system as of 2018.\1\ Public grade crossings are 
roadways that are under the jurisdiction of, and maintained by, 
a public authority. Private grade crossings are on privately 
owned roadways and are intended for use by the road's owner or 
by the owner's licensees and invitees. A private crossing is 
not intended for public use and is not maintained by a public 
highway authority. Grade crossings can be equipped with various 
warning devices such as: flashing lights, gates, or signage to 
alert motorists and pedestrians to an upcoming crossing; others 
may not be not equipped with any warning device.
---------------------------------------------------------------------------
    \1\ U.S. DOT, Office of Inspector General, Report No. ST2019063, 
FRA Collects Reliable Grade Crossing Incident Data, but Needs To Update 
Its Accident Prediction Model and Improve Guidance for Using the Data 
To Focus Inspections, 5 (2019).
---------------------------------------------------------------------------
    According to FRA data, from 2009-2019,\2\ 22,547 collisions 
occurred at grade crossings, resulting in 9,658 injuries and 
2,731 fatalities.\3\ Of these, individuals operating 
automobiles, truck-trailers, and pick-up trucks comprised the 
three leading categories of users involved in the incidents--a 
total of 16,732 collisions.\4\ Moreover, more than 36 percent 
of the total incidents were caused by individuals failing to 
stop at a crossing, almost 26 percent due to individuals who 
stopped on a crossing, and nearly 14 percent due to those who 
went around a warning gate.\5\
---------------------------------------------------------------------------
    \2\ Data for 2019 is partial year data.
    \3\ Federal Railroad Administration, GX Dash!, Highway-Rail 
Crossing Collisions 2009-2019, Accessed Jan. 7, 2020, Accessible at: 
https://explore.dot.gov/t/FRA/views/Highway-
RailCrossingCollisions2009-2019/
National?iframeSizedToWindow=true&%3Aembed=y&%3
AshowAppBanner=false&%3Adisplay_count=no&%3AshowVizHome=no.
    \4\ Id. When comparing all crossing types, all fatalities and 
injuries for years 2009-2019.
    \5\ Id.
---------------------------------------------------------------------------
    Grade-crossing incidents involving pedestrians occur less 
frequently than those involving automobiles but have a higher 
fatality rate.\6\ From 2009-2019, 1,674 collisions involving 
pedestrians occurred, of which 779 were fatal.\7\ For 
comparison, while collisions involving pedestrians were the 
fourth most common types of incidents (7.42 percent of total 
grade crossing collisions) from 2009-2019, they represented 
38.07 percent of the total number of fatal collisions.\8\ 
Additionally, 406 grade crossing collisions (or 1.86 percent of 
all collisions) were found to be the result of those attempting 
or committing suicide over the same time period.\9\
---------------------------------------------------------------------------
    \6\ Id.
    \7\ Id.
    \8\ Id. When comparing all vehicle and crossing types, only 
fatalities, and no injuries for years 2009-2019. Data accessed Jan. 7, 
2020.
    \9\ Id.
---------------------------------------------------------------------------

GRADE CROSSING DATA

    Railroads must file monthly reports with FRA for grade 
crossing incidents. Such reports must be filed within 30 days 
following the end of month in which the incident occurred, and 
they must update or correct those reports upon becoming aware 
of an error or new information.\10\ These reports are 
maintained in FRA's Railroad Accident/Incident Reporting 
System, and the agency receives and processes late and amended 
reports for up to five years following the year the incident 
report occurred.\11\ Additionally, railroads must immediately 
report to the National Response Center when the operation of a 
railroad results in a fatality that occurs within 24 hours of a 
train incident at a grade crossing, among other reporting 
requirements.\12\
---------------------------------------------------------------------------
    \10\ 49 CFR Part 225.
    \11\ ``Overview Reports,'' Federal Railroad Administration website. 
Accessible at: https://cms8.fra.dot.gov/accident-and-incident-
reporting/overview-reports/overview-reports.
    \12\ 49 CFR Part 225.
---------------------------------------------------------------------------
    The Rail Safety Improvement Act (RSIA) of 2008 directed 
railroad carriers to report information, as specified by the 
Secretary of Transportation, about previously unreported grade 
crossings and to periodically update the information.\13\ In 
2015, the FRA issued a final rule requiring railroads to submit 
information to the U.S. Department of Transportation (DOT) 
National Highway-Rail Crossing Inventory, a publicly available, 
uniform national inventory database containing detailed 
information on each grade crossing in the country.\14\ The 
Inventory can be used to gather data for planning and 
implementing crossing improvement programs.\15\
---------------------------------------------------------------------------
    \13\ Division A, Sec. 204, Rail Safety Improvement Act of 2008, 
Public Law 110-432.
    \14\ National Highway-Rail Crossing Inventory Reporting 
Requirements Final Rule, 80 Fed. Reg. 3,746 (Jan. 5, 2015).
    \15\ Id.
---------------------------------------------------------------------------
    FRA also provides data tools and resources to support 
efforts to improve grade crossing safety. GX Dash! provides 
national and localized information about grade crossing 
collisions from 2009 to present.\16\ FRA grade crossing 
inspectors and state and local officials can also rank grade 
crossings by using reports generated by FRA's Web Accident 
Prediction System (WBAPS) that list public crossings ranked by 
predicted incidents per year.\17\ GradeDec.net allows state and 
local officials to change crossing parameters to assess grade 
crossing improvement projects' impacts on safety. Both WBAPS 
and GradeDec.net rely on an FRA accident prediction model, 
which include formulas for accident and severity prediction and 
a model for resource allocation. A September 2019 DOT Inspector 
General (IG) report found that FRA has not adjusted its 
accident prediction formula since 2013 despite updated incident 
data and grade crossing inventory reporting, potentially 
limiting the formula's ability to reflect current conditions 
and new safety issues.\18\ FRA agreed with the IG 
recommendation that FRA implement a procedure for determining 
when to evaluate and, if necessary, adjust the normalizing 
constants for the accident prediction formula.\19\ FRA says it 
is working to meet the IG recommendation.\20\
---------------------------------------------------------------------------
    \16\ Accessible at: https://explore.dot.gov/t/FRA/views/Highway-
RailCrossingCollisions2009-2019/
National?iframeSizedToWindow=true&:embed=y&:showAppBanner=false&:display
_count=
no&:showVizHome=no.
    \17\ Accessible at: https://safetydata.fra.dot.gov/webaps/.
    \18\ U.S. DOT, Office of Inspector General, Report No. ST2019063, 
FRA Collects Reliable Grade Crossing Incident Data, but Needs To Update 
Its Accident Prediction Model and Improve Guidance for Using the Data 
To Focus Inspections, 7-9 (2019).
    \19\ Id. at 11 and 22.
    \20\ Bipartisan meeting with Subcommittee staff, Jan. 23, 2020.
---------------------------------------------------------------------------

STATES' GRADE CROSSING ACTION PLANS

    As part of RSIA 2008, Congress directed the DOT Secretary 
to identify the 10 states with the most grade crossing 
collisions on average over the previous three years. The law 
required those states to develop and submit to the DOT 
Secretary for approval a state highway-rail grade crossing 
action plan that focuses on crossings that had experienced 
multiple accidents or were at high risk for accidents and 
identifies specific solutions for improving safety at 
crossings.\21\ Based on FRA's analysis, Alabama, California, 
Florida, Georgia, Illinois, Indiana, Iowa, Louisiana, Ohio, and 
Texas developed action plans to comply with the mandate.\22\
---------------------------------------------------------------------------
    \21\ Public Law 110-432 Sec. 202.
    \22\ FHWA-SA-16-075.
---------------------------------------------------------------------------
    In 2015, as part of the Fixing America's Surface 
Transportation (FAST) Act, Congress directed the FRA to develop 
a model of a state-specific grade crossing action plan.\23\ FRA 
issued this model plan in conjunction with the Federal Highway 
Administration (FHWA) in November 2016.\24\ The FAST Act also 
directed the agency to issue regulations, within 18 months of 
distributing that model action plan, to require each state to 
develop and implement a state action plan. The 10 states 
required by RSIA 2008 to develop an action plan were to update 
their action plans, submit them for review, and submit an 
implementation report.\25\ Per statute, these action plans were 
required to identify grade crossings that have experienced 
recent accidents or incidents or multiple accidents or 
incidents, or at high-risk for accidents or incidents; identify 
specific strategies for improving crossings safety; and 
designate a state official responsible for managing the state 
action plan. In November 2019, the FRA issued a notice of 
proposed rulemaking intended to fulfill the FAST Act 
mandate.\26\
---------------------------------------------------------------------------
    \23\ Public Law 114-94 Sec. 11401.
    \24\ Id.
    \25\ Public Law 114-94 Sec. 11401.
    \26\ State Highway-Rail Grade Crossing Action Plans Notice of 
Proposed Rulemaking, 84 Fed. Reg. 216, 60032 (Nov. 7, 2019).
---------------------------------------------------------------------------

II. BLOCKED GRADE CROSSINGS

    Grade crossings can become blocked when trains prevent the 
flow of vehicular or pedestrian traffic from crossing railroad 
tracks. Blocked crossings can congest traffic and cause travel 
delays, which not only frustrates communities but also may 
create safety risks when drivers and pedestrians attempt to 
cross the tracks to beat an oncoming train or try to go around 
or through a stopped train. Additionally, safety can be 
impacted when first responders responding to an emergency 
encounter one or more blocked crossing and cannot quickly find 
an alternative route.
    According to the FRA, 35 states and Washington, D.C. have 
laws in place attempting to address blocked crossings by on-
track railroad equipment.\27\ More specifically, seven states 
have no time limit; 14 states and Washington, D.C. allow no 
longer than five minutes; 10 states allow no more than 10 
minutes; three states allow no more than 15 minutes; and one 
state allows for no more than 20 minutes for a train to block a 
crossing.\28\ However, in recent years railroads have been 
successful in challenging many of these state laws in the 
courts on the grounds that those laws are pre-empted by federal 
law. A recent legal challenge to a state law on blocked 
highway-rail grade crossings occurred in 2018 in Indiana. 
Indiana had a statute that barred railroads from blocking 
crossings for more than 10 minutes, except in situations 
outside of the railroads' control.\29\ Violations were 
considered civil violations and carried a minimum $200 fine. 
After 23 violations, Norfolk Southern challenged the state's 
regulation in court. In September 2018, the Indiana Supreme 
Court ruled that local governments do not have the authority to 
fine railroads that block crossings, because while no federal 
law explicitly regulates railroads from blocking grade 
crossings, the Interstate Commerce Commission Termination Act 
(ICCTA) included an express preemption provision to limit state 
government regulation over interstate commerce.
---------------------------------------------------------------------------
    \27\ According to the FRA, these include: Alabama; Arizona; 
Arkansas; Connecticut; Delaware; District of Columbia; Florida; 
Georgia; Idaho; Illinois; Indiana; Iowa; Kansas; Kentucky; Louisiana; 
Maine; Massachusetts; Minnesota; Mississippi; Missouri; Montana; 
Nebraska; New Hampshire; New Jersey; New York; North Dakota; Ohio; 
Oregon; Pennsylvania; Rhode Island; South Carolina; South Dakota; 
Texas; Utah; Vermont; Virginia; and West Virginia. Accessible at: 
https://www.fra.dot.gov/StateLaws.
    \28\ GAO Report 19-443, Rail Safety: Freight Trains are Getting 
Longer, and Additional Information is Needed to Assess Their Impact, 
Page 21, FN 42 (May 2019).
    \29\ Ind. Code  8-6-7.5-1 (2018).
---------------------------------------------------------------------------
    While there are no federal regulations that directly 
address the amount of time a train may block public grade 
crossings, 49 C.F.R. Section 234.209 prohibits standing trains, 
locomotives, and other railroad equipment from unnecessarily 
activating grade crossing warning devices. According to FRA, 
this is not limited to standing trains, locomotives, and other 
railroad equipment that block vehicular access to the crossing. 
In May 2019, FRA Administrator Ronald Batory sent letters to 
each of the seven Class I railroads, writing that FRA had 
``noticed a sharp increase in the frequency and volume of 
complaints it has been receiving about blocked highway-rail 
grade crossings across the United States.'' The letter also 
noted that federal regulations do not set a specific limit on 
the time a crossing may be blocked but instead believes that 
railroads, states, and local jurisdictions are best positioned 
to address specific concerns about blocked crossings ``because 
each community has unique road networks and emergency response 
characteristics and needs.'' \30\
---------------------------------------------------------------------------
    \30\ Federal Railroad Administrator Ronald Batory, Letter to Class 
I railroads, May 16, 2019.
---------------------------------------------------------------------------
    In a report issued in May 2019 by the Government 
Accountability Office (GAO), which focused on the safety and 
other impacts of longer freight trains, GAO recommended the FRA 
Administrator ``work with railroads to engage state and local 
governments to (a) identify community-specific impacts of train 
operations, including longer trains, where streets and highways 
cross railroad rights-of-way and (b) develop potential 
solutions to reduce those impacts.'' \31\
---------------------------------------------------------------------------
    \31\ GAO Report 19-443, Rail Safety: Freight Trains are Getting 
Longer, and Additional Information is Needed to Assess Their Impact, 
Page 28 (May 2019).
---------------------------------------------------------------------------
    In December 2019, the FRA launched a Blocked Crossing 
Incident Reporter website where the public and law enforcement 
can report the date, time, location, and duration that a 
crossing was blocked.\32\ The agency intends to use the data 
collected to achieve a better understanding of the location, 
duration, and impacts of blocked crossings. Moreover, as part 
of RSIA 2008, Congress directed the DOT Secretary to require 
each railroad carrier to maintain a toll-free telephone service 
for the rights-of-way over which it dispatches trains to 
receive calls from the public reporting malfunctions of safety 
devices at crossings, disabled vehicles blocking railroad 
tracks at crossings, obstructions of the view of a train's 
approach, or the safety information about crossings.\33\ These 
telephone numbers and the number registered to each grade 
crossing are required to be posted on signs at crossings.
---------------------------------------------------------------------------
    \32\ Accessible at: www.fra.dot.gov/blockedcrossings.
    \33\ Public Law 110-432 Sec. 205, 49 U.S.C. 20152.
---------------------------------------------------------------------------

III. TRESPASSERS

    Rail trespassers most often are pedestrians who walk across 
or along railroad tracks as a shortcut,\34\ with 74 percent of 
trespassing casualties occurring within 1,000 feet of a grade 
crossing, based on data from November 2013 to October 2017.\35\ 
According to FRA data seen in the figure below, approximately 
400 to 500 trespass fatalities and a similar number of injuries 
occurred each year nationally from 2012 to 2019.\36\
---------------------------------------------------------------------------
    \34\ Volpe National Transportation Systems Center, sponsored by the 
FRA, Characteristics of Trespassing Incidents in the United States 
(2012-2014), July 2018. Accessible at: https://rosap.ntl.bts.gov/view/
dot/36451
    \35\ Federal Railroad Administration, Report to Congress: National 
Strategy to Prevent Trespassing on Railroad Property, Oct. 2018.
    \36\ ``Trespass and Suicide Dashboard,'' Federal Railroad 
Administration website. Accessed Jan. 2020.

------------------------------------------------------------------------
                                                                Total
               Year                 Trespasser   Trespasser  Trespassing
                                    Fatalities    Injuries    Incidents
------------------------------------------------------------------------
2012.............................          405          410          815
2013.............................          427          432          859
2014.............................          469          423          892
2015.............................          450          412          862
2016.............................          467          479          946
2017.............................          505          509        1,014
2018.............................          531          483        1,014
2019 \<dagger>\..................          535          462          997
------------------------------------------------------------------------
 ``Trespass and Suicide Dashboard,'' Federal Railroad Administration,
  Accessed January 2020.
 \<dagger>\2019 numbers represent partial year, through October 2019

    California, Texas, Illinois, and New York generally have 
the most trespassing deaths.\37\ The state of Florida 
exemplifies the national trend of increasing rates of 
trespassing incidents (both fatalities and injuries), rising 
from 33 in 2012 to 63 in 2019.\38\ Most trespassers across the 
country are killed between the hours of 4:00pm to 9:00pm.\39\
---------------------------------------------------------------------------
    \37\ ``Trespass and Suicide Dashboard,'' Federal Railroad 
Administration website. Accessed Jan. 2020.
    \38\ Id.
    \39\ Accessible at: https://explore.dot.gov/t/FRA/views/
TrespassandSuicideDashboard/
TrespassOverview?iframeSizedToWindow=true&:embed=y&:showAppBanner=false&
:
display_count=no&:showVizHome=no.
---------------------------------------------------------------------------
    The FRA has been trying to tackle this problem on several 
fronts. One of the FRA's sponsored programs, the Highway-Rail 
Grade Crossing Safety and Trespass Prevention Research Program, 
is housed at the Volpe Center. The program developed a National 
Strategy to prevent trespassing, which focuses on four 
strategic areas: data analysis, community site visits, funding, 
and stakeholder partnerships.\40\ The National Transportation 
Safety Board (NTSB) has also discussed various ways to educate 
the public about rail trespasser safety. At a 2015 forum on 
trespassing, the NTSB highlighted a three-pronged (``the 3 
E's'') approach that includes engineering (such as warning 
signs, surveillance, and fencing), education (for the general 
public, law enforcement, and private railroads), and 
enforcement (policing and fines).\41\ It was noted that FRA 
collects data only on trespassing activity resulting in a 
fatality or injury, while private railroads could have much 
larger data sets of trespassing instances that may produce more 
actionable solutions.\42\ Using data from a Class I railroad, 
FRA found that the railroad's reported number of close calls 
was much larger than the number of casualties over the same 
timeframe (the data excluded suicides), indicating that the 
potential for additional trespassing casualties is 
significant.\43\
---------------------------------------------------------------------------
    \40\ Id.
    \41\ ``Trains and Trespassing: Ending Tragic Encounters,'' Events, 
National Transportation Safety Board. March 24, 2015. Accessible at: 
https://www.ntsb.gov/news/events/Pages/2015_
trespassing_FRM_Agenda.aspx.
    \42\ Id.
    \43\ Id.
---------------------------------------------------------------------------

IV. SUICIDES

    Grade crossings and railroad rights-of-way have been used 
for suicide attempts. Prior to June 2011, the FRA did not 
collect any information about suicide incidents, so information 
is recent. Medical examiners (ME) and coroners are responsible 
for determining whether the cause of a death is suicide. When a 
ME or a coroner reports that the cause of a rail fatality is 
undetermined, it is recorded as a trespassing death rather than 
a suicide. No explicit criteria exists to aid in determining 
whether a death is a suicide, so metrics can vary by 
county.\44\ Additionally, the FRA warns that any statistics 
likely underrepresent rail suicides and determinations may take 
months or even years.\45\ For this reason, while data for 2018 
and 2019 is listed in the figure below, the FRA warns that 
suicide figures are vastly underrepresented and totals may 
continue to fluctuate.\46\
---------------------------------------------------------------------------
    \44\ ``Current Trends Operational Criteria for Determining 
Suicide,'' Centers for Disease Control Prevention Guidelines Database. 
Accessible at: https://wonder.cdc.gov/wonder/prevguid/p0000164/
p0000164.asp.
    \45\ Accessible at: https://explore.dot.gov/t/FRA/views/
TrespassandSuicideDashboard/
TrespassOverview?iframeSizedToWindow=true&:embed=y&:showAppBanner=false&
:
display_count=no&:showVizHome=no.
    \46\ Id.

------------------------------------------------------------------------
                                                                Total
               Year                  Suicide      Suicide      Suicide
                                    Fatalities    Injuries    Incidents
------------------------------------------------------------------------
2012.............................          270           43          313
2013.............................          307           26          333
2014.............................          274           34          308
2015.............................          317           29          346
2016.............................          268           32          300
2017.............................          270           41          311
2018.............................          256           35          291
2019 \<dagger>\..................          113           17          130
------------------------------------------------------------------------
 ``Trespass and Suicide Dashboard,'' Federal Railroad Administration,
  Accessed January 2020.
 \<dagger>\2019 numbers represent partial year, through October 2019

    In an effort to better understand and reduce rail suicide 
rates, the FRA partners with the Volpe Center (Volpe) to 
identify, implement, and evaluate appropriate mitigation 
strategies. To achieve these goals, Volpe and FRA focus on six 
rail suicide prevention areas: suicide countermeasure pilot 
projects, such as surveillance, advertising of help services, 
and automated texts or calls sent when entering dangerous 
areas; media reporting of trespassing and suicide incidents, 
including recommendations for responsible reporting; the Global 
Railway Alliance for Suicide Prevention, an international 
working group; trespasser intent determination, meaning 
assistance to MEs and coroners in how best to determine 
probable cause of death; GIS mapping of suicide locations, to 
proactively determine potential at-risk areas; and lastly, 
demographic and environmental characteristics, to provide an 
overview of common patterns.\47\
---------------------------------------------------------------------------
    \47\ ``Rail Suicide Prevention webpage.'' Accessible at: https://
www.volpe.dot.gov/rail-suicide-prevention.
---------------------------------------------------------------------------
    When determining characteristics of rail suicides in the 
U.S., Volpe found a series of trends. First, consistent with 
national suicide patterns, rail suicide fatalities more often 
involve men than women.\48\ Second, while Centers for Disease 
Control data shows that overall suicide victims are typically 
over the age of 45, rail suicide victims tend to be younger, 
under the age of 45.\49\ Incidents of rail suicide peak in the 
springtime, similar to national trends, and involve freight 
trains more often than passenger trains.\50\ Using data from 
2012 to 2018, California consistently has the highest number of 
total suicide incidents, followed by Illinois and New York.\51\ 
In separate research sponsored by the FRA and published in 
2014, the agency concluded that 96% of suicide incidents 
occurred on areas of track that did not have a barrier to 
restrict access to the right-of-way: 55% of incidents occurred 
in suburban areas, 25% in downtown or urban areas, and 20% in 
rural areas.\52\
---------------------------------------------------------------------------
    \48\ Chase, Stephanie G.; Hiltunen, Danielle; & Gabree, Scott H., 
Characteristics of Trespassing Incidents in the United States (2012-
2014), Report No. DOT/FRA/ORD-18/24 (July 2018).
    \49\ Id.
    \50\ Id.
    \51\ Accessible at: https://explore.dot.gov/t/FRA/views/
TrespassandSuicideDashboard/
TrespassOverview?iframeSizedToWindow=true&:embed=y&:showAppBanner=false&
:
display_count=no&:showVizHome=no.
    \52\ Berman, Alan; Sundararaman, Ramya; Price, Andrea; Au, 
Josephine. ``Suicide on Railroad Rights-of-Way: A Psychological Autopsy 
Study.'' Suicide and Life-Threatening Behavior 44(6), The American 
Association of Suicidology. Dec. 2014. Accessible at https://
onlinelibrary.wiley.com/doi/pdf/10.1111/sltb.12107.
---------------------------------------------------------------------------

V. OPERATION LIFESAVER

    Established in 1972, Operation Lifesaver, Inc. (OLI) is a 
non-profit organization dedicated to improving rail safety by 
providing public education and awareness programs to help 
prevent and reduce collisions, injuries, and fatalities, 
including trespassing and suicide events, occurring on and 
around railroad tracks and grade crossings.\53\ OLI operates in 
states and localities across the country through its network of 
authorized volunteer speakers and trained instructors who 
provide rail safety education to diverse groups, such as 
schools, driver education students, professional drivers, 
emergency responders, and law enforcement. The organization is 
supported by federal, state, and local government agencies, 
highway safety organizations, and the railroads. Congress 
appropriates approximately $1 million per year to OLI, while 
the non-profit also receives funding from donations, private 
organizations, and the Federal Highway Administration.\54\
---------------------------------------------------------------------------
    \53\ Accessible at: https://oli.org/about-us.
    \54\ Frittelli, John. Trespassing: The Leading Cause of Rail-
Related Fatalities, Congressional Research Service. Report IN10753. 
Feb. 2, 2018, Accessible at https://fas.org/sgp/crs/misc/IN10753.pdf.
---------------------------------------------------------------------------

VI. SECTION 130 GRADE CROSSING PROGRAM

    In 1987, Congress created the Section 130 program, which 
the FHWA administers to provide funding for safety improvements 
that reduce the number of fatalities, injuries, and crashes at 
grade crossings.\55\ Funded through annual set-asides from the 
Highway Safety Improvement Program, Section 130 is apportioned 
to states according to a formula that is based half on the 
number of public grade crossings located in the state compared 
to the national total and half on the statutory formula under 
49 U.S.C. 104(b)(3)(A) as in effect on the day before the date 
of enactment of MAP-21. Each state is guaranteed to receive at 
minimum 0.5 percent of apportioned funds. The federal share of 
projects funded through this set-aside is 90 percent.
---------------------------------------------------------------------------
    \55\ 23 U.S.C. Sec. 130 was enacted by Public Law 100-17, the 
Surface Transportation and Uniform Relocation Assistance Act of 1987.
---------------------------------------------------------------------------
    At least half of the set-aside funds for each fiscal year 
must be available for the installation of protective devices; 
the remaining half can be used for any hazard elimination 
project, including the installation of protective devices. The 
FAST Act also made eligible projects that eliminate hazards 
caused by blocked crossings due to idling trains. In addition, 
states may use section 130 funding to make incentive payments 
to local governments for the closure of grade crossings so long 
as the railroad that owns the tracks makes an incentive payment 
as well. For projects that eliminate grade crossings at which 
active warning devices are in place or ordered to be installed 
by a state regulatory agency, railroads must contribute 5 
percent of the project cost.\56\
---------------------------------------------------------------------------
    \56\ 23 CFR Sec. 646.210.
---------------------------------------------------------------------------
    States must survey all highways to identify grade crossings 
that may require separation, relocation, or protective devices, 
and implement a schedule of projects for this purpose.\57\ 
States adhere to this requirement by prioritizing crossings 
that cause the greatest hazard to the traveling public. Each 
year, states report to FHWA on the progress they have made on 
implementing Section 130 and the effectiveness of the projects' 
improvements; every two years, FHWA reports to Congress on the 
program.
---------------------------------------------------------------------------
    \57\ 23 U.S.C. Sec. 130(d).
---------------------------------------------------------------------------
    The obligation period for these funds include the fiscal 
year that they are apportioned plus three fiscal years. At the 
end of that period, the funds lapse and cannot be obligated. 
States may 'pool' their apportionments over multiple fiscal 
years in order to fund expensive projects that cost more than a 
state is provided in any one fiscal year. The FAST Act 
reauthorized the Section 130 program at $225 million for fiscal 
year 2016; $230 million for fiscal year 2017; $235 million for 
fiscal year 2018; $240 million for fiscal year 2019; and $245 
million for fiscal year 2020.\58\ At the end of fiscal year 
2019, the balance of all available unobligated funds totaled 
$649 million, of which $321 million was available for the 
installation of protective devices and $328 million for the 
elimination of hazards.
---------------------------------------------------------------------------
    \58\ Public Law 114-94 Sec. 1108.
---------------------------------------------------------------------------
    In addition to Section 130 program funding, grade crossing 
improvement projects are eligible for several federal 
discretionary funding opportunities, such as the Nationally 
Significant Freight and Highway Projects program (created by 
the FAST Act and referred to as INFRA by this Administration 
and FASTLANE by the previous Administration), as well as the 
Better Utilizing Investments to Leverage Development (referred 
to as BUILD by this Administration and TIGER by the previous 
Administration).\59\ The Consolidated Rail Infrastructure and 
Safety Improvements (CRISI) grant program, created by the FAST 
Act and administered by the FRA, provides discretionary grants 
for projects that improve the safety, efficiency, or 
reliability of rail transportation systems, including grade 
crossing improvement projects.\60\
---------------------------------------------------------------------------
    \59\ Public Law 114-94 Sec. 1109, 23 U.S.C. 133.
    \60\ Public Law 114-94 Sec. 11301, 49 U.S.C. 22907.
---------------------------------------------------------------------------

                              WITNESS LIST

    <bullet> LMr. Karl Alexy, Associate Administrator for 
Railroad Safety & Chief Safety Officer, Federal Railroad 
Administration
    <bullet> LMr. Brian Vercruysse, Rail Safety Program 
Administrator, Illinois Commerce Commission
    <bullet> LMr. Mark Christoffels, Chief Engineer, San 
Gabriel Valley Council of Governments/Alameda Corridor-East 
Project
    <bullet> LMs. Rachel Maleh, Executive Director, Operation 
Lifesaver, Inc.
    <bullet> LThe Honorable Matthew O'Shea, Alderman, 19th Ward 
of Chicago, Chicago City Council
    <bullet> LMr. Jason Morris, Assistant Vice President, 
Safety & Environment, Norfolk Southern Corporation


 TRACKING TOWARD ZERO: IMPROVING GRADE CROSSING SAFETY AND ADDRESSING 
                           COMMUNITY CONCERNS

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2020

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2167, Rayburn House Office Building, Hon. Daniel Lipinski 
(Chairman of the subcommittee) presiding.
    Mr. Lipinski. The subcommittee will come to order.
    I ask unanimous consent that the chair be authorized to 
declare recess during today's hearing. Without objection, so 
ordered.
    I will now recognize myself for an opening statement.
    Good morning. Today's hearing is part of this 
subcommittee's continued work on the surface transportation 
reauthorization. With the recent rollout of House Democrats' 
infrastructure principles, which include a robust $55 billion 
investment for rail infrastructure, today's discussion around 
how to address grade crossing safety and associated community 
concerns is a timely one.
    Addressing the issues we will hear about today is one of my 
top priorities for the rail portion of the FAST Act 
reauthorization, particularly providing more funding for grade 
separations, quiet zones, and other infrastructure that 
improves safety and the quality of life.
    I grew up 100 yards from railroad tracks, so I know 
firsthand the impact of living near a railroad. Chicagoland is 
the rail hub of North America. And my congressional district 
has the most grade crossings of any in the country, so my 
constituents experience the issues we will hear about today on 
a regular basis.
    Some of those issues include blocked crossings, train horn 
noise, idling trains, deaths and injuries at grade crossings 
and along rail rights-of-way, and railroad property upkeep.
    I am pleased that we have Alderman Matt O'Shea from 
Chicago's 19th Ward here today to talk about the problems faced 
by his constituents.
    The launch in December of FRA's blocked grade crossing 
reporting system is a step in the right direction. But let me 
be clear: the notion that the way a community experiencing 
blocked grade crossings should try to solve the problem is to 
fill out a report and submit it to FRA or call the railroad and 
hope the railroad will unblock the crossing is not a solution.
    More and stronger tools are needed, and I look forward to 
hearing from Alderman O'Shea, Mr. Vercruysse, and others on 
options they recommend Congress look at.
    Another issue I want to touch upon is grade crossing 
separations. I was pleased last year to work with my colleagues 
in the State of Illinois to secure funding for a critical grade 
separation at 63rd and/or 65th and Harlem in Chicago. The 
CREATE rail modernization program, which has made significant 
progress in making the Chicagoland rail network more efficient, 
was actually launched from that site, and that grade separation 
is labeled GS1 in the CREATE program project list. While I am 
pleased we now have the money to get the grade separation 
constructed, there are numerous other crossings I would like to 
see separated. The current amount authorized for the section 
130 grade crossing program is nowhere near enough to fund one 
grade separation in my district, let alone the many that need 
to be done across the country.
    I look forward to hearing from Mr. Christoffels of the 
Alameda Corridor-East Project, and other witnesses, on how a 
dedicated Federal program for grade separations can help speed 
up these vital grade separations.
    We also need to find more funding for quiet zones and 
streamline the process for communities to become a quiet zone.
    I understand the role that the sounding of the train horn 
plays in notifying people a train is approaching in maintaining 
safety near a crossing. However, there has to be a way we can 
institute more quiet zones in a timely manner and make 
improvements that provide an equivalent level of safety to 
train horns. The current process to obtain a quiet zone is just 
too arduous.
    I look forward to hearing from Karl Alexy from FRA, and 
other panelists, on ways we can do this.
    Finally, over the years I have repeatedly heard from 
numerous communities I represent about poorly maintained 
railroad property, especially unpainted bridges. Railroads are 
just like any property owners in the community and need to 
maintain their property in a way that is reflective of the care 
and values other residents put in the community. It is time the 
railroads do better in maintaining their property.
    America has a freight rail network that is the envy of the 
world, and that network helps make American businesses more 
efficient, helping to create jobs. But there are also downsides 
to the expansive network. Some of these downsides can be 
mitigated with appropriate action, and I look forward to 
hearing from our witnesses about their recommendations.
    [Mr. Lipinski's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Daniel Lipinski, a Representative in 
  Congress from the State of Illinois, and Chairman, Subcommittee on 
             Railroads, Pipelines, and Hazardous Materials
    Good morning. Today's hearing is part of this Subcommittee's 
continued work on the surface transportation reauthorization. With the 
recent rollout of House Democrats' infrastructure principles which 
include a robust $55 billion investment for rail infrastructure, 
today's discussion around how to address grade crossing safety and 
associated community concerns is a timely one. Addressing the issues we 
will hear about today is one of my top priorities for the rail portion 
of the FAST Act reauthorization, particularly providing more funding 
for grade separations, quiet zones, and other infrastructure that 
improves safety and quality of life.
    I grew up 100 yards from railroad tracks, so I know first-hand 
about the impact of living near a railroad. Chicagoland is the rail hub 
of North America and my congressional district has the most grade 
crossings of any in the country so my constituents experience the 
issues we will hear about today on a regular basis. Some of those 
issues include blocked crossings, train horn noise, idling trains, 
deaths and injuries at grade crossings and along rail right of ways, 
and railroad property upkeep.
    I am pleased that we have Alderman Matt O'Shea from Chicago's 19th 
Ward here today to talk about the problems faced by his constituents. 
The launch in December of FRA's blocked grade crossing reporting system 
is a step in the right direction. But let me be clear. The notion that 
the way a community experiencing blocked grade crossings should try to 
solve the problem is to fill out a report and submit it to FRA or call 
the railroad and hope the railroad will unblock the crossing is not a 
solution. More and stronger tools are needed and I look forward to 
hearing from Alderman O'Shea, Mr. Vercruysse, and others on options 
they recommend Congress look at.
    Another issue I want to touch upon is grade crossing separations. I 
was pleased last year to work with my colleagues in the state of 
Illinois to secure funding for a critical grade separation at 63rd and/
or 65th and Harlem in Chicago. The CREATE rail modernization program 
which has made significant progress in making the Chicagoland rail 
network much more efficient, was actually launched from that site and 
that grade separation is labeled ``GS1'' in the CREATE program project 
list. While I'm pleased we now have the money to get that grade 
separation constructed, there are numerous other crossings I would like 
to see separated. The current amount authorized for the Section 130 
grade crossing program is nowhere near enough to fund one grade 
separation in my district, let alone the many that need to be done 
across the country. I look forward to hearing from Mr. Christoffels of 
the Alameda Corridor East and other witnesses on how a dedicated 
federal program for grade separations can help speed up these vital 
grade separations.
    We also need to find more funding for quiet zones and streamline 
the process for communities to become a quiet zone. I understand the 
role that sounding the train horn plays in notifying people a train is 
approaching and maintaining safety near a crossing. However, there has 
to be a way we can institute more quiet zones in a timely manner and 
make improvements that provide an equivalent level of safety to train 
horns. The current process to obtain a quiet zone is just too arduous. 
I look forward to hearing from Karl Alexy from FRA and other panelists 
on ways we can do this.
    Finally, over the years I have repeatedly heard from numerous 
communities that I represent about poorly maintained railroad property, 
especially unpainted bridges. Railroads are just like any property 
owners in the community and need to maintain their property in a way 
that is reflective of the care and values other residents put in the 
community. It is time they do better maintaining their property.
    America has a freight rail network that is the envy of the world, 
and that network helps make American businesses more efficient, helping 
to create jobs. But there are also downsides to this expansive network. 
Some of these downsides can be mitigated with appropriate action, and I 
look forward to hearing from our witnesses about their recommendations.
    With that, I recognize Ranking Member Crawford for his opening 
statement.

    Mr. Lipinski. With that, I yield back, and I recognize 
Ranking Member Crawford for his opening statement.
    Mr. Crawford. Thank you, Chairman, for holding the hearing 
today. I also want to thank our witnesses for being here today.
    Railroad grade crossing safety, blocked crossings, railroad 
trespassing, and rail suicides are serious issues that affect 
the rail industry in many communities across America. According 
to the Federal Railroad Administration, FRA, in the last 8 
years, my home State of Arkansas experienced 76 total incidents 
due to railroad trespassing, 28 of which were fatalities.
    I know that complaints of blocked grade crossings have 
amplified recently as well. I commend the FRA and Administrator 
Batory for recognizing this problem and taking steps to fix it.
    The rail industry has invested substantially in grade 
crossing safety, including through the use of new technologies, 
community education, and other deterrents to stop trespassers 
and suicides on the tracks. Today we will hear about the FRA's 
recent work to better monitor blocked crossings and to improve 
rail crossing safety.
    We will also hear from railroads, State and local leaders, 
and other stakeholders about the problems they face with these 
issues, their efforts to combat them, and future needs to 
continue making improvements.
    Finally, I would note the importance of Federal grants and 
Federal funding opportunities through the section 130 program 
and other grant programs that assist railroads, States, and 
communities with grade crossing upgrades and improvements.
    Thank you, once again, to all of our witnesses for being 
here today. I look forward to hearing your testimony and 
responses to questions.
    [Mr. Crawford's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Eric A. ``Rick'' Crawford, a Representative 
      in Congress from the State of Arkansas, and Ranking Member, 
     Subcommittee on Railroads, Pipelines, and Hazardous Materials
    Railroad grade crossing safety, blocked crossings, railroad 
trespassing, and rail suicides are serious issues that affect the rail 
industry and many communities across America.
    According to the FRA, in the last eight years, my home state of 
Arkansas experienced 76 total incidents due to railroad trespassing, 28 
of which were fatalities.
    I know that complaints of blocked grade crossings have amplified 
recently. I commend the FRA and Administrator Batory for recognizing 
this problem and taking steps to fix it.
    The rail industry has invested substantially in grade crossing 
safety, including through the use of new technologies, community 
education, and other deterrents to stop trespassers and suicides on the 
tracks.
    Today we will hear about the FRA's recent work to better monitor 
blocked crossings and to improve rail crossing safety. We will also 
hear from railroads, state and local leaders, and other stakeholders 
about the problems they face with these issues, their efforts to combat 
them, and future needs to continue making improvements.
    Finally, I note the importance of federal grants and federal 
funding opportunities through the Section 130 program and other grant 
programs that assist railroads, states and communities with grade 
crossing upgrades and improvements.

    Mr. Crawford. And with that, I yield back the balance of my 
time.
    Mr. Lipinski. Thank you, Ranking Member Crawford.
    Let me call on Representative Napolitano to introduce Mr. 
Mark Christoffels.
    Mrs. Napolitano. Thank you, Mr. Chairman, Ranking Members 
Crawford and Graves, for inviting Mark Christoffels. I believe 
Mark and his organization, the Alameda Corridor-East, are the 
perfect witnesses for this very important hearing today 
regarding grade crossing safety. ACE was formed 22 years ago by 
30 cities in my district and surrounding region for the sole 
purpose of improving grade crossing safety with grade 
separation projects, and safety improvement projects.
    Thirty cities banded together and they have found the most 
important crossings to improve. They found the local, State, 
and Federal funding that was needed and created their own 
construction authority to build these projects. They are only a 
few years away from being fully completed, and this is truly an 
incredible achievement that has dramatically improved the 
commute times and safety of our community, most of them on time 
and under budget.
    I want to thank the ACE board of directors and the staff of 
Mark Christoffels, Paul Hubler, and all the team members who 
work on this very important project. And thank you, Mark, for 
being here today, and welcome.
    Thank you, Mr. Chair.
    Mr. Lipinski. Thank you. And I would like to hear from our 
panel of witnesses. I would like to introduce Alderman Matt 
O'Shea. Matt O'Shea has been an alderman of Chicago's 19th Ward 
since 2011. He represents the communities of Beverly, Morgan 
Park, and Mount Greenwood, in the Chicago City Council.
    Like many communities I represent, the 19th Ward has 
multiple sets of railroad tracks running through the community. 
He knows firsthand the positives and negatives of railroads.
    During his time as alderman, Matt has focused on improving 
local public schools, stimulating economic development, and 
enhancing public safety. He has been a strong advocate for the 
19th Ward in dealing with some issues that have come up with 
respect to railroads.
    He is also the chair of the Aviation Committee in the 
Chicago City Council.
    Matt is a lifelong resident of the Beverly/Morgan Park 
community and currently lives there with his wife Cara and 
three children, Brigid, Patrick, and Eileen.
    And I would like to welcome our entire panel of witnesses 
now. Mr. Karl Alexy, Associate Administrator for Railroad 
Safety and Chief Safety Officer, the Federal Railroad 
Administration; Mr. Brian Vercruysse, rail safety program 
administrator, Illinois Commerce Commission; Mr. Mark 
Christoffels, chief engineer, San Gabriel Valley Council of 
Governments/Alameda Corridor-East Project; Ms. Rachel Maleh, 
executive director, Operation Lifesaver, Inc.; the Honorable 
Matthew O'Shea, alderman, 19th Ward of Chicago, Chicago City 
Council; and Mr. Jason Morris, assistant vice president, safety 
and environmental, Norfolk Southern Corporation.
    Thank you all for being here today. I look forward to your 
testimony.
    Without objection, our witnesses' full statements will be 
included in the record. Since your written testimony has been 
made part of the record, the subcommittee requests that you 
limit your oral testimony to 5 minutes.
    I will begin by recognizing Mr. Alexy for 5 minutes.

 TESTIMONY OF KARL ALEXY, ASSOCIATE ADMINISTRATOR FOR RAILROAD 
       SAFETY AND CHIEF SAFETY OFFICER, FEDERAL RAILROAD 
  ADMINISTRATION; BRIAN VERCRUYSSE, P.E., RAIL SAFETY PROGRAM 
ADMINISTRATOR, ILLINOIS COMMERCE COMMISSION; MARK CHRISTOFFELS, 
  CHIEF ENGINEER, SAN GABRIEL VALLEY COUNCIL OF GOVERNMENTS; 
 RACHEL MALEH, EXECUTIVE DIRECTOR, OPERATION LIFESAVER, INC.; 
 HON. MATTHEW O'SHEA, ALDERMAN, 19TH WARD OF CHICAGO, CHICAGO 
 CITY COUNCIL; AND JASON M. MORRIS, ASSISTANT VICE PRESIDENT, 
     SAFETY AND ENVIRONMENTAL, NORFOLK SOUTHERN CORPORATION

    Mr. Alexy. Chairman Lipinski, Ranking Member Crawford, and 
members of the subcommittee, good morning, and thank you for 
the opportunity to speak with you today regarding highway-rail 
grade crossing safety.
    The mission of FRA is to enable the safe, reliable, and 
efficient movement of people and goods for a strong America, 
now and in the future. As such, safety is our top priority. 
Railroads are a vital transportation link in our Nation's 
economy, transporting freight and passengers in a manner not 
achievable by other modes of transportation.
    The safety of rail operations over highway-rail grade 
crossings and trespassing on railroad rights-of-way are two 
critical issues that FRA recognizes continue to impact and 
concern communities. Trespassing on railroad property is the 
leading cause of rail-related deaths in the United States. 
Grade crossing incidents are the second.
    Together these types of accidents account for 97 percent of 
all fatalities along the Nation's rights-of-way. FRA believes 
these accidents and resulting injuries and fatalities are 
preventable. Grade crossing safety and trespassing prevention 
are separate and distinct issues, yet they share two common 
factors.
    First, both are, with very few exceptions, a function of 
human behavior, including decisionmaking. Motorists may decide 
to disregard active grade crossing warning devices and maneuver 
around lowered gates, or pedestrians seeking a shortcut may cut 
across tracks.
    Second, of the stakeholders--railroads, communities, 
individuals, and regulators--none can solve this issue on its 
own. We need all of the stakeholders to prioritize and address 
these issues.
    FRA is underway with implementing its National Strategy to 
Prevent Trespassing on Railroad Property developed in 2018. 
More recently, in November 2019, FRA developed and began 
implementation of a business plan to advance grade crossing 
safety.
    These efforts are complementary and focus on five strategic 
areas: enhancing our collaboration with and outreach to all 
affected stakeholders; leveraging data to allocate our 
resources most effectively; oversight and enforcement of the 
rail industry, and engagement of State and local governments 
and law enforcement; supporting research designed to improve 
rail safety; and funding to support implementation of proven 
strategies and testing of new approaches and technologies.
    FRA has worked to enhance the agency's collaboration and 
outreach with stakeholders on both grade crossing safety and 
trespass prevention issues through a series of listening 
sessions, summits, symposiums, targeted social media campaigns, 
and community site visits.
    FRA works with the railroads, State and local government, 
law enforcement officials, signal equipment manufacturers and 
technology companies, trade and advocacy groups, as well as DOT 
experts outside of the FRA, to identify the most effective 
methods of improving grade crossing safety and preventing 
trespassing on railroad property.
    To complement FRA's safety oversight and research 
initiatives, Secretary Chao and Administrator Batory have 
prioritized investment in grade crossing improvements through 
the Department's various grant programs. For example, under 
this administration, over 500 individual grade crossings have 
been made safer through FRA's grant selections, most of this 
through the Consolidated Rail Infrastructure and Safety 
Improvements grant program.
    Additionally, the Risk Reduction and System Safety program 
rules will require railroads to analyze how trespasser 
prevention and highway-rail grade crossing technology may help 
mitigate risk. Once these rules are published and implemented, 
FRA anticipates that the required analysis will provide 
railroads a framework for utilizing technology to combat risk 
associated with grade crossing and trespassers.
    In addition to the grade crossing safety and trespass 
prevention, FRA is engaged with the railroads and State and 
local officials to address the impactful effects of railroad 
operations in communities. In May of 2019, Administrator Batory 
wrote the chief executive officers of the Class I railroads and 
major railroad holding companies regarding the impacts of 
quality of life associated with blocked crossings. 
Administrator Batory specifically requested that each railroad 
act to minimize the occurrence of blocked crossings.
    On December 20, 2019, FRA launched a new online portal to 
collect data regarding the scope of the blocked crossing issue. 
The portal allows the public and public safety officials to 
report information on the location, time, duration, and impacts 
of the blocked crossings. This information will provide FRA 
with needed insights to the extent and consequences of these 
events.
    In conclusion, FRA remains committed to continuing to lead, 
promote, and strengthen efforts among stakeholders to increase 
awareness of grade crossing safety issues, the potential 
consequences of trespassing on railroad rights-of-way, and 
existing and potential trespass prevention strategies.
    Thank you again for this opportunity, and I look forward to 
taking your questions.
    [Mr. Alexy's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Karl Alexy, Associate Administrator for Railroad 
    Safety and Chief Safety Officer, Federal Railroad Administration
    Chairman Lipinski, Ranking Member Crawford, and Members of the 
Committee,
    Thank you for the opportunity to speak with you today regarding 
highway-rail grade crossing safety. The mission of FRA is to enable the 
safe, reliable, and efficient movement of people and goods for a strong 
America, now and in the future. As such, safety is FRA's top priority.
    Railroads are a vital transportation link in our Nation's economy--
transporting freight and passengers in a manner not achievable by other 
modes of transportation.
    The safety of rail operations over highway-rail grade crossings and 
trespassing on railroad rights-of-way are two critical issues that FRA 
recognizes continue to impact and concern communities. As FRA 
Administrator Ronald Batory has previously discussed with this 
Committee, trespassing on railroad property is the leading cause of all 
rail-related deaths in the United States. Grade crossing incidents are 
the second. Together these types of accidents account for 97 percent of 
all fatalities along the nation's railroad rights-of-way. Over the past 
thirty years grade crossing fatalities have decreased by over sixty 
percent, but it is not enough. FRA believes these accidents, and 
resulting injuries and fatalities are preventable. Thus, improving 
grade crossing safety and preventing trespassing on railroad rights-of-
way are top priorities for FRA.
    Grade crossing safety and trespassing prevention are separate and 
distinct issues, yet they share two common factors. First, both are 
singularly a function of human behavior. A motorist may decide to 
disregard active grade crossing warning devices at a highway-rail grade 
crossing and maneuver around lowered gates or past flashing lights and 
enter a crossing, or a pedestrian seeking a shortcut to a destination 
on the opposite side of a set of railroad tracks may cut across those 
tracks. In other cases, individuals are not sufficiently careful or may 
make poor judgements, or motorists may experience mechanical breakdowns 
or encounter physical obstructions when attempting to cross railroad 
tracks. Second, of the stakeholders--railroads, communities, 
individuals, and regulators--none can solve these issues on its own. We 
need all stakeholders to take action to prioritize, prevent, and 
address these issues. Railroads need to be cognizant of how their 
operations affect the communities through which they operate. Local law 
enforcement officials need to prioritize, to the extent possible, 
enforcement of vehicle traffic signals at highway-rail grade crossings 
and trespassing laws, and strict prosecution of resulting citations. 
Individual community members need to be aware of the consequences of 
not complying with grade crossing warning signals or of trespassing on 
railroad rights-of-way.
    As Administrator Batory shared in his June 2019 testimony to this 
Committee, FRA is focused on leading, promoting, and strengthening 
efforts among all stakeholders to increase awareness of grade crossing 
safety issues, the dangers of trespassing on railroad rights-of-way, 
and existing and potential trespassing prevention strategies. With our 
current focus, we are well underway with implementing FRA's National 
Strategy to Prevent Trespassing on Railroad Property which FRA 
developed in 2018. More recently, in November 2019, FRA developed and 
began implementation of a Highway-Rail Grade Crossing Safety Business 
Plan. These efforts are complementary and focus generally on five 
strategic areas:
    (1)  Enhancing our collaborations with and outreach to all affected 
stakeholders;
    (2)  Leveraging data to apply our resources most effectively;
    (3)  Oversight and enforcement of the rail industry, and engagement 
of state and local governments, and law enforcement, particularly in 
trespass ``hot-spots'' or near accident-prone areas;
    (4)  Supporting research designed to improve rail safety; and
    (5)  Existing funding opportunities to support implementation of 
proven strategies and testing of new approaches and technologies.

    FRA has worked to enhance the agency's collaborations with and 
outreach to stakeholders on both grade crossing safety and trespass 
prevention issues through a series of listening sessions, summits, 
symposiums, targeted social media campaigns, and community site visits. 
FRA works with railroads, state and local governments, law enforcement 
officials, signal equipment manufacturers and technology companies, 
trade and advocacy groups, as well as DOT experts outside of FRA, to 
identify the most effective methods of improving grade crossing safety 
and preventing trespassing on railroad property.
    FRA's safety program has historically been and continues to be 
data-driven. Highway-rail grade crossing safety and trespassing 
prevention are no exceptions, but as I noted earlier, both issues are 
highly dependent not only on FRA data and actions, but on the 
involvement of all affected stakeholders. Accordingly, FRA has 
amplified its efforts to improve the quality of its data and to ensure 
data related to grade crossing safety and trespassing incidents is 
available and accessible to all stakeholders. For example, FRA has 
created and maintains numerous data visualization tools (e.g., 
dashboards, maps) which enable the agency and our stakeholders to 
better monitor and analyze key safety metrics over time. Meanwhile, FRA 
is using analytical tools to gain a better understanding of factors 
affecting grade crossing safety and trespassing issues (e.g., from 
system-level overviews to localized detail). FRA is also seeking new 
and unconventional data sources and voluntary methods of sharing data 
among stakeholders to identify leading indicators of both grade 
crossing and trespassing risk factors.
    Utilizing available data, FRA is identifying accident-prone areas 
and trespass ``hot-spots'' and engaging railroads operating in those 
areas, as well as the relevant state and local government and law 
enforcement officials, to seek potential local solutions to the risks.
    The Grade Crossing Safety and Trespass Prevention research program 
conducts research to improve safety at highway-rail grade crossings and 
along the railroad rights-of-way. The program develops, tests, and 
evaluates technologies and engineering solutions, and collects and 
analyzes data to measure the effectiveness in improving grade crossing 
safety. FRA is currently supporting research in several technologies 
that have the potential to reduce grade crossing accidents, including 
GIS mapping, use of drones, in-vehicle auditory alerts, intelligent 
crossing assessment, and first responder blocked crossing 
notifications. The research outcomes, reports, and best practices will 
continue to be published on the FRA website and presented at industry 
related conferences and workshops. FRA currently uses an online 
research repository to store and maintain research reports and will 
introduce a search engine to facilitate access to these reports.
    To complement FRA's safety oversight and research initiatives, 
Secretary Elaine L. Chao and Administrator Batory have prioritized 
investment in grade crossing improvements through the Department's 
various grant programs. Under this Administration, in addition to grade 
crossing formula funding administered by the Federal Highway 
Administration's Section 130 program, over 500 individual grade 
crossings have been made safer through FRA grant selections, most of 
this through the Consolidated Rail Infrastructure and Safety 
Improvements (CRISI) grant program. The Department's Better Utilizing 
Investments to Leverage Development (BUILD) and Infrastructure for 
Rebuilding America (INFRA) grant programs have also provided 
significant investment in grade crossing safety nationwide.
    Regarding trespassing, FRA issued two Notices of Funding 
Opportunities (NOFO) for law enforcement agencies to address railroad 
trespassing enforcement. In response to the first NOFO, FRA awarded 
almost $200,000 to four law enforcement agencies. Preliminary findings 
demonstrate a significant reduction in trespassing incidents in these 
four local jurisdictions. Applications in response to the second NOFO 
are currently under review. Looking forward, FRA expects to make its 
fiscal year 2020 grant funding available to prospective applicants in 
the near future. We encourage your states and communities to apply for 
these forthcoming funding opportunities so they can work with FRA and 
continue to make grade crossings safer and reduce trespasser incidents.
                         Trespassing Prevention
    Trespassing on railroad property can be defined as accessing 
private railroad property anywhere other than at a designated 
pedestrian or roadway crossing. Trespassing on private railroad 
property is illegal and poses a grave threat to the individual 
trespasser's safety and to the safety of railroad employees. Although 
this is a matter of common sense, each year, more than 500 people are 
killed and nearly as many injured, while trespassing on railroad 
property.
    Implementation of FRA's National Trespassing Prevention Strategy is 
well underway. To date, FRA has consistently achieved the milestones 
set forth in the Strategy and the agency will provide a specific update 
on its progress implementing the Strategy later this year. To highlight 
some of the successes of the Strategy to date, I note:
    <bullet>  FRA field teams have conducted 171 trespassing site 
visits and outreach presentations since October of 2018.
    <bullet>  FRA developed a Trespass and Suicide Dashboard that 
allows users to visually interact with trespass and suicide data 
collected by FRA. The Dashboard is designed to provide key information 
to enable analysis of the data, including where trespassing incidents 
have occurred both nationally and locally, what railroads are involved 
in the trespassing incidents, and key factual details surrounding the 
trespassing incidents (e.g., trespasser age, day of week, time of day, 
physical act before casualty, and the event that caused the casualty). 
Although FRA's field teams use this information to evaluate local 
conditions and track overall trends, the dashboard is available online 
for all stakeholders to use.
    <bullet>  Regional FRA teams are working with individual 
communities identified as ``hot-spots'' for trespassing incidents to 
understand the root causes of the incidents and assist in the 
development of local solutions.
    <bullet>  FRA issued an approximately $160,000 Consolidated Rail 
Infrastructure and Safety Improvements (CRISI) grant to the Florida 
Department of Transportation to pilot drone technology, closed circuit 
television with remote monitoring, and a geographic information system 
spatial analysis to aid and leverage local law enforcement trespassing 
enforcement efforts.
    <bullet>  FRA has worked with the leaders of the 10-counties in the 
United States with the most trespassing incidents to participate in 
Railroad Trespassing and Grade Crossing Technology Summits throughout 
the country in 2020.
                             Grade Crossing
    Similar to trespassing, human behavior plays a primary role in 
grade crossing accidents. For example, a driver may choose to maneuver 
around lowered gates at an active crossing, or a driver may fail to 
look both ways to ensure the track is clear before attempting to cross 
a passive crossing (a passive crossing is a crossing with no train-
activated warning devices).
    Throughout the past year, FRA held a series of six grade crossing 
technology listening sessions. Those listening sessions involved a 
diverse range of stakeholders, including rail industry members, state 
and local governments (including law enforcement officials), trade and 
advocacy groups, as well as signal equipment and automobile 
manufacturers and technology companies, and culminated in a Grade 
Crossing Symposium in November, 2019. The Symposium provided a forum 
for all stakeholders to share what they learned during the listening 
sessions and collaborate on issues and experiences in implementing both 
low-tech and high-tech grade crossing solutions and best practices that 
have been successful on a local level to reduce grade crossing 
accidents as well as strategies for overcoming barrier to 
implementation and funding sources. FRA plans to continue this 
collaboration and outreach with stakeholders by holding additional 
grade crossing summits during 2020 to engage locally with stakeholders.
    As I noted earlier, in November 2019, FRA issued its Highway-Rail 
Grade Crossing Business Plan as a complement to FRA's Trespassing 
Prevention Strategy. This Business Plan describes the actions FRA will 
take over the next three years to support the implementation of 
technology to improve grade crossing safety. The Business Plan outlines 
FRA's technological approach to grade crossing safety and emphasizes 
FRA's continued desire to FRA to work with all stakeholders to discover 
new and innovative ways to use technology to mitigate and eliminate 
grade crossing collisions. FRA recognizes the costs to communities to 
implement technologies at grade crossings, and accordingly, one focus 
of the Business Plan is identifying available funding opportunities 
through existing programs at FRA and other DOT modes (e.g., the Federal 
Highway Administration).
    In addition to developing the Business Plan, since Administrator 
Batory last testified before this Committee in June 2019, FRA has taken 
several additional actions to address and engage stakeholders in grade 
crossing safety issues, including actions to ensure the safety of 
railroad operations in quiet zones. Examples of these actions include:
    <bullet>  In November 2019, FRA published a notice of proposed 
rulemaking (NPRM) responding to the FAST Act's mandate to require 40 
States and the District of Columbia to develop and implement highway-
rail grade crossing action plans. Consistent with the statutory 
mandate, the NPRM also proposed to require the ten States previously 
required to develop highway-rail grade crossing actions plans to update 
their plans and submit reports to FRA describing the actions they have 
taken to implement them. FRA is currently reviewing comments received 
in response to the NPRM and anticipates publication of a Final Rule in 
the summer.
    <bullet>  Observing an increase in accidents at grade crossings 
within quiet zones, in December 2019, FRA wrote to all public 
authorities with quiet zones in which multiple accidents occurred in 
2018 to remind those entities of the importance of ensuring their quiet 
zones comply with the conditions of approval. To ensure future 
compliance, FRA implemented a standard operating procedure to inspect 
all established quiet zones (currently 907) on a three-year or less 
interval and to inspect newly established quiet zones within the first 
60 days.

    Additionally, the Risk Reduction and System Safety Program rules 
will require railroads to analyze how trespasser prevention technology 
and highway-rail grade crossing technology may help mitigate identified 
risks. Once these rules are published and implemented, FRA anticipates 
that the required analysis will provide railroads a framework for 
utilizing technology to combat risks associated with grade crossings 
and trespassers.
    In addition to grade crossing safety and trespassing prevention, 
the FRA is engaged with the railroads and state and local officials to 
address the sometimes impactful effects of railroad operations on 
communities.
    In May, noting an increase in the number of blocked crossing 
complaints FRA was receiving, Administrator Batory wrote to the Chief 
Executive Officers and senior leadership of the Class I railroads and 
major railroad holding companies regarding the impacts to quality of 
life associated with blocked crossings. Administrator Batory 
specifically requested that each railroad take action to minimize the 
occurrence of blocked crossings and redouble their efforts to work with 
states and local communities to advance the safety and efficiency of 
both railroad and highway transportation. In December, I wrote to all 
736 railroads operating in the United States, reiterating Administrator 
Batory's requests.
    On December 20, 2019 FRA launched a new online portal to collect 
data regarding the scope of blocked crossings issues across the 
country. The portal allows the public and public safety officials to 
submit reports of blocked crossings and specifically requests 
information on the location of the blocked crossing, and the time, 
duration, and impacts of the blocked crossing. This information will 
provide FRA with more standardized data on instances of blocked 
crossings throughout the United States and FRA will analyze the data 
and publicly share it with all affected stakeholders to help inform the 
development of local solutions to reduce and prevent incidents of 
trains blocking crossings.
                               Conclusion
    FRA will continue to effectively implement its National Strategy to 
Prevent Trespassing on Railroad Property and carry out its Highway-Rail 
Grade Crossing Safety Business Plan. The agency remains committed to 
continuing to lead, promote, and strengthen efforts among all 
stakeholders to increase awareness of grade crossing safety issues, the 
potential consequences of trespassing on railroad rights-of-way, and 
existing and potential trespassing prevention strategies.

    Mr. Lipinski. Thank you, Mr. Alexy.
    I now recognize Mr. Vercruysse for 5 minutes.
    Mr. Vercruysse. Good morning, Chairman Lipinski, Ranking 
Member Crawford, Chairman DeFazio, and all of the honorable 
members of this subcommittee. I am here on behalf of the 
Illinois Commerce Commission to share challenges facing us with 
our rail safety efforts at public highway-rail crossings. We 
are very grateful for this opportunity.
    Illinois has nearly 7,600 at-grade crossings and over 2,600 
highway-rail bridges. Nationally, Illinois is only second to 
Texas in the number of crossings. With over 60 railroad 
companies operating on approximately 7,400 miles of track, our 
rail system is the country's second largest, including the 
largest rail freight hub in the city of Chicago with 1,200 
trains per day.
    In 1955, Illinois created the Grade Crossing Protection 
Fund to assist in paying for safety improvements at public 
highway-rail crossings. To date, $991 million has been 
authorized under the direction of the Illinois Commerce 
Commission towards warning device upgrades, bridges, and many 
other safety projects.
    We have seen significant accident reduction over the long 
term with all of our partners from the communities and 
railroads. However, in the last 10 years, we have seen accident 
rates plateau, and even in certain instances creep a little 
higher. Our State funding, along with Federal funding sources, 
provide an opportunity to complete many more projects as well 
as address safety concerns that have demanded our attention but 
have lacked solutions for a variety of reasons.
    As I highlight three main areas of concern today, there is 
no doubt that funding is needed, but it alone will not suffice. 
Loss of shunt is a primary concern for the State of Illinois, 
where the crossing signal and warning devices have failed to 
properly detect certain trains. With advances in diagnostic 
tools, it was determined that this problem, which is infrequent 
and difficult to isolate, is not unique to Illinois.
    In response, extensive testing is ongoing, with adjustments 
made to warning devices, signal systems, and train speeds. 
Further work is planned. Ultimately, though, we believe there 
is a need to push towards and fund the next generation of 
Positive Train Control that activates warning devices and 
provides for more functionality in train signaling.
    Blocked crossings present another significant public safety 
concern that creates serious access problems for communities 
and help to create unsafe behavior at crossings. We have seen 
pedestrians crawl through trains and motorists drive around 
lowered gates to avoid long delays, as well as other concerns.
    We have also received complaints from our citizens and 
first responders. This has increased with the rollout of the 
FRA's blocked crossing reporting website.
    We have found changes in rail operations that have 
aggravated existing conditions or create new impacts where 
crossings are blocked consistently for 10 minutes to multiple 
hours, and in rare, infrequent cases, we have had days. 
Railroad personnel inexperience, unfamiliarity with an area, 
insufficient rail infrastructure, mechanical breakdown, 
regulatory requirements, and train length are the reasons 
typically found in our inspections.
    Blocked crossings in Illinois have also been well 
documented in the cases before the Surface Transportation Board 
when approval is requested for a railroad's sale, lease, or 
other transaction. We believe the reports required from 
railroads and STB dockets provide the most valuable information 
relative to operations, length of train, blocked crossings, and 
the status of warning devices.
    In 2008, the Illinois Supreme Court ruled that an Illinois 
statute prohibiting the blocking of a crossing was 
unconstitutional and preempted by Federal law. The Illinois 
statute provided requirements for interactions within emergency 
vehicles and included increasing fines based upon time 
intervals for obstructions over 10 minutes.
    With similar findings in other States, we believe that 
Federal legislation is necessary to bridge the gap between 
preemptive State laws and the STB's authority on blocked 
crossings, instead of waiting for case-by-case issues that 
arise that create immediate negative impacts.
    Trespassing and suicide along rail lines in Illinois are 
also significant issues. It is a problem that has been present 
for the past 30 years and accounts for approximately 30 
fatalities and 25 injuries per year each. That is for 
trespassing and suicide. Each sees approximately 30 fatalities.
    Recent studies by the FRA identified that 75 percent of 
trespassing incidents happened within 1,000 feet of a grade 
crossing. To address this and other hotspots, we are working 
with our State lawmakers to expand funding to allow for 
assistance with trespass mitigation.
    There are other areas to address and improve that I have 
included in my written testimony. We believe that the section 
of warning devices and other improvements at a grade crossing 
should be based upon the best available technology and based 
upon corridor reviews.
    The use of four-quadrant gates provides an example as it 
addresses 25 percent of all crashes we see in Illinois where 
motorists drive around the gates. Also, for project 
development, we see challenges for communities in meeting 
funding match requirements, and we have experienced what 
appears to be a pullback by many railroads in providing 
resources to address public works projects.
    Further, some railroad requirements regarding project 
scope, cost, design, agreements, and operations during 
construction have led to requests that may not coincide with 
the needs of a specific location.
    Thank you again for providing me this opportunity to 
highlight the activities and concerns in Illinois. While I 
represent the Illinois Commerce Commission, I am also a member 
of the Association of State Rail Safety Managers, which 
includes 30 States plus the District of Columbia.
    While Illinois has many unique operating considerations, 
the concerns I have discussed today are common across much of 
the country.
    Thank you.
    [Mr. Vercruysse's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Brian Vercruysse, P.E., Rail Safety Program 
              Administrator, Illinois Commerce Commission
    Good morning Chairman Lipinski, Ranking Member Crawford, Chairman 
DeFazio, Representative Davis, and all the honorable members of this 
subcommittee. I am here on behalf of the Illinois Commerce Commission 
and the State of Illinois to share our history, recent experience, and 
the challenges facing us with our safety efforts at public highway-rail 
crossings. We are very grateful for this opportunity.
     Illinois Transportation Network--Public Highway-Rail Crossings
    Illinois has 7,595 public highway-rail grade crossings and 2,667 
highway-rail bridges. There are also 323 pedestrian grade crossings and 
104 pedestrian bridges. Nationally, Illinois is second only to Texas in 
the total number of highway-rail crossings. With over 60 railroad 
companies operating on approximately 7,400 miles of railroad track, our 
rail system is the country's second largest, including the nation's 
largest rail freight hub in Chicago with approximately 1,200 trains per 
day.
                 History--Illinois Commerce Commission
    Next year the Illinois Commerce Commission celebrates its 100th 
anniversary in its current format from 1921, and for Illinois it also 
marks the 150th anniversary of addressing rail safety concerns that 
started with our predecessors--the Railroad and Warehouse Commission of 
1871. The Illinois Commerce Commission was one of, if not the first 
entity, to fund the installation of warning devices at crossings on a 
corridor basis; and in 1955, the State of Illinois passed legislation 
creating the Grade Crossing Protection Fund to assist public agencies 
in paying for safety improvements at highway-rail crossings on local 
roads and streets. Funding levels have increased since 1955, and today 
$42 million is provided annually towards crossing safety improvements 
at public highway-rail crossings. The array of projects completed 
include warning device upgrades, bridges, traffic signal interconnects, 
highway approaches, crossing closures, surface renewals, and the 
development of newer technologies at public highway-rail crossings.
    The State of Illinois has authorized $991M towards these types of 
safety projects through the Grade Crossing Protection Fund. With this 
state funding, and the federal funding provided through the Section 130 
fund (approximately $11M per year), the State of Illinois and its 
community and railroad partners have seen significant long term returns 
in the way of accident reduction--though recent returns have diminished 
as we have seen accident rates plateau and even creep back higher in 
the last ten years. But I am happy to report that many further safety 
improvements are planned. The State of Illinois Capital Plan passed in 
2019 will provide an additional $78M towards highway-rail crossing 
safety over the next 5 years. This funding provides an opportunity to 
continue with the types of projects mentioned previously but could also 
help address safety concerns that have demanded our attention but have 
lacked solutions for a variety of reasons. Specifically, these concerns 
involve 1) conventional track circuits with loss of shunt; 2) blocked 
crossings; 3) trespassing; 4) best available technology; and 5) project 
development and coordination. As I describe each of these in more 
detail, there is no doubt that funding is needed--but it alone will not 
suffice. Legislative changes at the state and federal levels are 
required, as well as a push towards the best available or next 
generation of crossing warning systems.
                            1. loss of shunt
    Loss of Shunt is a primary concern for the State of Illinois. The 
Illinois Commerce Commission first became aware of this issue 15 years 
ago where the crossing signal and warning device systems failed to 
properly detect some approaching passenger trains. This has led to 
Activation Failures where the warning devices or gates failed to 
provide adequate warning to motorists, or in the worst case, the gates 
never come down as a train goes through a grade crossing. With advances 
in diagnostic tools, it was determined in recent years that this 
problem, which is infrequent and difficult to isolate, is not unique 
only to Illinois but is widespread. In response, extensive testing and 
investigation is ongoing with adjustments being made to warning 
devices, train signal systems, train speeds, and other modifications. 
The changes have helped alleviate the issues, but the problem persists. 
The Illinois Commerce Commission is working with various railroads, the 
Illinois Department of Transportation, Amtrak, and FRA to fund a 
demonstration project in 2020 and 2021 to test a product new to the 
United States. We believe there is a need to push towards and fund the 
next generation of Positive Train Control that activates warning 
devices at highway-rail crossings and provides more functionality in 
train signaling and that does not predominately rely on conventional 
track circuits first used in the late 1800's. This will provide the 
additional safe method of train detection needed for those Loss of 
Shunt conditions that occur with light/fast commuter operations and 
freight train movements that are caused by rail contamination. We also 
believe that changes should be made in 49 CFR 234.9 requiring the 
reporting of Activation Failures within 24 hours, which is consistent 
with reporting accidents involving grade crossing signal failure (49 
CFR 234.7).
                          2. blocked crossings
    Blocked Crossings present another significant public safety concern 
in Illinois. They create serious access problems for emergency 
responders, affect school bus routings, and disrupt the general flow of 
vehicular traffic throughout a community. We have seen pedestrians 
crawl through trains, parents pass children through trains, motorists 
drive around lowered gates to avoid long delays, and even lift roadway 
gates where a train was stopped clear of the road but still activating 
the warning devices. We have also heard from our citizens and Emergency 
Services agencies on their concerns for overall public safety, access, 
and response. This has been heightened with the December 15th rollout 
of FRA's Blocked Crossing Reporting Portal. As of January 30th, there 
were over 500 submissions from Illinois alone (60% of all reports).
    The larger industrial areas of our state (Chicagoland, Illinois 
portion of the St. Louis Metro area, Decatur, for example) are the 
locations that have historically heavy volumes for both train and auto 
traffic. For these locations, bridges, connecting roads, or other 
infrastructure improvements have been built to help alleviate the 
highway/rail transportation conflict. In certain areas, communication 
and emergency plans have been prepared. These actions must continue, 
and we plan to do so. But we have also found changes in rail operations 
that have aggravated conditions or create impacts new to communities 
that may now see their highway-rail crossings blocked consistently for 
10 minutes to multiple hours; and in the extreme but infrequent cases, 
days. Railroad personnel inexperience or unfamiliarity with an area, 
insufficient siding length, timing of train meets, lack of yard 
capacity, lining switches, mechanical breakdown, crew hours of service, 
and increased train length are the reasons typically found or stated 
for obstruction of crossings.
    While there is no specific public data available on train length, 
the Illinois Commerce Commission reviewed 40 years of FRA data on 
freight train and vehicle collisions at mainline grade crossings. The 
FRA reports include the number of cars and locomotives in use at the 
time of the crash. The analysis shows increases in average train length 
since 1980, with an approximately 25% increase in the last ten years 
alone to an average length over a mile long. This is consistent with 
the May 2019 GAO study on train length with data provided by two Class 
I railroads. The GAO noted that train accidents have declined according 
to the Federal Railroad Administration's data, with train accidents per 
million-train-miles decreasing by about 14 percent between 2008 and 
2017. However, we have reviewed 2010 to 2019 FRA data, and have found 
the accident rate has increased 10.4% for grade crossing incidents and 
51% for trespasser incidents. Further, when the GAO study was 
published, we reviewed the FRA's Train Accident/Incident file to look 
at crashes involving locomotives used as Distributed Power Units 
(DPUs). These units, utilized at the mid and/or rear of a train are 
used for the additional power necessary to run trains up to 3 miles or 
more in length. From 2008 to 2018, approximately 12% of incidents 
involved DPU-equipped trains. In Illinois, we regularly see trains 
approaching 2 miles long, with less frequent trains closer to 3 miles 
in length. Other than our observations and inspections, the use of 
longer trains in Illinois has been well documented in cases before the 
Surface Transportation Board (STB) when approval is requested for a 
railroad sale, lease, or other transaction.
    We have found that the reports required from railroads in STB 
dockets provide the most valuable information relative to operations, 
length of train, blocked crossings, and the status of warning devices. 
This is the only area within federal or state law where reporting, 
assessment of impacts, and development of mitigation measures 
associated with blocked crossings are formally addressed.
    State Laws on blocked crossing, while still in place, have been 
preempted. In 2008, the Illinois Supreme Court ruled that an Illinois 
statute prohibiting the blocking of a highway-rail crossing and 
allowing a community to issue tickets to rail carriers was 
unconstitutional and preempted by the Federal Railroad Safety Act of 
1994 and the Interstate Commerce Commission Termination Act of 1995. 
The Illinois statute structure provided and included requirements for 
interactions with emergency vehicles, and included increasing fines 
based upon time intervals for obstructions over ten minutes. At the 
lower end with an obstruction under 15 minutes, the fine is $200 to 
$500; at the higher end for over 35 minutes the fine is $1000 as well 
as $500 for each additional 5 minutes of obstruction. From 2009 to 
2018, similar laws from other states were met with federal preemption 
findings, and a 2019 Oklahoma law is currently under a Federal 
Injunction.
    With little federal oversight and no state authority, there are no 
tools to incentivize or deter railroads from blocking crossings. When 
blocked crossing issues do appear or are heightened, coordination with 
railroads, communities, the FRA, and other stakeholders has helped in 
certain instances, but the solutions are not always collaborative or 
equitable to all parties. Moreover, where a problem area was addressed, 
a new challenge may be created at crossings elsewhere on the line, or 
reappear with new personnel, customers, or other operational changes. 
We believe that federal legislation is necessary to bridge the gap 
between preempted state laws and the STB's authority on blocked 
crossings, and to provide consistent direction instead of waiting for 
case-by-case issues to arise that create immediate negative impacts to 
public safety and convenience. Ultimately, our desire is to work 
collaboratively with communities, railroads, and the FRA to provide 
infrastructure improvements that allow for safe and enhanced rail and 
highway operations.
                       3. trespassing and suicide
    Trespassing and suicide along rail lines in Illinois are also 
significant concerns. It is a problem that has been present for the 
past 30 plus years and accounts for approximately 30 fatalities and 25 
injuries per year, leaving so many people impacted. Recent studies by 
the FRA identified that 75% of trespassing incidents happen within 500 
to 1000 feet of a grade crossing. To address this and other hot spots, 
we have been working with our state lawmakers to expand funding from 
our Grade Crossing Protection Fund to allow for assistance with 
trespassing mitigation, as well as the construction of more bridges to 
meet community demand for safer pedestrian and commuter accommodations. 
The bill was just introduced last week as IL House Bill 4248.
        4. use of best available technology and corridor reviews
    While we pursue the next generation of Positive Train Control and 
integration with grade crossings, we have current equipment that is 
proven and provides the best available technology. For Illinois, the 
use of four quadrant gates with vehicle detection provides an example. 
There are 178 four quadrant gate locations in the State of Illinois 
that seal the entire crossing and use vehicle detection to avoid 
entrapment of a motorist on a crossing. The first installations were 
completed in 2001, and the latest location completed in 2018. 
Commission Staff believes that the installation of four quadrant gates 
should be the goal when installing, renewing, or making significant 
changes to crossings within mixed commuter and freight corridors in the 
Chicago region, or other complex areas in the country. In Illinois 
where nearly 25% of crashes stem from motorists driving around gates, 
we believe four quadrant gates provide the best available technology. 
Staff believes that any additional cost concerns are outweighed by the 
greater safety benefit with four quadrant gates compared to just 
upgrading or renewing a crossing to two quadrant gates. Along with the 
use of best available technology, we also believe corridor reviews 
should be conducted in the overall analysis when determining 
improvements for grade crossings.
                  5. project coordination & challenges
    In Illinois we have seen challenges for communities in meeting 
funding match requirements. In response, the Commission has increased 
assistance for signal projects, and we are currently reviewing reducing 
the match for other types of projects. We are also aware of Section 130 
match concerns, and the desire for more funding for bridge projects.
    In addition, we have experienced what appears to be a pullback by 
many railroads in providing resources to address public works projects. 
This has led to delay in finalizing plans, estimates, reviews, and 
agreements. Further, some railroad requirements regarding project 
scope, cost, design, and operations during construction have led to 
unreasonable requests that do not coincide with the needs of a specific 
location. Again, this contributes to project delays, wasted resources, 
increased costs, and in some cases, projects may not be pursued.
    Thank you again for providing me this opportunity to highlight the 
activities and concerns in Illinois. While I represent the Illinois 
Commerce Commission, I am also a member of the Association of State 
Rail Safety Managers that includes 30 States and the District of 
Columbia. While Illinois has many unique operating considerations, the 
concerns I've discussed today are common across much of the country.
                              Exhibit List
    A.  Illinois System Facts
    B.  Illinois Crash & Incident Trends
    C.  Illinois Grade Crossing Crash Statistics
    D.  Nationwide Incident Rates
    E.  Estimating Increase in Average Train Length: 1980-2019
    F.  Illinois House Bill 4248--Trespass Mitigation Measures
    G.  STB Reporting Requirements (Example)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


    Mr. Lipinski. Thank you, Mr. Vercruysse.
    I now recognize Mr. Christoffels for 5 minutes.
    Mr. Christoffels. Good morning, subcommittee Chairman 
Lipinski and subcommittee Ranking Member Crawford and 
distinguished Members. We appreciate the opportunity to share 
almost two decades of working towards essentially zero tracking 
on railroad crossing improvements.
    I have an exhibit up there. What I am going to do is 
quickly go through the what, the why, the status of our 
project, and of course the funding. This map identifies where 
we are located. We are the San Gabriel Valley Council of 
Governments, a joint powers authority of 30 cities located in 
the eastern part of L.A. County, representing almost 2 million 
residents.
    [Slide shown.]
    It is the green area shaded on the map that is before you. 
As you can see, you have the two ports of L.A. and Long Beach, 
a major port destination for the entire Nation. Forty percent 
of anything imported by water into the United States comes 
through those two ports, as well as 25 percent of anything 
exported from the United States exits through those ports.
    Most of those cargo containers are put on rail, and as you 
can see will travel up towards Los Angeles and then head due 
east through the San Gabriel Valley. We typically see anywhere 
between 100 and 180 trains coming through. This is an economic 
engine for the United States, and it is important. As was 
stated earlier in the intro statement, goods movement and what 
we do here is essential to our competitiveness, but we also 
have to realize that these rail activities have consequences 
for the local communities.
    Could I have the second exhibit, please?
    [Slide shown.]
    This is what happens when you combine an intense rail 
traffic activity in a very heavily urbanized environment. And 
as you can see in the upper left, we get rail stacking, maybe 
not full blocking, but it doesn't take much for a 1- or a 1\1/
2\-mile-long freight train to come through, combined with 
arterial streets that may have up to 40,000 cars a day, to 
cause stacking.
    We typically see up to 2,000 vehicle-hour delays, meaning 
it is the equivalent of 2,000 vehicles idling for an hour. In a 
nonattainment area like southern California, in addition to the 
inconvenience to the motorists, this is causing an 
environmental impact as well.
    And then, what was stated earlier from the gentleman to the 
right of me, you get a motorist's frustration. We have all 
experienced sitting at an impacted traffic signal where you 
have gone through one traffic signal and then it turns red and 
you still haven't gotten through it. And then it goes an inch 
up again, and you get that second shot, and then you get--and 
what you see after a while is that motorists are so frustrated 
they are running the red lights.
    What we were experiencing in the San Gabriel Valley is 
people so frustrated they were driving around the gates. They 
weren't going to wait any longer for that rail, and, obviously, 
resulting in accidents.
    On the lower right, we have the issue of pedestrians. A lot 
of these railroads cross areas where schoolchildren have to get 
back and forth between their schools. That, in itself, causes 
an issue as the children are desperate to get to class on time. 
And then, on the lower left is something that is not spoken of 
much, and that would be your vehicle response.
    Lives are lost due to accidents on these crossings, but 
lives are also lost to the inability of our first responders to 
get to a response call in a timely manner. Here you see a 
paramedic unit waiting for a slow-moving train. I will share in 
this particular instance this had to call for a backup unit for 
an emergency response on the other side in a different city. 
Fortunately, the individual that had called for service was 
responded to in a timely manner.
    Could I have the next slide, please?
    [Slide shown.]
    This is a blowup of our area. We have 55 crossings located 
within the San Gabriel Valley. What we have been doing for the 
last 20 years is improving these crossings. For those that have 
minimum vehicle counts and can't justify spending upwards of 
$100 million to do a physical grade separation, we have been 
doing the improvements that you have heard earlier--testimony 
from the gentleman to the right--we have been installing four-
quadrant gates, pedestrian gates, warning lights, signal 
interconnects, any ability to make sure that the motorists 
can't drive around and stops adequately for the crossings.
    Nineteen of these, due to heavy vehicle volume, justified 
physical grade separation. Right now, we have completed 14 of 
those 19. I have three in construction, and the remaining two 
in design. The total cost for this has been $1.8 billion in 
funding.
    And we are well on our way, as stated by Grace Napolitano, 
on completing this ambitious program. I have to credit the 30 
member agencies to start this program 20 years ago, to realize 
that rail traffic was going to increase substantially, and 
everything that they had been witnessing was going to increase 
dramatically. They had a lot of foresight to go and start this 
very ambitious program to increase rail safety.
    We do get calls from all the way across the Nation, as they 
are now experiencing something similar, especially in Chicago, 
and asking, ``How did you guys do it? Where did you get the 
funding? How did you get all of this organized?'' And we are 
proud to share those experiences with you.
    What I would like to talk a little bit is about the 
funding. Obviously, to implement a program this ambitious 
requires a lot of funding. When we first started, we were 
getting Federal funding up to 80 percent of the cost of these 
grade separations. I can tell you today the Federal 
contribution to our grade separations is down near 15 percent.
    The Federal funding allocated to this type of program 
activity has diminished and can't keep up with demand. During 
the last INFRA call for projects, DOT will tell you that there 
was upwards of $12 in applications for every $1 that was 
available. That tells you what kind of increasing demand we are 
having out there to physically separate our rail activity, our 
commerce activity, from the individual cities that are being 
impacted.
    And I want to emphasize that. We look at a lot of our 
infrastructure funding on increasing the ability to move goods 
from point A to point B. But sometimes we have to take a step 
back and say, ``At what price are we doing that? Are we 
mitigating the impacts of what we are doing?''
    I can increase the rail activity. I can put my throughput 
in there. But these cities that are being impacted by the 
delays caused by the increased rail activity, we need to make 
aware that we have to mitigate that. We have to go back and 
grade separate these crossings, so that those individual 
communities won't experience what I showed you earlier in those 
photographs.
    The problem that we see--and we have experienced in the 
L.A. area--as the greatest impacts on these communities is in 
the most heavily urbanized environment. And if you think about 
an area like L.A., one-third of my project cost is land 
acquisition. You are in a heavily urbanized area that is fully 
developed with skyrocketing land costs.
    On a $100 million project, I could spend one-third of that 
money on land acquisition. When you look at the benefit-cost 
ratio of us competing nationally for funding in a program that 
will fund grade separations, we don't rank very well because 
our costs are so extraordinarily high compared to the normal 
measure of benefit, which would be vehicle prevention of 
accidents and that sort of thing.
    And one of the things that I would ask that this 
subcommittee----
    Mr. Lipinski. Mr. Christoffels, if you can wrap up, we can 
come back to some questions.
    Mr. Christoffels. Sure. Would be to look at the funding 
opportunities and to increase them.
    With that, thank you.
    [Mr. Christoffels' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Mark Christoffels, Chief Engineer, San Gabriel 
                     Valley Council of Governments
    Chairman DeFazio, Ranking Member Graves, Subcommittee Chairman 
Lipinski, Subcommittee Ranking Member Crawford and Distinguished 
Members of the Subcommittee:
    I am Mark Christoffels, Chief Engineer for the San Gabriel Valley 
Council of Governments (SGVCOG), a California joint powers authority 
made up of representatives from 30 cities, three Los Angeles County 
Supervisorial Districts and three municipal water districts located in 
the San Gabriel Valley, a region of 2 million residents in eastern Los 
Angeles County.
    In response to a grade crossing study of the Alameda Corridor-East 
(ACE) Trade Corridor in Southern California, the SGVCOG established the 
ACE Construction Authority in 1998. This single-purpose construction 
authority was charged with implementing a rail crossing improvement 
program intended to mitigate vehicle delays, collisions and other 
community impacts at 55 at-grade rail-roadway crossings in anticipation 
of growing freight rail traffic in the San Gabriel Valley. This 
initiative has developed into a comprehensive $1.8 billion program of 
rail-highway grade separations and crossing safety improvements along 
the ACE Trade Corridor, which is among California's and the Nation's 
busiest rail corridors.
    The transcontinental rail lines that comprise the ACE Trade 
Corridor accommodate significant, and growing, freight carried between 
the American heartland and our nation's busiest port complex in the San 
Pedro Bay. Together, the ports of Los Angeles and Long Beach handle 
more than 40 percent of all shipping containers arriving by ocean 
vessel on our shores and 25 percent of America's exports. These cargo 
volumes result in more than 180 Union Pacific Railroad and BNSF trains 
per day traversing the ACE Trade Corridor, carrying 16% of all the 
Nation's waterborne containerized freight (See Exhibit 1). In addition, 
dozens of daily Metrolink regional commuter trains operate on the 
freight rail mainlines under shared-use agreements.
                               exhibit 1
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The ever-increasing freight train traffic along the ACE Trade 
Corridor has resulted in traffic queueing and delays at at-grade 
crossings as well as deaths and injuries from crossing collisions. 
Twenty years ago, the ACE Trade Corridor crossing improvement plan 
evaluated all at-grade crossings in the San Gabriel Valley and proposed 
building grade separations, where the road goes under or over the 
railroad, at the most congested and hazardous crossings. These 
improvements would enhance crossing safety, eliminate vehicle delay 
throughout the local roadway network and locomotive horn noise, and 
reduce vehicle emissions in Southern California, a Federal air quality 
nonattainment area (see Exhibit 2). In response, the ACE Construction 
Authority created a comprehensive strategy to fund and implement the 
study's recommendations.
                               exhibit 2
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Clockwise from top left, traffic queuing at the Montebello Boulevard 
crossing; collision at Nogales Street crossing; pedestrians in Pomona; 
     paramedics blocked by train at Turnbull Canyon Road crossing.

    Armed with this plan of action, the SGVCOG and the ACE Construction 
Authority came to Capitol Hill in 1998 during consideration of the 
Transportation Efficiency Act for the 21st Century (TEA-21) legislation 
to request Federal funding for the implementation of the ACE Program. 
In the context of the recently ratified North American Free Trade 
Agreement and the resulting need to improve our Nation's goods movement 
infrastructure, Congress recognized the importance of the ACE Program 
to this effort by designating the ACE Trade Corridor as a National High 
Priority Corridor and awarding approximately $133 million for the 
proposed rail-roadway improvements.
    In 2005, Congress continued its strong support for the ACE Program 
in the next transportation reauthorization (SAFETEA-LU) by designating 
the ACE Trade Corridor as one of only 25 Projects of National and 
Regional Significance and providing $67 million in funding. In 
addition, $17 million in funding was allocated to ACE projects during 
the annual appropriations process between 2000 to 2010, as well as an 
additional $28 million in other Federal funding.
                               exhibit 3
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This Federal recognition and funding served as an important 
catalyst for the substantial subsequent investment of more than $1.5 
billion in California state and local funding which has made the full 
funding of the $1.8 billion ACE Program achievable in the near term, if 
we are able to secure approximately $70 million to complete a 
programmatic funding shortfall.
    Chairman DeFazio may recall touring the ACE Trade Corridor by 
helicopter in early 2009, along with representatives of the SGVCOG, the 
Ports of Los Angeles and Long Beach and the Alameda Corridor 
Transportation Authority, during a visit to the Los Angeles region for 
a joint field hearing hosted by this Subcommittee and the Highways and 
Transit Subcommittee. That hearing was titled ``Confronting Freight 
Challenges in Southern California.''
                               exhibit 4

                                                                  Active ACE Projects
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Daily V/H    Daily      Collisions
      Project               City          Cost ($m)    Jobs       Delay      Trains     (10 yrs./     Total      Total    Current Phase    Construction
                                                                 (2025)     (2009)       Total)      Deaths    Injuries                      Schedule
--------------------------------------------------------------------------------------------------------------------------------------------------------
    Montebello Bl          Montebello       $180.0     2,340        43.5         49           2/5         3           1     Final Eng.       2021-2023
 Crssgs. Imprvmt.          Montebello         $3.0        39       N/A           49           2/3         0           1     Final Eng.       2020-2021
  Maple Av Bridge          Montebello        $25.5       332       N/A           49           0/2         0           0     Final Eng.       2020-2021
        Durfee Av         Pico Rivera       $107.8     1,401        34.0         49           2/9         4           0   Construction       2019-2022
  Turnbull Cyn Rd           Industry/LA Cty  $99.1     1,288        38.9         49          4/14         3           3     Final Eng.       2021-2023
     Fullerton Rd           Industry/LA Cty $159.5     2,074       115.4         49           1/4         0           3    Construction      2016-2022
       Fairway Dr           Industry/LA Cty $224.8     2,922        62.5         49          7/17         3          11    Construction      2015-2023
 Crssgs. Imprvmt.              Pomona        $24.2       315       N/A           81          5/32        19           9     Final Eng.       2020-2021
--------------------------------------------------------------------------------------------------------------------------------------------------------

    We are pleased to report significant progress since the Chairman's 
visit. As of today, we have completed and opened to traffic 14 grade 
separations, are currently under construction on another three grade 
separations and are preparing to award construction contracts for our 
final two grade separations this year or next year (see Exhibits 3 and 
4). We have also closed or eliminated three grade crossings and 
installed safety measures at the remaining crossings, such as four-
quadrant gates or center medians to deter motorists from driving around 
lowered crossing gates.
    There have been 128 collisions at the 19 crossings which already 
are or will be grade separated in eastern Los Angeles County, according 
to our review of Federal Railroad Administration (FRA) crossing 
collision records. These collisions resulted in at least 26 fatalities 
and 46 injuries. Grade separations will eliminate crossing collisions 
at these busy streets as well as a total of more than 2,000 vehicle-
hours of daily delay at the San Gabriel Valley's blocked crossings, 
including for emergency responders.
    We are grateful for the strong support of Congress and the Federal 
Government for our ambitious plan to mitigate the substantial and 
negative impacts of ever-increasing freight rail traffic through the 
San Gabriel Valley. While this support has been instrumental in 
initiating the ACE Program, as the state of California and the County 
of Los Angeles have subsequently provided robust freight project funds, 
the share of our Federal contribution has declined to less than 15 
percent, or $244 million of the $1.8 billion secured. This stands in 
stark contrast to the traditional 80 percent Federal to 20 percent 
State or local funding ratio for such infrastructure improvements. The 
substantial national economic benefits of an efficient goods movement 
network and the resulting negative impact on our local communities 
warrant a much higher level of Federal assistance for programs like the 
ACE Program.
    In this context, we helped establish the Coalition for America's 
Gateways and Trade Corridors (CAGTC) nearly 20 years ago to advocate 
for sufficient funding in Federal legislation for trade corridors, 
gateways, intermodal connectors and freight facilities. We were pleased 
that Congress established a national freight program and authorized the 
expenditure of substantial funding to support freight infrastructure 
improvements in the Moving Ahead for Progress in the 21st Century (MAP-
21) Act of 2012 and the Fixing America's Surface Transportation (FAST) 
Act of 2015.
    Concurrent with this decades-long effort, the ACE Program has 
annually sought to secure Department of Transportation (DOT) 
discretionary grant funding for our grade separation projects without 
any success, including multiple applications for BUILD (Better 
Utilizing Investments to Leverage Development--formerly known as TIGER) 
and INFRA (Infrastructure for Rebuilding America--formerly known as 
FASTLANE) grants. I believe there are a number of reasons for our lack 
of success, including the substantial cost of real estate in urban 
areas which adds significant additional cost and adversely affects the 
benefit-cost ratios for our projects.
    This lack of success in securing Federal discretionary funding over 
the last decade has been frustrating, especially given that our Program 
has long been considered a top Federal priority. Consequently, we have 
had to disproportionately rely on state and local funding to support 
our construction projects that address Federal, state and regional 
transportation priorities.
    In the context of reauthorization and other transportation 
infrastructure-related legislation, we respectfully request that the 
Subcommittee consider the following policy recommendations that would 
increase the availability of much needed funding for freight and grade 
separation and crossing safety projects.
Support the enactment of robustly funded transportation infrastructure 
                              legislation
    I am excited that both the Majority and Minority Members of the 
full Committee have recently recommended transportation and other 
infrastructure principles. This is an important first step toward the 
enactment of a robustly funded transportation authorization bill that 
will seek to address our Nation's substantial transportation 
infrastructure needs. It is my hope that any such legislation will 
prioritize safety improvements, nationally and regionally significant 
highway and multi-modal projects, and freight infrastructure. The 
Majority's infrastructure framework in our view importantly prioritizes 
funding freight projects of national and regional significance with 
focused eligibility criteria to guide final discretion over project 
selection and seeks to ensure that freight projects across all modes 
are eligible for Federal investment.
 Provide $12 billion a year for a discretionary freight grant program 
                         and prioritize safety
    We stand with the more than 60 agencies and organizations across 
the nation who are members of the Coalition for America's Gateways and 
Trade Corridors in advocating for $12 billion annually in Federal 
funding to be provided to all modes of freight projects via a merit-
based discretionary grant program. Our experience has shown that the 
Infrastructure for Rebuilding America or INFRA program authorized in 
the FAST Act has tremendous potential to help build a strong national 
multimodal freight network, but the $800 million to $900 million in 
annual funding made available is inadequate. In fact, DOT reports 
receiving $12 in unique requests nationwide for every $1 available made 
available through the INFRA program.
    We also recommend Congress require greater transparency for the 
project discretionary selection process and provide additional 
direction and guidance for this process. For instance, Congress should 
direct that project evaluation through the discretionary grant process 
prioritize safety as an outcome. Members of this panel with crossings 
in their districts know well the devastating human toll that results 
from crossing collisions. Yet, in benefit-cost analyses we have 
prepared for grade separation projects submitted for Federal grant 
funding, the quantification of reduced deaths and injuries yield 
relatively minor benefits when compared to project costs, especially in 
built-out urban areas with high real estate costs. Congress should 
direct that projects that enhance safety are made commensurate to, or 
at least competitive with, projects that improve efficiency, capacity 
or throughput.
    Create a discretionary grant program for rail-roadway crossing 
                              improvements
    The Federal Highway Administration (FHWA) and FRA are the primary 
Federal agencies responsible for grade crossing safety across the 
country, with FHWA administering the Section 130 formula program and 
FRA providing safety oversight of both freight and passenger rail. We 
applaud Congress for continuously authorizing the Section 130 program 
for almost three decades. It is the primary program intended to provide 
Federal assistance to localities seeking to implement at-grade 
improvements to reduce the number, severity and potential of hazards to 
motorists, bicyclists, and pedestrians at crossings. The Section 130 
program is authorized at between $200 million and $350 million annually 
with these funds apportioned to the States by formula.
    In California, the Section 130 program is administered by the 
California Public Utility Commission, which regulates rail crossings, 
and the California Department of Transportation (Caltrans). We are 
currently working with both state agencies to secure an award of 
Section 130 funds for a project to install railroad right-of-way 
fencing and pedestrian crossing gates in the City of Pomona, where 
upwards of 80 freight trains a day traveling on multiple main line 
tracks have resulted in alarming rates of pedestrian deaths and 
injuries. Approximately $1 million to $3 million will be made available 
in Section 130 funds for our project which has a total cost of $24 
million, or a Federal contribution of less than 13 percent.
    It is clear to us that the Section 130 funds made available to 
California are insufficient, a situation likely experienced by other 
states with ambitious crossing safety programs, while we are informed 
that some states may not make full use of their annual allotments. 
Congress should consider establishing a new, nationally competitive 
discretionary grant program that is dedicated to providing funding to 
the most nationally and regionally significant rail-roadway improvement 
projects in the Nation. Unused annual Section 130 state allotments 
could supplement this program or could be used directed to a separate 
``pool'' for distribution to meritorious projects through a nationally 
competitive process.
   Bolster the CRISI program and better define applicant eligibility
    We applaud Congress for authorizing the Consolidated Rail 
Infrastructure and Safety Improvements (CRISI) program funded at about 
$240 million per year to improve the safety, efficiency, and 
reliability of passenger and freight rail. We support the Majority 
proposal to direct $55 billion over five years toward freight and 
passenger rail infrastructure, and respectfully recommend that a 
significant portion be dedicated to grade separations. With grade 
separations in urban areas in our experience costing an estimated $100 
million each, additional CRISI funding is warranted.
    In addition, we contend the definition of eligible applicants in 
the CRISI authorizing statute is problematic and respectfully request 
that it be amended. The statute defines eligible applicants as 
``political subdivisions of a State,'' a term not clearly defined in 
Federal law and a category without clearly enumerated eligible 
entities. As an example of the negative impact of this lack of clarity, 
consider that when ACE Construction Authority applied for funds from 
the similarly structured Rail Line Relocation and Improvement Capital 
Grant Program, FRA legal counsel opined that we were ineligible to 
apply. This was despite the fact that ACE Construction Authority was a 
California joint powers authority comprised of 30 cities and Los 
Angeles County, and had been delegated all powers, such as eminent 
domain and others, necessary to implement a $1.8 billion grade crossing 
safety program. FRA counsel said that ACE Construction Authority lacked 
two attributes common to a political subdivision of a State: first, a 
police force and, second, taxing authority. However, neither attribute 
is necessary to implement a program of crossing improvements, as we 
have been doing for nearly 20 years. We urge Congress to expand the 
definition of eligible applicants in this program, preferably modeled 
after the more expansive definition used in the statute authorizing the 
INFRA program.
 Consider effects of railroad contribution to grade separation projects
    As you know, Federal law limits the railroad contribution to a 
grade separation project to no more than 5 percent of cost, with a 
further restriction that the contribution level be based on a project's 
theoretical, as opposed to actual, cost. Railroad contributions have 
averaged about $3 million per each ACE Trade Corridor grade separation, 
which typically cost more than $100 million.
    Congresswoman Grace Napolitano represents the San Gabriel Valley 
and has long been a leading champion of the ACE Program in Congress. 
She has strenuously urged the railroads to increase their grade 
separation contribution to be commensurate to the benefits realized. 
Although we truly appreciate Congresswoman Napolitano's advocacy, we 
have not taken a position on this matter, and instead have focused on 
ensuring our working relationship with Union Pacific Railroad remains 
cooperative and cost-effective in implementing the ACE Program. If 
Congress decides to revisit the issue of the railroad contribution, we 
do offer the observation that the Federal contribution limit creates a 
disincentive to use minor Federal funding on a grade separation in a 
state like California where the railroad contribution is set at 10 
percent if the project is solely funded from state or local sources. We 
have, in fact, deprogrammed Federal funds from two of our grade 
separation projects that are currently under construction because the 
presence of those funds would have had the effect of halving the 
railroad contribution.
    In closing, I thank the Chairman and Members of the panel for this 
opportunity to offer testimony regarding the ACE Program and our 
recommendations for improvements to Federal funding programs. I would 
like to express my appreciation to Congresswoman Grace Napolitano for 
her advocacy for the ACE Program for more than two decades. She is a 
strong champion of improving grade crossing safety on behalf of our 
communities and I thank her for her service.

    Mr. Lipinski. Thank you.
    I now recognize Ms. Maleh for 5 minutes.
    Ms. Maleh. Chairman Lipinski, Ranking Member Crawford, and 
members of the subcommittee----
    Mr. Lipinski. Can you pull the microphone closer?
    Ms. Maleh. Thank you for inviting me to testify about 
Operation Lifesaver, Inc.'s ongoing work to save lives at grade 
crossings and along rights-of-way. My name is Rachel Maleh, and 
I have been executive director since November of 2018.
    Operation Lifesaver started in 1972 in Idaho and quickly 
expanded to other States around the U.S. The national office 
was established in 1986. OLI is the only nationally recognized 
nonprofit leader of rail safety education.
    Our mission is to save lives by empowering the public to 
make safer choices near tracks and trains. We do this through a 
network of active programs across the country in each State and 
through public education and awareness campaigns.
    Our safety partners include Federal, State, and local 
government agencies, highway safety education, America's 
railroads, and railway suppliers. Together we promote the three 
E's--education, engineering, and enforcement.
    OLI's funding comes from Federal partners, private sector 
contributors, including Class I railroads and railway suppliers 
and foundation grants. About 64 percent of our funding is from 
Federal resources. Private partners account for 31 percent, and 
foundation grants contribute 5 percent.
    The heart of OLI is its grassroots network of State program 
directors and volunteers in 45 States and the District of 
Columbia. Our volunteers are out in their communities every 
day. We educate people about how to safely navigate grade 
crossings and to never use train tracks as a shortcut pathway.
    Our 2018 annual report shows that 1.6 million people were 
reached directly across the United States in over 20,000 
Operation Lifesaver presentations, training classes, and 
events. All of these efforts are free of charge and given in 
the interest of safety.
    Our primary Federal partners are the Federal Railroad 
Administration, the Federal Highway Administration, and the 
Federal Transit Administration. One of the most visible results 
of our Federal partnerships are the competitive rail safety 
grants that OLI awards to State Operation Lifesaver programs, 
commuter railroads, and rail transit agencies.
    In 2019, OLI used FRA funding to award rail safety grants 
through a competitive process to 13 State programs, including 
States that rank among the top 15 for grade crossing and 
trespass incidents. Last year, OLI used FTA funding to award 
competitive rail transit safety grants to 10 agencies in 8 
States. This Federal funding truly is making a difference in 
communities across the Nation.
    Funding from the Posner Foundation of Pittsburgh allowed us 
to extend the reach of these federally funded projects. While 
we are making great strides in reducing crossing collisions, 
which have fallen by 82 percent since 1972, it is still a 
startling fact that every 3 hours in the U.S. a person or a 
vehicle is hit by a train. That is why rail safety education is 
so important still today.
    One example of how OLI's awareness is making a difference 
is through our Rail Safety Week held each year, the last week 
in September. This year, Rail Safety Week will take place 
Monday, September 21, through Sunday, September 27, in the 
U.S., Canada, and Mexico, making it truly a North American 
effort.
    OLI's efforts act as a force multiplier, leveraging Federal 
funds for greater impact. Since 2017, we have awarded a total 
of 29 Federal FRA competitive State grant funds for more than 
$400,000, with the return of more than $1.4 million to States 
and communities.
    In the Chicago area, OLI is partnering with FRA on a 
trespass prevention education project to see how our Near 
Miss--Headphones PSA affects the behavior of the young male 
demographic. Illinois Operation Lifesaver also works closely 
with Metra commuter rail on education outreach.
    Our Find the Blue and White Emergency Notification System 
Sign PSA campaign shows drivers what to do if they get stuck on 
tracks. This PSA is being distributed nationally through a 
digital and broadcast campaign.
    Each time a potentially catastrophic incident at a crossing 
is prevented, lives are saved, injuries are avoided, and 
communities are safer. This is our impact. If Operation 
Lifesaver were fortunate enough to receive additional funds 
from Federal sources, we could expand the successful Federal-
State grants and develop additional programs and resources for 
our State programs.
    On behalf of Operation Lifesaver, I am grateful to our 
Federal, State, and local government safety partners, as well 
as our private contributors for their continued support. We 
hope you will learn more about Operation Lifesaver and join us 
in our safety efforts by visiting us at OLI.org.
    Thank you very much.
    [Ms. Maleh's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Rachel Maleh, Executive Director, Operation 
                            Lifesaver, Inc.
                              Introduction
    Chairman Lipinski, Ranking Member Crawford, and Members of the 
Subcommittee, thank you for inviting me to testify in today's hearing 
to talk about Operation Lifesaver, Inc.'s ongoing work to save lives at 
grade crossings and along rights of way.
    My name is Rachel Maleh, and I have been Executive Director of this 
organization since November of 2018. With a background in nonprofit 
management and a passion for working with mission-driven organizations, 
I am energized and excited to see this organization grow and succeed.
    OLI is the only nationally recognized nonprofit leader of rail 
safety education. Our mission is to save lives by empowering the public 
to make safer choices near tracks and trains. We do this through a 
network of active state programs across the country and through public 
education and awareness campaigns. These rail safety awareness 
campaigns use innovative marketing and digital communications to 
educate people about staying safe near tracks and trains. The state 
programs are partners of the national Operation Lifesaver organization.
    Our safety partners include federal, state and local government 
agencies, highway safety organizations, America's railroads and railway 
suppliers. Together, we promote the three E's--Education, Enforcement 
and Engineering--to keep people safe around tracks and railway 
crossings across the country.
    The heart of Operation Lifesaver is its grassroots network of state 
program directors and volunteers in 45 states and the District of 
Columbia. Our volunteers are out in their communities every day 
spreading our lifesaving messages with safety presentations tailored 
for a range of audiences. We speak to law enforcement and first 
responders, community groups, local businesses, K-12 students and 
college students, new drivers, professional truck drivers and school 
bus drivers. We educate people about how to safely navigate grade 
crossings, and to never use train tracks as a short cut or pathway.
    All these outreach efforts are free of charge and given in the 
interest of safety. Our passionate volunteers are one of Operation 
Lifesaver's greatest strengths. Our volunteers are community leaders, 
active and retired train crew members, law enforcement officers and 
trucking industry representatives, as well as people who have been 
personally touched by track tragedies who want to help keep people safe 
in their communities.
                                History
    Operation Lifesaver got its start in 1972 in Idaho as a six-week 
public awareness educational campaign to promote highway-rail grade 
crossing safety. At the time, there were approximately 12,000 annual 
vehicle-train crossing collisions in the United States. The program was 
a success and quickly expanded to other states. Within a decade there 
were state OL programs around the U.S. The National Office of Operation 
Lifesaver, Inc. was established in 1986.
    By 2018, the number of crossing collisions had dropped by 82 
percent to approximately 2,200. This significant improvement is the 
result of a concerted safety partnership among states, the federal 
government, law enforcement agencies and railroads that included 
crossing closures, federal funding for grade crossing engineering 
improvements and enforcement of crossing safety laws. Operation 
Lifesaver's consistent education efforts also have contributed to these 
safety gains.
    The chart below shows trends in railroad grade trespass incidents, 
grade crossing incidents, and suicide-related trespass incidents from 
FRA.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The effectiveness of the U.S. Operation Lifesaver program has 
spurred other efforts in North America and across the globe. Canada 
adopted the Operation Lifesaver program in 1980, and Estonia followed 
in 2004. In 2014, the Association of Mexican Railroads signed a 
cooperative agreement with OLI to work together on rail safety issues. 
South Africa's Rail Safety Regulator also signed a cooperative 
agreement with OLI in 2017.
                Operation Lifesaver Efforts and Partners
    The National Office of Operation Lifesaver, Inc., with four full 
time positions including mine, works with the state programs and 
develop materials and programs with a consistent message to distribute 
to the states. Across the U.S., Operation Lifesaver has 1,024 active 
volunteers, and we are adding several hundred trained volunteers each 
year.
    Operation Lifesaver has been able to sustain our educational 
outreach efforts at the state and national levels thanks to the support 
of a wide variety of partners. We work closely with public and private 
organizations at the federal, state, and local level.
    OLI's funding comes from federal partners, private sector 
contributors, including Class I railroads and railway suppliers, and 
foundation grants. About 64% of our funding is from federal resources, 
private partners account for 31%, and foundation grants contribute 5%.
    Our primary federal partners are the Federal Railroad 
Administration (FRA), Federal Highway Administration (FHWA), and 
Federal Transit Administration (FTA). FRA has supported Operation 
Lifesaver since 1988. Our FRA grants are funded on an annual basis. We 
also recently entered into a new five-year cooperative agreement with 
FHWA. These federal partnerships are critically important for OLI's 
ongoing rail safety education efforts.\1\
---------------------------------------------------------------------------
    \1\ See Appendix 1, pages 9-10 [page nos. correspond to the 
statement in its original format and not as it appears here--Ed.]
---------------------------------------------------------------------------
    One of the most visible results of our partnerships with FRA, FHWA 
and FTA are the competitive rail safety grants that OLI awards to state 
Operation Lifesaver programs, commuter railroads and rail transit 
agencies around the U.S. For example, in 2019 OLI used FRA funding to 
award rail safety grants to 13 state programs through a competitive 
process. Included were states that rank among the top 15 for grade 
crossing and trespass incidents. OLI last year also used FTA funding to 
award competitive rail transit safety grants to 10 transit agencies in 
eight states. This federal funding truly is making a difference in 
communities across the nation.
      Private Foundation Grants Extend the Reach of Federal Grants
    Our private grant funding from the Posner Foundation of Pittsburgh 
allows us to extend the reach of these federally funded projects. OLI 
received its first private grant funding in late 2018 from the Posner 
Foundation of Pittsburgh for projects in 2019 and again this year.
    The Posner Grant enabled OLI in 2019 to award rail safety awareness 
campaign funding to five states who had submitted applications for the 
FRA competitive state rail safety grants, bringing the total number of 
states receiving grants to 18.
                   Public Awareness Safety Campaigns
    Operation Lifesaver, Inc. for decades has worked to create and 
distribute rail safety awareness campaigns with the help of our safety 
partners. For example, in 2014 we launched the ``See Tracks? Think 
Train!'' campaign, partnering with the Association of American 
Railroads to develop and distribute public service announcements 
(PSAs), graphics and safety tips to communities nationwide. The 
campaign continues through our state programs, as well as on the 
seetracksthinktrain.org microsite, where drivers and pedestrians can 
view the PSAs and download safety tips and graphics to help share 
lifesaving information. Our federal partners also helped with that 
campaign and continue to assist us with developing new information and 
materials that will resonate with today's busy, distracted public.
    As I mentioned, one of the most effective and longstanding 
partnerships for Operation Lifesaver is our relationship with the 
Federal Railroad Administration. For years, FRA grant funding has been 
used to offer competitive state rail safety grants to state programs 
that allow those programs a broader reach with lifesaving messages.
Examples of 2019 State OL Safety Efforts, Partnerships and FRA Grant 
        Projects
    <bullet>  Missouri Operation Lifesaver was awarded a competitive 
FRA grant for a targeted rail safety campaign that included: Radio and 
Video PSA distribution statewide, Digital Media ads during Rail Safety 
Week, a poster contest promoted through the Missouri State High School 
Activities Association and fall sporting events, plus Officer on the 
Train Events during Rail Safety Week. In the wake of these efforts, 
preliminary Missouri numbers for crossing crashes for 2019 appear to be 
down 23% compared to 2018.\\ Fatalities are also down 62% at three and 
injuries are also down 7% at 13 in 2019 compared to the same time 
period in 2018.\2\
---------------------------------------------------------------------------
    \\ [Page nos. for the appendixes listed below correspond to the 
statement in its original format and not as it appears here--Ed.]
    \2\ See Appendix 2, pages 10-11
---------------------------------------------------------------------------
    <bullet>  Oregon Operation Lifesaver boosted social media posts 
during key months to reach people where an increase in incidents 
occurred, reaching 73,979 people through social media. Oregon Lifesaver 
worked with Oregon Department of Transportation (ODOT) Rail and placed 
Geo-Fencing digital ads around Portland in summer months, in areas 
where ODOT saw an increase in trespassing and crossing incidents. The 
ad reached 167,717 people in one month. Also, in 2018 Oregon 
participated in the new Crossing Action Plan with ODOT, building a 
partnership for funding and awareness in the state.\3\
---------------------------------------------------------------------------
    \3\ See Appendix 3, pages 11-12
---------------------------------------------------------------------------
    <bullet>  South Carolina Operation Lifesaver partnered with the 
South Carolina Transport Police to educate professional truck drivers 
about the ENS sign using the ``Find the Blue and White to Save Your 
Life'' PSA in social media posts, presentations and materials. High 
school students were also targeted. In addition, through an FRA Grant 
received to promote ``Find the Blue and White to Save your Life,'' 
truck drivers were targeted with Geo-Fencing digital and radio PSAs, 
yielding millions of impressions and reaching hundreds of thousands.\4\
---------------------------------------------------------------------------
    \4\ See Appendix 4, pages 12-13
---------------------------------------------------------------------------
2019 FTA Competitive Grants Project Examples \5\
---------------------------------------------------------------------------
    \5\ See Appendix 5, page 13
---------------------------------------------------------------------------
    <bullet>  The Metropolitan Transit Authority of Harris County's 
(METRO) project provided education to the Houston community about rail 
transit safety by distributing approved OLI materials, displaying 
transit safety messages on portable billboards and promoting rail 
safety education on social media.
    <bullet>  Caltrain conducted a safety awareness campaign, ``You Are 
Not Faster Than A Train,'' with a short rail safety video featuring 
MythBusters' Kari Byron, direct outreach, social media campaigns, 
brochures, and a podcast.
    <bullet>  Metrolink's awareness campaign included geo fencing 
display advertising and English and Spanish radio commercials targeted 
at males ages 18-39 in Los Angeles, Orange, Riverside, San Bernardino 
and Ventura counties.
                Why Operation Lifesaver is still needed
    While the number of highway-rail crossing collisions, deaths and 
injuries has dropped considerably over the past five decades, it's 
still a startling fact that about every three hours in the U.S., a 
person or vehicle is hit by a train.
    Clearly, too many people don't believe they must ``always expect a 
train.'' Too many drivers fail to understand that a train cannot stop 
quickly; they don't know that an average freight train takes a mile and 
a half to come to a stop.
    It's for these reasons, and more, that Operation Lifesaver's rail 
safety education mission is still important today, as we start our 48th 
year of existence. The information below indicates the extent of the 
issue.
    <bullet>  Today, more than 50 percent of vehicle/train crashes 
occur at public grade crossings that are equipped with active warning 
devices.
    <bullet>  Impatient drivers, perhaps distracted by mobile devices 
and smartphones, too often think they can beat a train at a crossing.
    <bullet>  A motorist is almost 20 times more likely to die in a 
crash involving a train than in a collision with another motor vehicle.
    <bullet>  The impact of a train striking a car or truck is 
comparable to a soda can being run over by a car.

    Another challenge is the increase in trespass fatalities--people 
who either don't realize it's illegal and dangerous to walk on railroad 
tracks or are intentionally putting themselves in harm's way. Some of 
our recent projects, funded by our federal partners and new private 
grants, are targeted to the trespass problem.
                             What's Working
    One example of how Operation Lifesaver's public awareness efforts 
are making a difference is Rail Safety Week (RSW), OLI's largest 
communications and marketing effort each year. RSW is a week-long 
focused campaign stressing the importance of rail safety with the 
general public. OLI has used funding from our federal partners to help 
us develop Rail Safety Week materials and messaging for public 
education; in addition, we encourage state programs applying for 
competitive safety grants to concentrate their campaigns during Rail 
Safety Week for greater total impact.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The 2019 observance was the third annual U.S. event and second 
joint observance with Operation Lifesaver Canada. ``Operation Clear 
Track,'' an enforcement effort held on the Tuesday of RSW, was led by 
Amtrak.
    This year, Rail Safety Week will take place Monday, September 21 
through Sunday, September 27. For the first time, Mexico will join in 
the observance of Rail Safety Week this year, making it truly a North 
American effort.
    Another part of Rail Safety Week is our ``Stop Track Tragedies'' 
video campaign, which highlights the stories of real people whose lives 
have been forever changed by trespass and crossing incidents. These 
human stories resonate more than reams of data.
    Last year, the Stop Track Tragedies videos included the story of 
Ashley Igo. In 1999, Ashley, then just a child, survived a semi-truck 
and train collision at a crossing in Bourbonnais, Illinois. Ashley's 
mother, another relative, and two friends were among those killed in 
that horrific crash, which killed several others and caused injuries to 
many more passengers. Ashley survived but lost part of her leg and now 
wears a prosthesis. We were so grateful to Ashley for being a part of 
our campaign, and for speaking out about the importance of safe driving 
at every grade crossing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    We've seen great results from Rail Safety Week efforts across the 
U.S.\6\ Preliminary 2019 Rail Safety Week results show the impact of 
Rail Safety Week continues to grow, with increases in the number of 
local broadcast news stories, social media engagement, and pageviews of 
the OLI website. In 2019, participation in Operation Clear Track from 
law enforcement agencies and others rose, with events at more than 
1,600 locations in 47 states nationwide. During Operation Clear Track, 
safety partners distribute safety tips cards to motorists and 
pedestrians. The Operation Clear Track enforcement efforts drive much 
of the news coverage during Rail Safety Week.
---------------------------------------------------------------------------
    \6\ See Appendix 6, page 13 [page no. corresponds to the statement 
in its original format and not as it appears here--Ed.]
---------------------------------------------------------------------------
                  Innovative Safety Education Programs
    Our national office develops innovative safety education programs 
that are specifically geared for the audiences for whom a crossing 
collision poses the greatest risk. We work with subject matter experts 
to produce accurate, engaging products that can save lives.
    Our eLearning programs--offering free online, interactive 
programs--for Professional Drivers, School Bus Drivers, and First 
Responders prepare these drivers for situations they may encounter near 
railroad tracks and crossings. Thousands of drivers have been exposed 
to these eLearning programs since they started a few years ago.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    For law enforcement personnel, OLI has a special Grade Crossing 
Collision Investigation (GCCI) course that teaches law enforcement 
officers how to ensure their personal safety, both while responding to 
rail collision incidents and throughout their investigation of rail-
related collisions and incidents. A completely revamped version of this 
course, now expanded for all first responders and renamed Railroad 
Investigation and Safety Course, or RISC, is being rolled out this 
year. We have started training the facilitators who will be involved in 
presenting this in-person program across the U.S.
                           A Force Multiplier
    We recently did an ROI analysis for Operation Lifesaver's Federal 
Railroad Administration grant funding. Here's what we found. Since 
2017, OLI awarded a total of 29 FRA Competitive State Grants for a 
total of approximately $406,000. Those grant projects had overall 
return of morethan $1.4 million to the states and communities, in terms 
of campaign value and other metrics.
    The federal investment in Operation Lifesaver, Inc. yields benefits 
from more than just our state competitive grant programs--our PSA 
campaigns, website, and social media activity further extend the reach 
for our lifesaving messages. This federal partnership is a key 
component of OLI's project activity.
    In the Chicago area, OLI is partnering with the FRA on a trespass 
prevention education project in Cook County to see how a targeted 
campaign with our ``Near Miss--Headphones'' PSA affects the behavior of 
a young male demographic.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Our ``Find the Blue and White'' Emergency Notification Sign PSA 
campaign has been available nationally for over a year, with a 
broadcast, cable and social media placement campaign. The six-month 
broadcast and cable results alone for the ENS PSA include more than 
13,600 airings confirmed by Nielsen Media Research, with a total 
audience of more than 156 million gross impressions, and estimated ad 
equivalency topping $3.5 million.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In 2019, with funds from our federal safety partners, OLI revamped 
the oli.org website to be completely mobile-friendly, conform to web 
design best practices and improve navigation. The new site launched in 
November 2019. The oli.org website had more than 600,000 visitors last 
year. New visitors to the site also rose in 2019; mobile users of the 
site were up more than 18% from 2018, showing the ROI of the mobile-
friendly redesign.
    In social media, total followers for OLI's social channels 
(Facebook, Instagram, Pinterest and Twitter) continues to grow. We're 
nearing 42,000 total followers across those accounts, with total social 
media impressions up 55 percent between 2018 and 2019, to 23.5 million.
    Our 2018 annual report \7\ is just out, and it shows that 1.6 
million people were reached directly across the U.S. in over 20,000 
Operation Lifesaver presentations, training classes and events.
---------------------------------------------------------------------------
    \7\ See Appendix 7, page 13 [page no. corresponds to the statement 
in its original format and not as it appears here--Ed.]
---------------------------------------------------------------------------
    There are intangible benefits from Operation Lifesaver's efforts 
across the U.S., as well. Collisions between trains and vehicles often 
result in loss of life or catastrophic injury. These incidents can tie 
up crossings for hours, wreaking havoc on traffic in communities and 
impeding the flow of commerce. Each time a potentially catastrophic 
incident at a crossing is prevented, lives are saved, injuries are 
avoided, and communities are safer--this is Operation Lifesaver's 
impact. Also, these national results do not include the trickle-down 
ROI that occurs at the state and local level thanks to our active and 
successful state programs.
                        Additional Opportunities
    If Operation Lifesaver were to be fortunate enough to receive 
additional funds from federal sources, we would have the opportunity to 
do more of our grassroots work. Our first use of additional funding 
would be to expand the successful state grant programs. For example, in 
2019 we received 26 applications for FRA competitive state grants. The 
funding only allowed us to approve 13 applications. Private Posner 
Foundation of Pittsburgh funding provided an additional five, allowing 
us to fund 18 out of 26 applications. We would welcome additional 
federal grant funds to fund crossing safety and trespass prevention 
campaigns and efforts in more states.
    It's important to note that these competitive grant programs 
leverage local rail safety education funding with federal grant 
funding. Operation Lifesaver competitive grant programs from FHWA, FRA 
and FTA all require a local dollar match in order to receive federal 
funds for safety activities and campaigns, underscoring the shared 
responsibility for safety efforts in communities. Our state programs 
are managed by dedicated individuals who know best the rail safety 
education needs of their states/communities and how best to engage 
their local stakeholders to receive match dollars and in-kind services 
that amplify the federal investment.
    Other increased federal funds would be put to good use developing 
additional tools and resources to distribute to our state programs so 
that they can make an even bigger impact in their communities. For 
example, this year we are using federal grant funds to update OLI's 
most-used safety brochures with key safety tips for drivers, 
pedestrians, first responders, and others. These materials are 
distributed across the U.S. at state and local events. It has been 
almost ten years since we had the funding to update these vital 
resources, which will also be available on our website. In addition, as 
we work to tackle the more difficult problem of pedestrian trespassing, 
additional resources would help us reach more people in vulnerable 
demographics.
                               Conclusion
    Operation Lifesaver will celebrate 50 years of saving lives in 
2022. On behalf of Operation Lifesaver, I thank our federal, state and 
local government safety partners, as well as our private contributors, 
for your continued support. This small nonprofit has yielded big gains 
in reducing crossing incidents, deaths and injuries. Strong support for 
our rail safety efforts here also encourages international partnerships 
and the sharing of best practices.
    The organization's future is solid, and new opportunities are ahead 
for expanding partnerships with both the national office and our state 
programs. Every day, Operation Lifesaver is saving lives by spreading 
our safety message. The more individuals and organizations become part 
of our efforts, the stronger and more effective our message becomes. If 
you are already part of the OLI family, thank you! If not, we hope you 
will learn more, and join our safety effort, at oli.org.
     Appendix 1: Further examples of federally funded OLI projects
2019 OLI Grant Funded Projects
    <bullet>  ``Drive Safe Near Trains'' video for new drivers and 
driver ed teachers
    <bullet>  Interactive eLearning program for first responders
    <bullet>  Find the Blue and White Emergency Notification System 
sign PSA--national distribution to broadcast and cable outlets and 
digital marketing
    <bullet>  A 3\1/2\ minute video, Rail Safety for Cement, Dump and 
Garbage Truck Drivers--A video to help drivers avoid tragic incidents 
like the January 31, 2018 incident where an Amtrak train carrying a 
group of politicians and lawmakers collided with a garbage truck at a 
crossing in Crozet, Virginia
    <bullet>  Near miss/headphones PSA targeted at younger male 
demographic--digital and other outreach
    <bullet>  A new resource for news media covering suicide-related 
rail incidents called Safe and Effective Messaging On Rail Incidents as 
well as a video with tips for news media covering rail-related stories

2020 Grants for State Operation Lifesaver Programs
    <bullet>  Highway-Rail Grade Crossing Competitive State Grants 
(FHWA)
    <bullet>  Competitive State Grants for Trespass or Highway-Rail 
Grade Crossing (FRA)
    <bullet>  Innovative Educational Operation Lifesaver State OL Grant 
(FRA)
    <bullet>  Public Awareness Grants (FRA)
    <bullet>  Administration Grants (FRA)

Federal Highway Administration (FHWA) Funding will allow OLI to carry 
out new projects this year, including:
    <bullet>  Competitive State Grants to state Operation Lifesaver 
programs to develop and carry out activities, such as Public Safety 
Announcements (PSA), community events, etc. to disseminate highway-rail 
grade crossings safety messages.
    <bullet>  Conduct Regional Meetings for state Operation Lifesaver 
programs.
    <bullet>  Provide technical assistance, training opportunities, and 
updated educational materials
    <bullet>  A new Public Service Announcement (PSA) which will focus 
on low clearance vehicles safely crossing the tracks at highway-rail 
grade crossings, and choosing safe routes that do not include humped 
crossings

Federal Railroad Administration funding will allow OLI to carry out 
additional projects this year, including:
    <bullet>  Update and distribute ``Key Safety Tips'' brochures for 
various audiences, including professional drivers of trucks, commercial 
buses, school buses; law enforcement and first responders; pedestrians; 
sports enthusiasts, snowmobile and ATV drivers
    <bullet>  Outreach to homeless populations
    <bullet>  Training and other Events for Operation Lifesaver State 
Program leaders and others
         Appendix 2: Missouri Operation Lifesaver Success Story
Tim Hull, Executive Director, MO OL
    Preliminary end of the year numbers for crossing crashes in 
Missouri for 2019 appear to be down 23% compared to 2018. Fatalities 
are also down 62% at three and injuries are also down 7% at 13 in 2019 
compared to the same time period in 2018.
    In 2018 Missouri experienced 8 fatalities at public rail crossings, 
which was a 62% increase for the year compared to 2017.
    Missouri Pedestrian/trespass incidents appear to be following the 
nationwide trend, as our current numbers indicate an increase compared 
to the same time period in 2018. Missouri experienced 17 trespass 
incidents resulting in 12 fatalities and four injuries. Missouri 
trespass incidents are up one or 5%, and trespass fatalities are 
currently up slightly by 25% or an increase of three for 2019. (A 
couple of the trespass incidents are still under investigation and 
there is a good possibility that they will be reclassified at a suicide 
in one case and a homicide in the other as the individual in the last 
case died of gunshot wounds and was not struck by a train.) So, we may 
be even with 2018 numbers if those are changed.
    What helped drive the success?
    We conducted 5 Officer on the Train (OOT) events around the state, 
resulting in 120 traffic violations focusing primarily in and near our 
targets counties. These OOTs are performed with law enforcement 
officers in the engine of the train and multiple officers on the ground 
to chase violators. Media releases were issued primarily through the MO 
State Highway Patrol or railroads for these OOT events. Radio, TV and 
newspaper interviews were conducted during most of these events. (Four 
of the OOT operations were held during National Rail Safety Week Sept. 
22-28, 2019). Seven Grade Crossing Collision Investigation Classes 
(GCCI) were given to 140 law enforcement officers primarily in our 
target counties. An additional 22 Positive Enforcement Programs, PEPs, 
were conducted at various rail crossing locations around the state 
primarily in those target counties in which a total of 5,667, people 
were contacted with a safety message and in some cases a brochure. (6 
of those PEPs were conducted during National Rail Safety Week.)
    Missouri Operation Lifesaver conducted a statewide radio ad and 
social media program for the months of July through September 2019. The 
cost of the project was $45,000.00. Funding was as follows:
    <bullet>  OLI/FRA--$20,000.00 (Competitive State Grant)
    <bullet>  Hwy Safety Grant--$10,000.00 (State match)
    <bullet>  Learfield Communication--$15,000.00 (Donated/in kind 
airtime)

    The Campaign began July 15 and ran through Missouri Rail Safety 
Week September 22-28, 2019 to the end of September and Missouri Farm 
Safety Month. It included social media ads on Facebook and Instagram, 
and radio PSAs.
Results of Targeting Counties--Decline in the Target County Number of 
        Crashes, As Well As Statewide Incidents.
    Eight counties were targeted in 2019 using crash data from 2017-
2018 and unsafe motorists reports from UP and BNSF Railroads. A total 
of 20 crashes with five fatalities and seven injuries occurred in those 
8 target counties during the years 2017 and 2018. In those specific 
counties the preliminary numbers for crash data in 2019 are 15 crashes, 
three fatalities and five injuries. We have experienced a substantial 
decrease to date in crossing collisions statewide compared to the same 
time period as last year, and trespassing incidents thus far appear to 
be slightly higher compared to that same time period, encouraging us to 
conduct even more of these enforcement events in 2020 and continue to 
target our highest incident locations.
    And let's not forget our OLAVs who worked very hard in getting our 
safety message out. The number of OL presentations was also up in 2019 
compared to 2018 as follows:
    In 2018 Missouri OLAVs reported 485 presentations to 10,868 
attendees.
    In 2019 Missouri OLAVs reported 643 presentations to 9,397 
attendees.
          Appendix 3: Oregon Operation Lifesaver Success Story
Steven Kreins, Executive Director, OR OL
    2019 was a very busy year for Oregon Operation Lifesaver. We 
exceeded all our 2019 goals. As of December 26, 2019, there has been 
209 presentations and 31 special events in our state reaching 24,735 
people. We still have a few events to report by the end of the calendar 
year and hope to reach a little over 25,000 people for the year. This 
is an increase from 18,779 people in 2018, which means we exceeded our 
10% increase for 2019. Currently we sit around 2,400 volunteer hours in 
2019 that helped us exceed our goal in Oregon. We continue to recruit 
new and active volunteers in our state and added 4 new volunteers to 
our program in 2019.
    Oregon is lucky to have Special Agent in charge Vince Hoffarth, who 
teaches at the Oregon State Police Academy to all new cadets. Vince 
Hoffarth who also holds a board position for Oregon Operation Lifesaver 
has instructed 6 classes this year to new cadets reaching 240 new 
police officers in our state. This is big for Oregon as we try and push 
more enforcement from agencies going forward.
    In 2019 Oregon increased its social media platform by adding 
Twitter and continuing Facebook. Our Facebook has 959 followers with 
25% of that being women and 75% being men. Most of our followers are 
between 35-65 years old. Oregon added Twitter to our profile in 2018 
with a following of 1,098 followers. Oregon will continue to push our 
social media platforms in 2020 to reach all age groups. Oregon 
Lifesaver boosted ads this year during key months to reach people where 
we were seeing an increase in incidents. Oregon boosted multiple ads 
costing around the 500-dollar mark reaching 73,979 people through 
social media.
    Oregon Lifesaver worked with ODOT Rail and a group that does Geo 
Fencing to place a Geo Fence ad around Portland. This ad stretched as 
far as Woodburn and east of Troutdale. The ad was placed in the summer 
where ODOT saw an increase in trespassing and crossing incidents. The 
ad cost 2,000.00 dollars for one month and we reached 167,717 people.
    In 2018 we participated in the new Crossing Action Plan with ODOT. 
We built a partnership in 2019 to receive funding and help increase 
awareness around Oregon with advertisement and PSA ads. We hope to 
continue our efforts in 2020. Area coordinators, volunteers and state 
partners continued to identify locations throughout the state that 
would be effective in new partnerships and furthering the mission of 
Oregon Operation Lifesaver.
    Oregon Lifesaver has started to work with ODOT and Western 
University to help push out more information in the new Drivers-Ed 
manual scheduled to come out in 2020. We will continue to work with 
this group going forward as over 13,000 students go through Drivers-Ed 
every year. Oregon made every effort in 2019 to increase our driver 
education efforts by increasing our presentations and people reached. 
Currently we have participated in 21 driver education presentations 
reaching 3,609 people in 2019. We hope to see an increase in this field 
with our new partnership with Western University and the Drivers-Ed 
program.
    Enforcement efforts have been a big part of our mission in 2019 and 
will continue in 2020. Union Pacific participated in 6 ``Officer-On-A-
Train'' enforcement events. Multiple city agencies have participated in 
these events as well as rail safety week. Oregon Operation Lifesaver 
sent out three letters to photographers and two schools who posted 
photos on the tracks in Oregon. We have also been in contact with one 
PUD electric company and a newspaper who held a photo contest in our 
state where railroad trespassing photos won a prize. We will continue 
in 2020 to send more letters to media and groups who participate in 
this type of behavior.
      Appendix 4: South Carolina Operation Lifesaver Success Story
Janice Cowen, State Coordinator, SC OL
    We partnered with the South Carolina Transport Police to educate 
professional truck drivers about the ENS sign using the ``Find the Blue 
and White to Save Your Life'' PSA in social media posts, presentations 
and support postcards and posters. See the steps below that our STP 
took to spread this message to companies with commercial motor vehicle 
fleets reaching thousands of truck drivers in multiple ways.
    Truck Driver Outreach Results:
    <bullet>  Six Regional Sergeants within SC State Transport Police 
(STP) were identified and assigned the duty of distribution of ``Find 
the Blue and White to Save Your Life'' Presentations, Posters, 
Postcards, Key Chains and PSAs to 33 companies with commercial motor 
vehicle fleets
    <bullet>  STP distributed materials to 20 companies at Michelin 
Fleet Safety Solutions Conference asking companies to pledge to 
railroad safety in Spartanburg
    <bullet>  7 Crossings and Scale Houses highly used by truck drivers 
were targeted for material distribution by STP staff
    <bullet>  7 Gas Stations and Trucks stops highly used by truck 
drivers were targeted for material distribution by STP staff
    <bullet>  STP DRIVE to Zero team distributed information, cards and 
key chains to students and faculty at Westwood, Greenwood, and 
Lexington High Schools
    <bullet>  STP Twitter disseminated the ``Find the Blue and White'' 
PSA and related information as well as sharing Rail Safety Week Daily 
Focus messages

    In addition, through an FRA Grant received to promote ``Find the 
Blue and White to Save your Life,'' we targeted Truck Drivers with Geo-
Fencing Digital and Radio PSAs with millions of impressions and 
hundreds of thousands net reached.
    Geo-Fencing and Radio Results:
    <bullet>  25 paid matched by 75 FREE radio PSAs reaching 3,825,000 
gross impressions with the net reach being 580,900 Adults 18+
    <bullet>  Digital PSAs reaching 501,050 impressions distributed in 
concern areas for railroad incidents: Charleston with 119,460, Greer 
with 55,686, Greenville with 44,655, Florence with 35,630 and 
Spartanburg with 28,167
                  Appendix 5: 2019 FTA Grant Projects
    https://s3.us-east-2.amazonaws.com/downloads.oli.org/NAC/
MRC+Materials/2019-FTA-Transit-Grants-Materials-Update-November-
2019.pdf
            Appendix 6: 2018 Rail Safety Week Results Report
    https://oli.org/sites/default/files/2019-08/
2018_OLI_Rail_Safety_Week_
Report.pdf
           Appendix 7: 2018 Operation Lifesaver Annual Report
    https://yearly.report/from/#/oli/2018-annual-report

    Mr. Lipinski. Thank you, Ms. Maleh.
    I now recognize Mr. O'Shea for 5 minutes.
    Mr. O'Shea. Thank you, Chairman Lipinski and ranking 
members of the subcommittee. My name is Matthew O'Shea, and I 
serve as alderman of Chicago's 19th Ward.
    Blocked at-grade rail crossings represent a serious threat 
to the safety of my community and congressional action is 
needed. The 19th Ward includes 10 at-grade rail crossings along 
the Elsdon and Blue Island Lines. It is not uncommon for any of 
these crossings to be blocked for extended periods of time.
    While historically we have lived with the inconvenience, 
our problems were amplified exponentially in 2013 when CSX 
Railroad acquired the Elsdon Line. Since then, blocked 
crossings have become commonplace, at times lasting for hours.
    In 2013, when the Surface Transportation Board granted CSX 
the authority to operate on the Elsdon Line, they contemplated 
the impact of blocked at-grade crossings on our neighborhood. 
In response, CSX agreed to conditions that required them to cut 
any train that blocks any crossing for longer than 10 minutes.
    In 2015, we petitioned the STB to enforce these conditions 
and provided them with several hundred unique letters from 
residents regarding blocked crossings. I will share with you 
some of those highlights: multiple reports of children climbing 
through stopped trains; disruption to personal lives, including 
late arrivals at school or daycare; missed medical appointments 
or flights; lost wages as a result of blocked crossings.
    We even heard from a pair of newlyweds who missed the first 
hour of their own wedding reception after being stopped by a 
train. A resident who missed saying her final goodbyes to her 
grandfather because a stopped train prevented her from getting 
to Little Company of Mary Hospital. She arrived 15 minutes too 
late.
    But most disturbing are the comments from first responders 
who could not properly address an emergency or secure adequate 
backup because of a blocked at-grade rail crossing. A 
firefighter wrote, and I quote, ``Every minute a cardiac arrest 
victim goes without CPR means a 10-percent decrease in survival 
rate.''
    A doctor at Advocate Christ Medical Center described times 
she has been stuck by blocked crossings and noted that 15 
minutes can determine the success or failure in saving a fetus 
in distress.
    Four years later, in 2019, now in 2020, a final decision 
from the STB is still pending. But CSX has successfully argued 
that it is operationally very difficult, if not impossible, to 
cut a train in most circumstances. The STB agreed and released 
them of that requirement.
    Now think about that timeline for a second. In 2013, CSX 
tells the STB that in exchange for the right to operate on the 
Elsdon Line and substantially increase the volume of traffic in 
the area, it will cut any train that is stopped for longer than 
10 minutes. Now they don't actually cut the trains. And when 
questioned, they argued that effectively doing so is 
operationally extremely difficult, near impossible.
    Is anyone else wondering why CSX offered to cut the trains 
in the first place, or why they obligated themselves to cut 
trains if doing so was so difficult? That original operating 
order included several other provisions that have not yet been 
stricken by the STB, the most important of which is to install 
a closed-circuit video system at both Advocate Christ Medical 
Center, so staff would know when a crossing was blocked and 
could better coordinate with emergency vehicles.
    Advocate Christ is the only level 1 trauma center that 
serves the Southwest Side of Chicago. It is also the busiest 
trauma center in the entire State of Illinois. Here we are in 
2020, and yet no system has been installed. The lack of 
accountability is troubling.
    The conditions imposed by the STB in the original order 
authorizing CSX to operate on the Elsdon Line show an 
underlying belief that railroads must cause no harm to the 
communities in which they operate. Who will step in and respond 
when railroads aren't good neighbors? Why hasn't the STB levied 
fines or revoked CSX's operating agreement?
    Federal regulation is pervasive in the railroad industry, 
but it is silent on the issue of at-grade crossings. That must 
change. Without action by Congress, this situation, both in my 
community and all across our country, will only get worse. 
Local communities are not equipped to police these matters; 
Congress is.
    I traveled today from Chicago here to Washington, DC, 
seeking your support. Help me address the problems on the 
Elsdon Line by signing on to a letter asking the STB to mandate 
a video system at Advocate Christ Medical Center.
    Second, enact simple, commonsense regulations, requiring 
all trains to clear at-grade crossings in 3 minutes or less, 
and establishing a penalty system for any at-grade crossings 
blocked for 10 minutes or more.
    I appreciate your time. Thank you.
    [Mr. O'Shea's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Matthew O'Shea, Alderman, 19th Ward of 
                     Chicago, Chicago City Council
    Thank you, Chairman Lipinski and members of the Subcommittee. I am 
Matthew O'Shea, and I have had the honor to serve as the Alderman for 
Chicago's 19th Ward since 2011. I'll be speaking today about the severe 
impact that blocked at-grade crossings have had on my largely 
residential community on Chicago's far southwest side.
    The current federal framework to regulate railroad operations has 
failed to protect our community from wide-ranging and potentially life-
threatening effects directly caused by the manner in which CSX operates 
one line in particular, the Elsdon Line, which runs through densely 
populated communities in the City of Chicago and surrounding 
municipalities.
    Railroads are entirely capable of mitigating the effects of their 
operations on the communities where they operate, but will not do so 
voluntarily--our experience is, unfortunately, ample proof of that. 
Stronger measures are clearly necessary to ensure that railroads are 
not a threat to their neighbors. Because of the broad reach of federal 
law in the rail industry, only Congress can impose those necessary 
measures. I will include some simple but potentially effective 
proposals at the end of this statement.
I.  Description of 19th Ward
    A.  Chicago's 19th Ward is comprised of the neighborhoods of 
Beverly, Mount Greenwood, and Morgan Park.
    B.  Our total population is over 50,000, a good-sized small city in 
itself, and is \2/3\ white, a quarter African-American, five percent 
Hispanic, and about one percent Asian-American. We are a tight-knit 
community of predominantly single-family homes built in the early to 
mid-20th Century, with local businesses along 95th Street, 103rd 
Street, 111th Street, Western Avenue, Kedzie Avenue and Pulaski Road.
    C.  Several rail lines run through or border our Ward, including 
CSX's Blue Island Subdivision and the Elsdon Line, which run north-
south through our Ward. I will be speaking today about the impact of 
the Elsdon Line, which runs through the heart of our community, 
parallel to Sacramento Avenue.
II.  Impacts of CSX Operations 2013-2016
    A.  CSX was authorized to operate on the Elsdon Line in 2012 when 
it received approval from the Surface Transportation Board, or STB, 
after an extensive public comment process. Because the STB recognized 
that the communities surrounding the Elsdon Line are densely populated 
and the line has many at-grade crossings, including five in the 19th 
Ward, it imposed a number of conditions on the railroad to try to 
reduce the impacts of its planned increased operations. These 
conditions may have constituted a well-meaning attempt to reduce harm, 
but the community saw an immediate, dramatic and harmful impact once 
CSX started running on the Elsdon Line.
      1.  Virtually all of my comments reflect material that is already 
in the public record in the STB's docket, Finance Docket Number 35522.
      2.  The line existed but had been little-used previously, and CSX 
indicated that it expected traffic on the Elsdon Line to increase from 
3-4 trains per day to over 20.
      3.  CSX promised to abide by a number of conditions as part of 
its operating approval, and noted that it expected to clear at-grade 
crossings in three minutes or less.
      4.  Here are some of the extremely detailed and specific 
conditions CSX voluntarily accepted in order to have permission to 
operate on the Elsdon Line. These conditions are listed in the STB's 
February 8, 2013 Decision \1\ granting CSX permission to operate:
---------------------------------------------------------------------------
    \1\ CSX Transportation, Inc.--Acquisition of Operating Easement--
Grand Trunk Western R.R. Co., STB Docket No. 35522 (Service Date Feb. 
8, 2013).
---------------------------------------------------------------------------
        a)  Cut any train that blocked an at-grade crossing for more 
than 10 minutes. CSX cut trains on only a handful of the hundreds of 
occasions on which this occurred, and the STB eventually removed the 
requirement at CSX's request because it was effectively useless. Our 
railroads should be held to basic standards of good faith, which CSX's 
consistent failure to cut trains completely negated. If CSX found that 
it was just too hard to comply with the condition, that is a 
significant indication that it is unable to operate effectively on the 
line.
        b)  Cooperate with school and park districts to identify at-
grade crossings where additional pedestrian warning devices may be 
warranted, and provide informational materials concerning railroad 
safety to elementary, middle and high schools within 0.5 miles of the 
Elsdon Line.
        c)  Notify Emergency Service Dispatching Centers for 
communities along the affected segments of all crossings blocked by 
trains that are stopped and may be unable to move for a significant 
period of time.
        d)  Work with affected communities to minimize emergency 
vehicle delay by maintaining facilities for emergency communication 
with local Emergency Response Centers through a dedicated toll-free 
telephone number.
        e)  To further assist with the timely response of emergency 
service providers for the Advocate Christ Medical Center and the Little 
Company of Mary Hospital, CSX shall consult with all appropriate 
agencies and hospitals to install a closed-circuit television system 
(CCTV) with video cameras (or another comparable system or acceptable 
option) so that the movement of trains can be predicted at the 95th 
Street highway/rail at-grade crossing.
      5.  This last point is extremely important. Advocate Christ 
Medical Center, just across the border in Oak Lawn, lies just to the 
west of the Elsdon Line, and the Little Company of Mary Hospital in 
Evergreen Park, just to the east of the line, are the primary health 
care facilities serving the 19th Ward. In fact, Advocate Christ serves 
the entire South Side of Chicago as a Level 1 Trauma Center and 
describes itself as the busiest Level 1 Trauma Center in Illinois. One 
of the first indications that all was not right on the Elsdon Line 
beginning in 2013 was the emergence of reports that emergency response 
vehicles were being blocked by slow or stopped trains, or by 
malfunctioning gates. When severely injured patients cannot get to the 
hospital, lives are literally at risk.
    B.  By late 2015, local Aldermen and state representatives were 
hearing every day from constituents with complaints about blocked at-
grade crossings. Together with the Village of Evergreen Park, the City 
of Chicago petitioned the STB to make CSX abide by the conditions it 
had agreed to. We presented detailed evidence compiled over the course 
of CSX's operations on the Elsdon Line to prove that the railroad was 
consistently failing to comply with the conditions in its operating 
license.
    C.  Community letters: I will shortly share with you various 
comments from the community about the impact of blocked at-grade 
crossings. As you can imagine, in a dense urban area it does not take 
long for significant traffic backups to form, so that even if motorists 
want to seek a way around a blocked at-grade crossing, they can't. 
However, pedestrian safety is perhaps an even more urgent concern, as 
I'll describe. On two occasions, in 2016 and 2018, my office solicited 
letters for the record of the STB proceeding and got well over 200 
unique responses. Here are the most pressing themes I heard from my 
community:
      1.  Multiple instances of schoolchildren walking to school and 
climbing through a stopped train--as related by a number of commenters. 
I hope I do not need to highlight how incredibly dangerous this is.
      2.  Multiple accounts of parents unable to get their kids to or 
from school or daycare, missed medical appointments, missed flights, 
and residents being docked pay because they were late to work. One pair 
of newlyweds missed the first hour of their own wedding reception.
      3.  Most poignantly, one commenter could not reach the Little 
Company of Mary Hospital when her grandfather was dying and missed 
saying her goodbyes to him by 15 minutes because of a train blocking an 
at-grade crossing.
      4.  Most alarmingly from a public safety perspective, there are 
multiple accounts from physicians, police officers and fire/rescue/EMT 
personnel describing instances when they could not respond to an 
emergency or could not secure adequate backup because of a train 
blocking an at-grade crossing. As one career fire fighter explained, 
``every minute a cardiac arrest victim goes without CPR means a 10% 
decrease in survival rate. 10 minutes in those cases means zero chance 
to save a life.'' A doctor at Advocate Christ noted that 15 minutes can 
determine success or failure in saving a fetus in distress.
III.  Current conditions
    A.  Conditions have improved since we began our regulatory effort 
with the STB in 2016, but the problem is not completely solved: we 
still experience several blocked at-grade crossings each month. In 
addition, the STB has taken the very unusual position of holding off on 
specific action,\2\ leaving the community in a wait-and-see stance.
---------------------------------------------------------------------------
    \2\ CSX Transportation, Inc.--Acquisition of Operating Easement--
Grand Trunk Western R.R. Co., STB Docket No. 35522 (Service Date Dec. 
10, 2018).
---------------------------------------------------------------------------
    B.  I note that rail traffic across the country has been decreasing 
in the time that CSX has operated the Elsdon Line, and that alone may 
account for any decrease in blocked at-grade crossings. We cannot be at 
the mercy of the commodity markets to know if our community will remain 
safe.
IV.  Federal Regulation has failed to protect the 19th Ward from the 
        effects of CSX's operations:
    A.  The bottom line here is that the federal government has largely 
failed us. CSX is essentially unregulated from our standpoint. When 
acquiring the line, the railroad had to make promises to the STB, the 
most substantial of which were cutting the trains and installing closed 
circuit TVs to hospitals.
    B.  I emphasize that the conditions the STB imposed indicate a 
clear recognition that railroads must be responsible to the communities 
in which they operate, and that, rather than acting with impunity, 
railroads must not be permitted to cause harm to the public, as has 
happened in the 19th Ward and surrounding communities.
    C.  Several years later we brought to the STB that CSX didn't do 
these things--there is no follow up or mechanism to ensure they are 
doing what they say. Advocate Christ Hospital to this day doesn't have 
the TV equipment (we assume Little Company of Mary also doesn't but 
they did not respond to our inquiry in time for this hearing).
    D.  But here's the biggest question--why doesn't anyone from the 
STB confirm whether CSX is abiding by its promises? The STB is the 
federal agency responsible for setting conditions on railroads, 
granting them permission to operate, and revoking that permission when 
the railroad fails to live up to its promises. Here, the STB initially 
imposed very specific requirements on the railroad in order to prevent 
the very situation we are living with today.
    E.  Why didn't STB fine CSX or impose other penalties when the 
agency learned CSX was out of compliance with its operating conditions 
on the Elsdon Line? Why do we allow this huge company to just tell us 
they did something and take their word for it? How can local 
communities rely on the promises of the railroads or the enforcement 
powers of the federal government if nobody will do anything--even when 
there have been repeated, consistent, and demonstrated violations? THIS 
is why action by Congress is necessary.
V.  Now I'll focus on how this Subcommittee and the Congress as a whole 
        can help. Existing federal regulation does not adequately 
        protect communities from the effects of blocked at-grade 
        crossings and malfunctioning crossing gates.
    A.  Federal regulation is pervasive in the railroad industry except 
when it comes to at-grade crossings.
    B.  The current regulatory approach, which treats at-grade 
crossings primarily as a road safety issue regulated by individual 
states, is ineffective.
VI.  Without action by Congress, the situation is only likely to get 
        worse.
    A.  The Federal government recognizes that at-grade crossings are a 
significant safety concern:
      1.  In May 2019, in response to concerns from members of 
Congress, the Governmental Accounting Office issued a report urging 
Congress to direct the Federal Railroad Administration (FRA) to address 
the significant impacts of ever-longer freight trains, which today are 
frequently 2 miles, and in some cases 3 miles, long.\3\
---------------------------------------------------------------------------
    \3\ U.S. Gov't Accountability Office, GAO-19-443, Rail Safety: 
Freight Trains are Getting Longer, and Additional Information is Needed 
to Assess Their Impact (2019), at 1.
---------------------------------------------------------------------------
        a)  This report specifically recommended that FRA engage with 
railroads, state and local governments, to (a) identify community-
specific impacts of train operations, including longer trains, where 
streets and highways cross railroad rights-of-way and (b) develop 
potential solutions to reduce those impacts.\4\
---------------------------------------------------------------------------
    \4\ Id. at 28.
---------------------------------------------------------------------------
      2.  In December 2019, the FRA set up a web portal where members 
of the public and law enforcement can report blocked at-grade 
crossings: https://www.fra.dot.gov/blockedcrossings/.
        a)  In announcing the effort, FRA pointed out that ``there are 
no federal laws or regulations pertaining to blocked crossings.''
        b)  Creation of the website is an indication that FRA 
recognizes that at-grade crossing safety is a significant issue for 
communities.
      3.  I emphasize that the 19th Ward and Evergreen Park have been 
successful in securing improvements in CSX's performance on the Elsdon 
Line only because of the specific conditions placed on the railroad by 
the STB. Communities should not have the burden to protect themselves 
on a case- by-case basis to make sure railroads do not have a seriously 
harmful impact. Where railroad operations already exist, there is no 
opportunity to force railroads to operate without harm to the 
surrounding community.
VII.  As the representative of a heavily-impacted community, I propose 
        today some straightforward measures Congress can enact that 
        will simply and effectively improve at-grade crossing safety 
        without burdening railroad operations:
    A.  Require moving trains to clear at-grade crossings in three 
minutes or less.
    B.  If a train blocks an at-grade crossing for 10 minutes or more--
whether the train is stopped or in motion--impose fines for every 
minute a blockage persists at each crossing.
    C.  These straightforward performance-focused measures give 
railroads full discretion and flexibility to take whatever measures 
they require to achieve compliance.

    It's that simple.
    I thank the Subcommittee for your time today and would be happy to 
answer any questions.

    Mr. Lipinski. Thank you, Alderman O'Shea.
    I will now recognize Mr. Morris for 5 minutes.
    Mr. Morris. Mr. Chairman, members of the subcommittee, good 
morning and thank you. My name is Jason Morris. I lead the 
Safety and Environmental Department at Norfolk Southern 
Corporation, and I appreciate the opportunity to provide the 
subcommittee with NS's perspective on the importance of grade 
crossing safety and addressing community concerns.
    Our industry has been around a long time. NS's earliest 
predecessor began operations in 1830. While our industry 
expanded through most of the 19th century, the rail system in 
the U.S. was fully built out in about 1916 when railroad route-
miles began to shrink.
    Since that time, the communities we serve have continued to 
grow up around us. Population increases around rail corridors, 
combined with explosive growth in route-miles and vehicular 
traffic, have created a network of grade crossings that present 
challenges.
    There are over 200,000 grade crossings in our country, and 
collisions at these crossings, along with trespasser incidents 
that are often nearby, account for over 90 percent of rail-
related fatalities. Although crossing accidents per million 
train-miles have declined by more than 75 percent over the last 
40 years, and the accident rate adjusted for both train-miles 
and vehicle-miles traveled has actually improved 17 percent 
since 2007, we should not become complacent. Behind these 
statistics are human beings, and we are committed to continuing 
a push to zero incidents.
    We also recognize that as we conduct our operations through 
grade crossings, those operations can have community impacts, 
especially in higher growth communities and those where land-
use planning has not accounted for the presence of rail 
corridors. Grade crossing elimination and consolidation 
projects are the surest means of avoiding crossing accidents 
and occupied crossings.
    Finally, trespassing on railroad property is also of great 
concern. Enforcement and education are key to reducing the rate 
of trespasser deaths and injuries. Addressing these issues will 
take all levels of Government, industry, labor, and 
nongovernmental organizations. I would like to give you a few 
examples of initiatives that NS has undertaken in these areas 
with partners.
    Last year, we began utilizing Waze technology and its 
unique advertising platform to test a novel approach to 
increasing crossing safety awareness. We were able to target 
audiences with crossing awareness messages where they need them 
most--in their vehicles. We were also able to avoid 
distractions by guaranteeing that these notifications would 
only go to stopped vehicles.
    Since the project commenced, the technology has reached 
more than 3 million drivers. More importantly, there have been 
no collisions in the targeted locations.
    We also have been enthusiastic partners with the Indiana 
DOT's Local Trax Program. This program provided $125 million 
for grant opportunities to Indiana localities interested in 
pursuing high-priority rail safety projects. Local Trax has 
encouraged partnership among the governments, private business, 
and railroads, to increase safety, improve mobility, and 
enhance quality of life.
    NS and local communities were successful in identifying 
more than 20 crossings that could benefit from separation 
projects and are moving toward completing construction by the 
end of 2024 and this is a great example of industry and 
Government working together.
    As for trespassing, NS police warned and removed about 
12,000 trespassers from our tracks and property last year. 
While enforcement efforts are essential, NS plays an active 
role in promoting rail safety in our communities through 
education.
    Through the Trespasser Abatement Program, or TAP, NS police 
hold events across our system to educate people about the 
dangers of trespassing. In addition to TAP, NS police will 
teach a course in 2020 for local law enforcement officers that 
focuses on safety and techniques for investigating collisions 
involving trains and vehicles.
    Finally, we will continue to provide safety training to 
first responders through our Operation Awareness and Response 
Program, or OAR. OAR safety training will conduct an 18-stop 
tour across our system in 2020.
    Congress can be of great help as we work toward further 
improvements in grade crossing and trespasser safety and 
minimizing the impact of avoidable grade crossing occupations. 
I have set forth several recommendations in my written 
testimony regarding the importance of section 130 program 
funding levels and sources, the use of technology, and the 
essential role public education plays, including the work of 
Operation Lifesaver.
    NS is committed to operating the safest, most customer-
focused, and successful transportation company in the world, 
and that includes tracking towards zero accidents and 
incidents. We will continue to work cooperatively with all 
stakeholders to achieve these aims and to ensure that North 
American railroads remain the envy of the world.
    Thank you.
    [Mr. Morris' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Jason M. Morris, Assistant Vice President, Safety 
            and Environmental, Norfolk Southern Corporation
    Mr. Chairman and Members of the Subcommittee:
    I appreciate the opportunity to provide the Subcommittee with 
Norfolk Southern's perspective on the importance of improving grade 
crossing safety and addressing community concerns. We think these 
issues can be addressed most effectively in partnership with federal, 
state, and local government, industry, labor, and non-governmental 
organizations. Collisions at grade crossings, along with incidents 
involving trespassers on railroad rights of way, are critical safety 
issues. They account for well over 90 percent of rail-related 
fatalities. Although these incidents usually arise from factors that 
are outside of railroad control, Norfolk Southern and other railroads 
are committed to working with other stakeholders to reduce their 
frequency.
    Norfolk Southern believes that industry and government should 
continue to work together to improve grade crossing safety and to 
minimize avoidable occupations of crossings. To that end, we would like 
to offer several policy recommendations to this Subcommittee:
    <bullet>  First, funding for the federal Section 130 program, which 
provides funds to eliminate hazards at highway-rail grade crossings, 
should be maintained to at least current levels ($245 million in fiscal 
year 2020) or increased.
    <bullet>  Second, the Section 130 program should continue to 
receive dedicated formula funding out of the Highway Safety Improvement 
Program.
    <bullet>  Third, Section 130 incentive payments for grade crossing 
closures should be increased from the current cap of $7,500 to 
$100,000.
    <bullet>  Fourth, federal policy should incentivize states to 
bundle grade crossing projects into a single grant application under 
applicable programs, such as BUILD, INFRA, or CRISI.
    <bullet>  Fifth, federal policy should require or incentivize the 
accelerated deployment of navigational warnings (through means such as 
smart phone applications) for motorists approaching grade crossings.
    <bullet>  Sixth, federal policy should require future fleets of 
automated vehicles to provide grade crossing warnings and/or prevent 
driving over grade crossings when a train is approaching.
    <bullet>  Seventh, Congress should authorize at least $3 million 
per year for Operation Lifesaver through FHWA, FRA, and FTA.
    <bullet>  Finally, Congress should encourage FMCSA to evaluate the 
effectiveness of its grade crossing safety training in driver education 
programs administered by the agency for commercial drivers, and, 
federal policy, through NHTSA, should encourage states to incorporate 
grade crossing safety training into their driver education programs.
                               Background
    Norfolk Southern is a leading North American transportation 
provider. Its Norfolk Southern Railway Company subsidiary operates 
approximately 19,500 route miles in 22 states and the District of 
Columbia, serves every major container port in the eastern United 
States, and provides efficient connections to other rail carriers. 
Norfolk Southern is a major transporter of industrial products, 
including chemicals, agriculture, and metals and construction 
materials. In addition, the railroad operates the most extensive 
intermodal network in the East and is a principal carrier of coal, 
automobiles, and automotive parts.
    Norfolk Southern's predecessors were at the forefront of the 
railroad industry's development. The South Carolina Canal and Railroad 
was chartered in 1827 and placed its first locomotive into service in 
1830. Soon other companies built rail lines to connect markets in the 
eastern United States, and within 40 years railroads had crossed the 
North American continent.
    As the railroad industry expanded, the communities we serve grew up 
around us. With increasing population and the advent of the automobile, 
states and localities embarked on extensive street and road-building 
programs, an effort the federal government joined early in the 20th 
Century. By 1916, railroad system mileage in the United States had 
peaked at about 254,000 route-miles, declining to approximately 138,000 
route-miles today. But as the footprint of the railroad system began to 
shrink, the automobile revolution was just getting started. There were 
about 2.8 million miles of public roads in 1916, and that number had 
grown to 4.2 million miles by 2018. Automotive traffic volume increased 
even more dramatically over that 102-year period. There were 25.8 
billion vehicle miles traveled (VMT) in 1916 compared to 3.2 trillion 
in 2018, a 124-fold increase. Meanwhile, the number of trains operating 
over the rail network declined. Combined passenger and Class I freight 
train-miles stood at 1.2 billion in 1929, the earliest year for which 
data is available. By 2018, that total had been reduced to around 591 
million, or cut by almost half.
    The growth in population and vehicular traffic in proximity to the 
rail system, combined with local land use planning that rarely accounts 
for the presence of rail corridors through communities, has made 
interactions between trains and vehicles at grade crossings a 
challenge. According to the Federal Railroad Administration (FRA), 
there are over 130,000 public grade crossings in the United States 
today, with another nearly 80,000 private crossings. By law, 
automobiles are required to yield to trains and other on-track 
equipment at each of these grade crossings to prevent accidents. Trains 
are almost always unable to stop for vehicles that occupy crossings, so 
driver behavior is the critical factor in grade crossing safety. In 
fact, a U.S. Department of Transportation Office of Inspector General 
report attributed 94 percent of grade crossing accidents to risky 
driver behavior or poor judgment.
    In 1975, the earliest year for which the FRA has data, there were 
more than 12,000 grade crossing accidents in which nearly 1,000 people 
lost their lives. Since then, the number of highway-rail grade crossing 
accidents has dropped more than 80% to approximately 2,200 accidents 
per year, involving 250 fatalities. The FRA maintains a statistic of 
highway-rail grade crossing accidents per million train miles to 
express how many highway-rail grade crossing accidents occur per 
million miles that trains operate. By that measure, the accident rate 
has declined more than 75% since the early 1980s.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While long and mid-term progress have been impressive--a more than 
35% reduction in highway-rail grade crossing accidents since 2000--the 
rate of grade crossing accidents has been relatively flat since 2007.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While some may view this recent performance as unimpressive, we 
must keep in mind that it took place over a period in which VMT 
increased by approximately 200 billion miles (from approximately 3 
trillion miles in 2007 to 3.2 trillion miles in 2018), an increase of 
nearly 7%. Only using train miles to normalize grade crossing accident 
statistics omits the major role of vehicular traffic volume on grade 
crossing accident rates. By introducing VMT into the statistical 
evaluation and accounting for both train and vehicular activity, we get 
a better sense of the rate of grade crossing accidents. When we compare 
grade crossing accident numbers in this manner, we actually see a 17% 
improvement during this most recent period. It is important to note 
that this improvement has occurred in a period during which hand-held 
electronic devices (and their attendant driver distraction issues) have 
become commonplace, suggesting that the impact of grade crossing safety 
efforts is actually understated.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    I want to emphasize that in any discussion of statistical trends we 
should not forget that behind these numbers are human beings. Grade 
crossing accidents have a lasting impact, not only to the occupants of 
the vehicles but also to the train crews who sometimes witness the last 
moments of a fellow human being's life. Despite the progress that has 
been made in reducing grade crossing accidents, the rail industry is 
not satisfied. At Norfolk Southern, we are engaged in a variety of 
innovative and proactive efforts utilizing the timeless ``3 Es'' of 
grade crossing safety (Engineering, Education and Enforcement) in 
partnership with government and others as we work toward the goal of 
zero accidents.
  The Section 130 Program and Other Forms of Governmental Support are 
Critical to Continued Progress in Grade Crossing Safety and Minimizing 
                           Community Impacts.
Grade Crossing Consolidation and Grade Separation Projects
    Removing redundant and unnecessary crossings is a critical factor 
in improving safety. Combining consolidation efforts with grade 
separation projects eliminates the interaction of trains and vehicles 
at remaining crossings and can permanently address local concerns with 
trains occupying crossings when demands on the roadways are high (such 
as during rush hour or when emergency services vehicles need to 
traverse railroad tracks).
    Grade separation projects are expensive, and the federal Section 
130 program is a cornerstone of many grade crossing elimination efforts 
with states and localities. In light of its importance to grade 
crossing safety and the prevention of occupied crossings, funding for 
the Section 130 program should be increased or at least remain at 
currently authorized levels ($245 million in fiscal year 2020). In 
addition, the dependability of funding sources remains essential to 
facilitating the ongoing planning efforts that are important to long-
term project development. To that end, the Section 130 program should 
continue to receive dedicated formula funding out of the Highway Safety 
Improvement Program.
    The rail industry will continue to do its part. The railroads 
themselves spend hundreds of millions of dollars each year on grade 
crossing improvements and maintenance. And several railroads, including 
Norfolk Southern, have been active partners in the CREATE program, a 
first of its kind project that funds infrastructure programs to address 
community impacts in the Chicago area, including separations or 
improvements at 47 different grade crossings.
    Not only should the Section 130 program be preserved, we think 
adjusting the crossing closure incentive cap from $7,500 to $100,000 
would make it even more effective. The hundreds of meetings Norfolk 
Southern has had with localities over the last several years have 
revealed the continued importance of incentive payments to closing 
grade crossings. Although all involved parties can appreciate the 
importance of grade crossing safety, crossing closures have real costs 
that need to be addressed. Increasing the current Section 130 incentive 
payment cap of $7,500 would allow for the benefits of these projects to 
be more evenly spread across communities that need the additional 
assistance and allow for partnerships to take place that might not 
otherwise be possible due to a lack of resources.
Incentivizing Partnerships such as the Indiana Local Trax program
    Norfolk Southern operates approximately 1,440 miles of track in 
Indiana, transporting finished vehicles, agricultural products, and 
construction materials throughout the Hoosier State. In serving our 
customers, our railroad operates over 2,670 public and private grade 
crossings. In April 2018, the Indiana Department of Transportation 
announced $125 million in available funds through the agency's ``Local 
Trax'' Rail Overpass program, which provides a one-time grant 
opportunity to Indiana cities, towns, and counties interested in 
pursuing high-priority railroad safety projects such as grade 
separations, crossing closures, and other safety enhancements at 
railroad intersections with local roads. The criteria for evaluating 
projects include: project viability, financial match, hazard index at 
the crossing, average daily automobile traffic, freight train traffic, 
number of crossing closures, and community population.
    At its core, the impact of the innovative Local Trax program has 
been to encourage partnership among the State, local governments, 
private businesses, and railroads to increase safety, improve mobility, 
and enhance the quality of life for Hoosiers. As Indiana is 
consistently ranked in the top 5 states for collisions between trains 
and cars, Norfolk Southern is pleased to be a partner in the Local Trax 
program and strongly supports its mission to improve safety for 
Hoosiers throughout the State. Norfolk Southern and local communities 
have identified more than 20 crossings that could benefit from 
separation projects, with a goal of completing construction by the end 
of 2024.
    Innovative programs like Local Trax help fuel continued improvement 
in grade crossing safety and serve as templates for similar programs in 
other states. Even without a Local Trax-type program, states and 
communities can benefit from a coordinated approach to grouping 
projects to maximize impact. To further encourage this type of 
thoughtful planning, federal policy should incentivize states to bundle 
grade crossing projects into a single grant application under 
applicable programs, such as BUILD, INFRA, or CRISI. A lack of public 
transportation planning at the corridor level, focused on eliminating 
train/vehicle interaction, is a significant hurdle to grade separation 
bundling coming together. Planning could be encouraged with an 
increased Section 130 allotment so that communities can adequately 
prepare corridor programs of multiple grade separations in advance of 
grant opportunities.
Beyond Crossing Consolidation and Grade Separation
    Norfolk Southern realizes that the immediate elimination of every 
grade crossing is not practical or possible. Therefore, our efforts 
extend into other areas to improve highway rail grade crossing safety 
and reduce avoidable occupied crossing issues.
    Norfolk Southern maintains a robust vegetation management program 
to clear our right of way of potential obstructions and ensure 
compliance with applicable laws and regulations. This program is an 
important part of Norfolk Southern's efforts to remove potential sight 
obstructions at highway-rail grade crossings and to ensure that train 
crews can see railway signals. The program includes mowing, brush 
cutting, tree removal, and selective herbicide application by qualified 
and licensed professionals within the railroad's rights of way with 
careful consideration of the environment.
    Norfolk Southern is also involved in numerous efforts with local 
communities and with customers to minimize the impact of operations on 
local roadway traffic by investing in innovative projects. For example, 
in Leighton, AL, we are involved in a safety corridor project that 
includes crossing profile improvements, the installation and upgrade of 
active warning devices, and a grade crossing closure. With a 
combination of willpower and creativity, the railroad and the community 
have come together to achieve a lasting solution.
    Finally, we have undertaken operating changes that have safely 
increased both the fluidity of our network and average train speed. 
While these changes have been made to improve efficiency and service, 
the Government Accountability Office noted in a 2016 report that train 
speed is a relevant factor in the amount of time a train occupies a 
crossing. Norfolk Southern's average train speed has increased from 
19.1 miles per hour in 2018 to 22.3 miles per hour in 2019 (a 17% 
improvement). These operating changes have had the additional benefit 
of reducing terminal dwell and creating additional capacity on our 
network, which further reduces community impacts at grade crossings.
       Education and Technology are Key to Grade Crossing Safety.
Leveraging WAZE Technology

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In 2019, Norfolk Southern began using WAZE technology to test a 
novel approach to increasing grade crossing safety awareness. By 
utilizing WAZE's unique advertising platform, Norfolk Southern was able 
to target audiences in key locations to receive crossing awareness 
messages while in the very place they often need it most--their 
vehicles. By using a geo-fence around specially selected locations, 
Norfolk Southern was able to target messages to WAZE users to receive 
safety notifications in the vicinity of these areas and increase 
awareness even on trips where they may not drive across crossings. The 
notifications (as pictured above) include a cross buck graphic and a 
grade crossing safety message, along with a link to a website with more 
railroad safety information. By placing limitations on the messaging, 
we were also able to guarantee that the notifications would only be 
delivered once the user's vehicle is stopped to prevent any 
distractions.
    Thus far, the pilot project targeted 44 grade crossings in the 
following areas where 135 incidents have occurred in the past:
    <bullet>  Seven crossings in the Southwest Birmingham, Alabama area
    <bullet>  Nine crossings in the Gary, Indiana area
    <bullet>  Four crossings in the Atlanta/DeKalb County, Georgia area
    <bullet>  Seven crossings in the Toledo, Ohio area
    <bullet>  Five crossings in the Allegheny County, Pennsylvania area
    <bullet>  Twelve crossings in the East Louisville, Kentucky area

    Since the project commenced, the technology has reached more than 3 
million drivers. More importantly, there have been no collisions at any 
of the crossings in the targeted locations.
    The initial phase of the project ran through the end of 2019. In 
2020, the goal is to expand the program locations, include enhanced 
WAZE content, and link it to a more targeted safety message that will 
be housed on the Norfolk Southern www.pulling-together.com website.
    The Norfolk Southern WAZE initiative has just scratched the surface 
of the potential for developing the safety benefits of navigational 
guidance, automated vehicle operations and other technology. Federal 
policy can and should continue to support the accelerated deployment of 
navigational warnings (through means such as smart phone applications) 
for motorists approaching grade crossings. Furthermore, as we move into 
a future with automated vehicles, federal policy should require that 
such technologies include the capability to provide grade crossing 
warnings and prevent drivers from entering over grade crossings when 
trains are approaching. This capability should also be independent of 
any railroad systems, such as Positive Train Control, which are not 
designed to communicate with automobiles.
Expanding Operating Awareness and Response Training
    In addition, Norfolk Southern is expanding our use of the Operation 
Awareness and Response (OAR) Safety Training to include grade crossing 
safety material in the programs that it provides. This effort will help 
to bridge the connections with first responders by providing 
information and training resources and to educate the public about the 
safe movement of hazardous materials by rail. In 2019, the OAR program 
trained 2,428 first responders across the Norfolk Southern network 
using a rolling learning lab that helps communities prepare for and 
safely respond to potential rail incidents. In 2020, the program kicks 
off an 18-stop tour across our system. The 2020 schedule and additional 
information on the program is available at http://www.joinnsoar.com.
           Operation Lifesaver is Key to Educational Efforts.
    Norfolk Southern and our other railroad partners strongly advocate 
for continued Federal support for Operation Lifesaver. This federal 
support has been key to the program's success as demonstrated by the 
recent launch of a new ``Near Miss'' public service announcement 
targeting distracted pedestrians that was made possible by funding from 
the FRA as well as the generosity of organizations like the Posner 
Foundation of Pittsburgh.
    While the new campaign focuses attention on the danger of 
distractions for pedestrians, distracted driving remains a significant 
threat when it comes to highway rail crossing safety. Organizations 
like Operation Lifesaver will remain important partners in the efforts 
to educate motorists about the dangers of distraction when driving near 
railroad tracks and to spread the important message of grade crossing 
safety in our schools and communities. To ensure the important work of 
this organization continues, Congress should authorize at least $3 
million per year for Operation Lifesaver through FHWA, FRA, and FTA.
   Other Opportunities Exist For Community Education and Enforcement
    Walking on railroad tracks is dangerous and illegal. In 2019, 
Norfolk Southern police warned and ejected 11,883 individuals for 
trespassing on tracks and other railroad property. Norfolk Southern 
police also arrested 566 individuals for trespassing. While enforcement 
efforts are essential, Norfolk Southern's Police Department plays an 
active role in promoting rail safety in our communities through 
education. Through the department's Trespasser Abatement Program, or 
TAP, NS police hold a series of events in communities across our system 
to educate people about the dangers of walking on or near railroad 
tracks.
    In 2019, Norfolk Southern police held six of the two-day TAPs in 
locations selected based on the previous year's trespassing activity 
and pedestrian injuries or fatalities on railroad property. The 2019 
events focused on the Gastonia, NC; Hamilton, OH; Johnson City, TN; 
Sandusky, OH; Greenville, SC; and Louisville, KY areas. The events 
included meeting with local law enforcement, talking with community 
members, patrolling the tracks, and handing out antitrespassing 
brochures.
    In addition to TAP, Norfolk Southern police will teach a course in 
2020 for local law enforcement officers that focuses on safety and 
techniques for investigating collisions involving trains and motor 
vehicles at highway-rail grade crossings.
    As I mentioned in my introductory remarks, there is a human 
dimension to grade crossing and trespasser incidents that cannot be 
ignored, and that includes the impact to train crews involved in 
accidents. Norfolk Southern and other railroads have Critical Incident 
Stress Plans to ensure crewmembers have access to counseling and other 
assistance in the aftermath of a trespasser or highway-rail grade 
crossing accident. Those plans are on file with labor organizations, 
and their efforts to communicate the availability of this assistance to 
their members is vitally important. But the best course of action is to 
continue working to prevent these accidents from ever occurring. As we 
work to address grade crossing safety, we should remember that 
trespasser prevention is a closely linked topic, and the education and 
awareness aimed at trespassers can often have an impact on improving 
driver behavior in the vicinity of crossings too.
    With respect to addressing occupied crossings and other grade 
crossing safety matters at individual crossings, education efforts will 
continue to emphasize that every crossing has a blue emergency 
notification sign posted with a 24/7 emergency phone number and an 
identification number unique to that crossing so callers can 
immediately communicate issues at crossings with the responsible 
railroad. Getting real-time information allows railroads to coordinate 
with communities to identify workable short- and long-term solutions to 
mitigate crossing impacts. In some instances that coordination allows 
railroads to be able to provide real-time information about a current 
occupied crossing and an estimated time for when the issue may be 
resolved.
    While driver inattention, distraction, and failure to understand 
and/or follow laws regarding highway rail grade crossings are a 
problem, the failure of professional drivers in these areas is 
particularly disturbing. More than 660 of the 1830 highway-rail grade 
crossing accidents in the FRA database for the first ten months of 2019 
(over 35%) involve trucks, trucks and trailers, vans or buses. A 
sizeable portion of these accidents likely involve professional drivers 
over which the federal government exercises enhanced control through 
the Federal Motor Carrier Safety Administration (FMCSA). At a minimum, 
FMCSA should evaluate whether currently provided grade crossing safety 
training in driver education programs for commercial drivers is 
effective. Furthermore, NHTSA should encourage states to incorporate 
grade crossing safety training in their driver education programs for 
all drivers, and apply any lessons learned from FMCSA's experience.
    Norfolk Southern is committed to operating the safest, most 
customer-focused and successful transportation company in the world. We 
will continue to work cooperatively with federal, state, and local 
governments to achieve these aims and to ensure that North American 
railroads remain the envy of the world. We appreciate this opportunity 
to testify and look forward to working with the subcommittee to 
developing meaningful solutions to reach zero grade crossing accidents 
and incidents.

    Mr. Lipinski. Thank you, Mr. Morris.
    We will now move on to questions. I will begin by 
recognizing the chair of the full committee, Mr. DeFazio, for 5 
minutes.
    Mr. DeFazio. I thank the chair for holding this important 
hearing as we work towards surface reauthorization, which will 
include a robust rail title.
    Mr. Alexy, last June we had the Administrator, Mr. Batory, 
before the subcommittee, and I asked, ``Should train length be 
limited?'' He didn't exactly address the question. There was no 
direct response. In fact, later he indicated he didn't think 
there was much problem with 3-mile-long trains with a one-
person crew.
    But he did later say that the FRA should not become 
involved with blocked crossings because such authority is 
currently with the States and municipalities. Well, clearly, 
because of a series of State court decisions and preemption, 
they can't do anything. So that is kind of a nonanswer.
    But then, apparently in recognition there might be some 
sort of a problem, he did later write and say that there should 
be some action on this issue and urge the freight railroads, 
and then you reinforced that in December. What steps have been 
taken by freight rail since that time?
    Mr. Alexy. Thank you for the question. Just a 
clarification, regarding train length?
    Mr. DeFazio. Well, it is train length, which leads to 
blocked crossings.
    Mr. Alexy. So we haven't taken any specific steps other 
than our enforcement efforts that we do. We--you know, when we 
do our--when we go out and we do audits of the train operations 
to ensure that--a number of things. One, that the crew is 
properly trained and certified and they understand the 
territory over which they are traveling, and that the equipment 
is safe. So it is an ongoing----
    Mr. DeFazio. Right. But the issue is, and you heard 
eloquently from Alderman O'Shea and others who raised concerns, 
that because of pressure from Wall Street, we are moving to 
destroying the freight industry with Precision Scheduled 
Railroading, which may improve stockholder profitability but 
has a whole lot of other problems.
    So the question is, it seems like after that hearing, 
ultimately Mr. Batory wrote to the railroads, and then you 
later reinforced that. And my question is: has there been any 
action taken by the railroads? Have they even communicated back 
with you saying, ``Yeah, we get it. There is a problem, and we 
are going to work on this''?
    Mr. Alexy. So we did reach out. You are correct, and I----
    Mr. DeFazio. Have they responded?
    Mr. Alexy. We did get responses to say that we are----
    Mr. DeFazio. Meaningful responses?
    Mr. Alexy. They were. You know, they acknowledged the 
problem, and they are taking a variety of steps.
    Mr. DeFazio. OK. Please, we would like to see their written 
responses.
    Mr. Alexy. OK.
    Mr. DeFazio. Would you provide those?
    Mr. Alexy. Yes.
    Mr. DeFazio. That would be great. Is FRA confident that if 
you have a 3-mile-long train that the end-of-train device's 
distributed power units and communications work over--we have 
heard repeated anecdotal testimony that particularly in 
challenged terrain or tunnels there is no communication between 
the front and back of the train, 3 miles long.
    Are you confident that there are no issues regarding 3-
mile-long trains that raise safety issues, braking or 
communication or anything else?
    Mr. Alexy. I think that that is something that the 
railroads need to take into consideration when they do train 
makeup. They have to understand the territory over which that 
train will be traveling. So if there are going to be challenges 
with the territory on communications, they need to adjust train 
length accordingly. So there are operational and terrain issues 
that they need to take into account.
    Mr. DeFazio. So if they were running a 3-mile-long train 
through mountainous terrain where we could prove or we would 
know that the inadequate radio systems they have--not 
satellite-based--couldn't communicate, would that be a safety 
violation that would be fineable?
    Mr. Alexy. That would be a problem if we identified that 
there was a loss of communications over the allowed time in the 
Federal regulations, yes.
    Mr. DeFazio. OK. Thanks.
    And, Alderman O'Shea, very quickly, my understanding is STB 
imposed restrictions to allow the use of that route and those 
things have just been not enforced. Is that correct?
    Mr. O'Shea. Yes. The main thing is a closed-circuit 
television feed to our two local hospitals--Little Company of 
Mary Hospital, which is one-half mile east of Elsdon Line, and 
Advocate Christ Medical Center, again, as I mentioned, the only 
trauma center on the Southwest Side of Chicago.
    Mr. DeFazio. And do you have any legal recourse with it? I 
mean----
    Mr. O'Shea. No, sir.
    Mr. DeFazio. OK. None. OK. I just wanted to let you know my 
mother's name was Dorothy Margaret O'Shea. Maybe we are distant 
relatives. Anyway, thanks. Thanks very much for being here.
    Mr. O'Shea. Thank you, sir.
    Mr. Lipinski. The Chair will now recognize Ranking Member 
Crawford for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman.
    Mr. Morris, I have a question for you. We have heard a lot 
of testimony this morning about the impacts, grade crossing 
issues, safety issues, certainly blocked crossings, and so on, 
as applies to urban environments. I have some questions about 
how this impacts rural communities.
    Certainly, we are affected by that, too, and one of the 
other challenges we face in rural communities, like the 
district that I represent, is we don't have the resources, the 
funding, to actually address those issues.
    What are some ways you might suggest that railroads, State 
and Federal Governments, and Congress, in fact, can help ensure 
that rural communities are able to address that issue?
    Mr. Morris. Well, thank you for your question, Congressman. 
I think that is a great question. Obviously, high-density 
areas, there are going to be community impacts, but those 
community impacts can also occur in rural areas.
    There are some great opportunities and examples where we 
have had some success. One, a Leighton, Alabama, project where 
we were able to work with the Alabama Department of 
Transportation on a project that--and, really, what it was--
what were able to do is take more of a corridor, larger area 
approach, and get changes in crossing configuration, including 
the installation of active warning devices at some public 
passive crossings, modifications for flashers to flashing 
lights and gates at another public crossing in the area, 
closures, and putting in a siting extension that not only 
increased network capacity but allowed us an area for a train 
to stage where it would not impact any public grade crossings.
    I think when we look to projects like that, when you can 
take an area--and this goes to one of the recommendations made 
in the written testimony--that the work of this committee to 
continue to advocate for Federal policy to incentivize States 
to bundle projects, grade crossing projects into a single grant 
application, and some of the other written testimony of people 
on here about clarifying who is eligible for those, I think 
those are steps that when we look at BUILD, INFRA, and CRISI, 
can allow you to start to, we will say, create a force 
multiplier because particularly in rural areas the solution to 
one community's problem may be able to spread out and hit 
several other communities I think as we improve our ability to 
say, ``Hey, this could be a larger issue,'' and the solution 
may involve more than just, you know, one small community.
    Mr. Crawford. Thank you. I yield back.
    Mr. Lipinski. I now recognize myself for 5 minutes, and I 
will begin with talking about the blocked crossings, and 
Alderman O'Shea gave some compelling examples of the impact.
    I want to ask, Mr. Vercruysse, what do you--can you expand 
on why you think a Federal blocked crossing law would be 
effective? And how would--what would you recommend in terms of 
that law? And what would the impact be on the railroads with 
this?
    Mr. Vercruysse. Currently, we have had, you know, a number 
of examples where we have been able to work with railroads 
successfully to change operations, as Mr. Morris said, and try 
and alleviate concerns. But it is not under a direct process or 
something that would give the ground rules for that discussion, 
and sometimes we have seen where the concern then ends up on a 
different section of the line.
    So especially for change in operation locations, I believe 
that the use of a Federal law to identify how this is supposed 
to be investigated, whether it is by FRA inspectors, State-
certified inspectors, or others, and how we communicate and 
coordinate with the railroads, should be defined.
    For locations where we have continuous blockage and we 
haven't been able to come up with a successful solution, then a 
penalty structure similar to what we have seen in other State 
statutes for time where we get over the 10 minutes and above.
    For historically heavy locations like we see on the South 
Side of Chicago, our areas of Decatur, sections of Springfield, 
and then the Illinois portion of the St. Louis district, I 
would believe we should have safety plans in place, and then we 
should always monitor to see if changes have created more 
severity.
    So under a Federal legislation package, maybe it is trying 
to compile all of these different safety plans, get a good 
understanding of the problem locations and what is in place, if 
a larger train does break down. Again, we have had success 
stories with trying to manage those issues. We have examples of 
emergency plans in place in and around the Midway Airport of 
Chicago, and those just need to be reviewed and continued 
vigilance in them.
    I hope that answers the question. If you have followup--
thank you.
    Mr. Lipinski. Thank you. I want to move on to something 
that I think there will be agreement upon, except for the 
question of where the additional money is going to come from. 
But grade separations--Mr. Christoffels, it is very impressive 
to me--I have been to the Alameda Corridor, have not gone 
through the East Corridor there, but this was, you know, as you 
said, State and local money. And you mentioned how much Federal 
money--the percentage of Federal money has gone down for grade 
separation.
    How much would you like to see going into the section 130 
for grade separations? How would this have an impact on what 
you are able to do in other locations in the country?
    Mr. Christoffels. I think I can give you a monetary 
example. As you know, that section 130 may be $200 to $300 
million a year. For us, let's just say most recently, for 
example, we have upgraded a crossing with pedestrian safety 
gates. There are a lot of areas in the Nation that are now 
doing that and using section 130 money to initiate that work.
    Five crossings upgraded to quadrant gates and pedestrian 
gates. It is going to cost us $24 million, and that is just 
five crossings located in the city of Pomona in southern 
California. You multiply that across all of the crossings 
across the United States that could use similar improvements 
and you realize how far that section 130 money actually takes 
us, which is not very far at all.
    As I stated earlier, the demand so far exceeds the funding 
availability that we have out there, and there is only so much 
that local agencies can contribute to those types of 
improvements. There is only so much that local residents are 
willing to tax themselves because it is a tradeoff, obviously, 
for other things that they would get taxed for. And, you know, 
as I stated earlier, much of this mitigation revolves around 
interstate commerce, national goods movement, and I think it is 
beholden upon the Federal Government to increase the amount of 
funds that go into that section 130 program to address this 
issue.
    Mr. Lipinski. Thank you, and I will not abuse my role as 
chair and go on another question, because my time is up now. So 
I will now recognize Mr. Babin for 5 minutes.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman, and thank 
you, witnesses, for being here. We appreciate it.
    Continuing to improve safety at our highway-rail grade 
crossings is of vital and life-saving significance. I hope in 
response to this hearing we reaffirm our shared commitment on 
the State, local and Federal levels to ensure that trains move 
safely and efficiently, and that we work to minimize conflicts 
in the communities in which they operate.
    Given that U.S. freight shipments are estimated to go only 
up in numbers, it is imperative that we continue to invest 
resources, innovation and partnership into this space, as seen 
in dedicated section 130 program funding over the years.
    And, Mr. Morris, I'd like to ask you what sort of 
technological advances is Norfolk Southern, or other railway 
companies that you can speak on behalf of, embracing to enhance 
safety and efficiency at our railroad crossings?
    Mr. Morris. Well, we've already talked about our Waze 
initiative as one, and I--first off, I'll say thank you for the 
question. I think technology is going to be a big part of our 
advancement. So that is one area that we have seen, with driver 
behavior being such a huge component of grade crossing safety, 
particularly when you look at the numbers associated with those 
accidents, with 36 percent of the accidents of people, you 
know, not stopping. Those types of numbers--any way that we 
have to reach people is going to be very helpful with 
addressing that next level. So that is one technology that we 
have taken.
    Other technologies, I know that we continue to work with 
the FRA and others on putting in remote grade crossing 
monitoring as one option that will give us better visibility 
over what is happening at the grade crossing and the ability to 
run analysis.
    So there are several technological advances that we 
continue to push, both on the education side and the 
engineering side.
    Dr. Babin. OK. And can you share any examples of 
partnerships between technology companies and the railroad 
industry that strive to help first responders and emergency 
service vehicles to find alternate routes in real-time in order 
to avoid delays that could threaten the lives of individuals 
under their care? As our urban areas grow and roads become more 
congested, these delays at crossings become even more acute.
    Mr. Morris. Well, again, I think Waze is a start with a 
partnership with a technology company. In terms of our first 
responders, the FRA, there is already a regulation for 
emergency notification signs that are in place. So, and that is 
something that it is important, I think, for all drivers to 
know, is that when you get to a crossing, there is a blue sign 
at the crossing that has a toll-free number and identification 
for that specific crossing. And what they may not see is that 
feeds into a network operations center that we have.
    Over the last year or so, Norfolk Southern centralized our 
dispatching operations in Atlanta. So now with a network 
operations center that's centered in Atlanta, we have all of 
our dispatching operations, so when that call comes in to the 
police communications center, you're able to get a real person 
who can then plug that in and work with the network operations 
center--they are all housed in the same building--with 
recognizing the network impact of a lot of these things.
    They have access to the information from the movement of 
trains across our network to look for alternatives and 
hopefully give an idea of potential estimates on how long that 
may last, and other alternatives. But you are--it really comes 
down to the technology enabling people to better respond, in 
answer to the question.
    Dr. Babin. And all good to know. So what can Congress, and 
specifically this committee, do to help railroad industries to 
fight trespassing and suicides as well?
    Mr. Morris. Well, another great question. Trespassing is, 
of course, a big concern, and I think you have hit on one of 
the, I won't say hidden facts, but I don't know that we really 
understand the true scope of the suicide issue with 
trespassing, because it is likely rather underreported.
    So the FRA has already--I know their work with Volpe, Dr. 
Gabree has come in, and worked with not only industry but 
Operation Lifesaver and others to help us better understand as 
we work to address trespassing and some of these other issues 
of safety to make sure we understand the impact that may have 
on suicide and that we are not doing anything to increase the 
problem.
    So I think education not just for us but for the 
communities is a big deal and a big help. I would say--and as 
we put in the written statement--Operation Lifesaver is a 
crucial ally to the railroads and to Government in how we work 
some of these issues. So the recommendation about increasing 
their funding, I think that is something where you can put in a 
little and get a lot.
    Dr. Babin. Thank you so very much. And my time has expired 
so I yield back, Mr. Chairman.
    Mr. Lipinski. The Chair will now recognize Mr. Malinowski 
for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman. I want to build on 
some of the questions that Chairman DeFazio began with, and I 
want to start with you, Mr. Alexy.
    Would you acknowledge--and let me just make this very 
basic--would you acknowledge that there is a relationship 
between the length of a train and how long people are going to 
be waiting at a railroad crossing?
    Mr. Alexy. Unfortunately, we don't have any data to support 
that. We know that the blocked crossings happen, but the 
information that comes with any blocked crossing reports is----
    Mr. Malinowski. I'm sorry, I'm a little confused. This 
seems to be like first-grade arithmetic here. The longer the 
train, the longer people are going to be waiting for that train 
to clear a crossing. Is that not correct?
    Mr. Alexy. That--as far as if that train is moving, yes, it 
will take longer for that train to clear a crossing.
    Mr. Malinowski. Thank you. And this would include first 
responders who may be stuck waiting 3, 5, 10 minutes, 
depending, again, on the length of the train. Is that not 
correct?
    Mr. Alexy. That is correct.
    Mr. Malinowski. And the longer the train, if it has to stop 
for whatever reason, the greater the chance that it will be 
blocking a crossing, especially in a populated area where there 
are more crossings.
    Mr. Alexy. That is correct.
    Mr. Malinowski. And yet it is the position of the FRA that 
decisions about the lengths of trains should be left entirely 
to the industry. Is that still your position, that you hope 
that they take safety into account but that there should be no 
regulations here on a national level?
    Mr. Alexy. Yes, I believe that the railroads need to 
identify their--you know, through their understanding of their 
operations, make those decisions.
    Mr. Malinowski. And you believe that the railroads, that 
the freight railway industry will make those decisions with 
safety as their primary consideration, even given the strong 
economic incentives that they face to build longer and longer 
trains?
    Mr. Alexy. I believe that----
    Mr. Malinowski. You trust them to do that?
    Mr. Alexy. Yes, I believe that there are new rulemakings 
coming out for risk reduction and systems safety, and the 
railroads are going to be required to look at the risk 
associated with the train lengths. So they are----
    Mr. Malinowski. They will be required to look at the risk, 
but they get to make the decision however they want. As long as 
they have told you they have looked at the risk, you will be 
satisfied. Is that what you are saying?
    Mr. Alexy. They are going to have to adjust their 
operations to address that risk that has been identified.
    Mr. Malinowski. And what about crew size? We are seeing 
pressure on the industry to cut crew size in some cases to one 
crewmember per train. Imagine a 3-mile-long train with one 
crewmember. I had an exchange with Mr. Batory on this issue. I 
asked him if such a train were stopped because of an accident, 
how long would it take the single crewmember to walk from the 
front to the back of the train, and he memorably replied to me, 
well, maybe a couple of hours, but it depends on whether he is 
a good walker or not. Got to say that didn't build my 
confidence.
    Don't you--we heard from Mr. O'Shea about the importance of 
cutting trains under those circumstances. Don't you think 
having a second crewmember might be helpful in terms of very 
rapidly cutting a train so that first responders and others can 
get through?
    Mr. Alexy. That--that is a good question. The--when you 
look at--not necessarily. I would say that the time it takes to 
cut a train is considerable, and given the data that we have on 
the time that crossings are blocked, you would not--you may 
even exacerbate the problem by sending someone back there and 
do all the things they have to to secure the train that you are 
cutting away from.
    So it could create more problems in the long run.
    Mr. Malinowski. That makes very little sense to me. It 
would seem that having more than one crew person would make it 
easier to perform those kinds of functions.
    Mr. Morris, if I could ask you, we saw an industry white 
paper recently that stated that one of the reasons blocked 
crossings occur is when trains are being held to change 
operating crews in order to prevent hours-of-service 
violations. And I was curious, with the implementation of 
Precision Scheduled Railroading, in which railroad schedulers' 
schedules are much more precise, how can it be that operating 
crews would be scheduled to time out just as they arrive at a 
crossing? Wouldn't you be able to avoid that?
    Mr. Morris. And that is a great question, Congressman. I 
think one answer is that Norfolk Southern has about 24,000 
grade crossings just ourselves. So that is an average of more 
than one crossing per mile. So the sheer number of crossings 
presents a little bit of a challenge, and that is another great 
point that you made in terms of the scheduled railroading. We 
hear a lot kind of about downsides; I would think that is one 
improvement of knowing where people are supposed to be, when 
they need to be there, what they're going to do. That is why it 
would be helpful as we get more information to look at the 
baseline impacts.
    Mr. Malinowski. Thank you, I yield back.
    Mr. Lipinski. The Chair will now recognize Mr. LaMalfa for 
5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. Thank you, panelists, 
for being here today. I am going to direct my questions to Mr. 
Morris and Mr. Alexy mostly here, so I--you know, we all, I 
suppose, in a way struggle with the at-grade crossings and some 
of the challenges that they provide, but also the flexibility 
they allow. So, you know, what I hear about in--so in northern 
California areas, is that especially private crossings, at-
grade crossings, that railroads like to perhaps close them down 
so they don't have the headache of a safety issue or whatever.
    And I think that the more we close down at-grade crossings, 
whether they're private crossings that go into a processing 
plant or a family farm or just a home or whatever, it makes it 
harder on somebody for not having those availability. And if 
you were to close more at-grade crossings just in town, that 
means you now have to go a different route just to get over. I 
don't think there is enough money in the world to build split 
crossings to accommodate everything.
    So, you know, I know there is a tension here in figuring 
that out. But, Mr. Morris, what do you see as the best 
strategy, I think, to accommodate the need for them but also 
achieve a higher safety factor?
    And then, what is it on the education side? Do we just need 
smarter people that know how to use railroad crossings and take 
the normal warnings of looking both directions and things like 
that? I mean, as I look at these, and we've had the issues, 
again, in my district, some of them have no-cross arms and all 
the other mechanisms, and those are probably a gazillion 
dollars to put in. So is there a way to put a simpler--just 
maybe a simple red light that would be activated at a private 
crossing or small crossing without the high expense?
    What can we do to--in order to keep more at-grade crossings 
in rural areas, not have them eliminated for convenience or for 
less lawsuits or whatever, but still achieve a safety factor 
that would be maybe more acceptable than what this committee 
has talked about today?
    Mr. Morris. That's another great question, Congressman. I--
one of the recommendations that we have made, and we will 
address it--kind of engineering and education. From an 
education standpoint, one of the recommendations that we made 
is that this committee and others should really encourage the 
Federal Motor Carrier Safety Administration, the FMCSA, to 
evaluate their current driver education programs for commercial 
drivers to see, you know, how effective they are.
    And the second part of that recommendation would be to then 
take the lessons learned from, you know, their evaluation and 
move that over to encourage the National Highway Traffic Safety 
Administration to encourage States to incorporate more grade 
crossing safety training in their driver education programs. I 
mean, simple things of stop, look, listen. The meaning of 
crossbuck signs to make sure people understand it.
    I know when I'm driving with my children, it is kind of--
that is one thing that you would do, is just point out to them 
what the proper behavior is.
    Mr. LaMalfa. I am sorry, I am limited on time here. So is 
there a push by railroads to close more and more at-grade 
crossings, or do they try to maintain? Because, again, in rural 
areas, the more you close, the farther they have to go to get 
around them. When you have a train blocking a crossing, and in 
my town, it's like, OK, you just turn around and you go back 
up--sometimes it is a dirt road, but you go up a mile and then 
you find a way to cross. I mean, you kind of have to know that 
that is part of commerce too.
    So, again, what is the balance on closing them and dealing 
with stopped trains in rural areas?
    Mr. Morris. Well, sir, the safest grade crossing is a 
closed grade crossing. It's to limit the interaction. What we 
try to do, and in keeping with the recommendation that the 
closure incentive be increased from $7,500 to $100,000, was 
really a reflection of the work that we try to do. When we go 
in a community, we are trying to give answers and options on--
so it is not just close a crossing; it is maybe there are--it 
is a redundant crossing, and by a little bit of roadway work, 
we can close that crossing and route traffic to another 
crossing, then create one crossing that won't be occupied 
unnecessarily.
    So it is a match, and it is a whole lot easier for us to go 
in and say, take our $100,000, and for that to be turned into 
$200,000. There is a lot larger impact than that $100,000 that 
we give just going up to $107,500. So that is linked to that 
increasing that contribution.
    Mr. LaMalfa. Yes, OK. Well, 5 minutes flies by here, but 
just in a lot of cases closing crossings is an unacceptable 
option to and would be really detrimental to rural areas and 
rural processing plants and things like that. So I just--I 
don't want to see an overreaction because, you know, people 
can't figure it out.
    So thank you, I yield back.
    Mr. Carson [presiding]. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. Mr. Christoffels, 
the public agencies needing cooperation of private freight 
railroads, what are the chances of working with the private 
railroads when trying to construct a grade separation and 
discuss the bureaucratic problems, delays that end up costing 
the taxpayer and associated problems?
    Mr. Christoffels. Thank you for the question. Obviously, we 
have had almost 20 years working with railroads on trying to 
improve their crossings. And yes, sometimes getting their 
attention on a taxpayer-funded project, to get them to respond 
in a timely manner, has been challenging. We are not 
necessarily their highest priority. Obviously, moving freight 
is their number one goal. And we are considered at many times 
an inconvenience to them as we try to move forward on these 
grade separation projects.
    We have had several instances where we have had major delay 
claims from our contractors because the railroad couldn't 
respond in a timely manner to some of our construction 
projects, costing perhaps millions of dollars at times.
    I would also like to talk a little bit about their 
contribution. Right now, the railroads, by Federal statute, are 
required to contribute 5 percent to a typical grade separation 
project. Just so you know, in the State of California that is 
10 percent if there are no Federal funds. We have deliberately 
defederalized projects in order to increase the railroad's 
contribution in some of these projects.
    But what is misunderstood about that statute is the 
railroad can still charge us for their work on the project, for 
example, if they have a flagman or they have a rail crew that 
will be part of the construction activity. The net 
contribution, for example, on our $1.8 billion program has been 
less than 2 percent by the private sector, and in many cases it 
is actually a negative because by the time I paid them for 
their crew activity or other services they provided in 
conjunction with the building of these projects, and then I 
look at what they were required to contribute, we have actually 
participated more in funding them than they have in us in these 
projects. And I think that is something that this subcommittee 
and Congress in general should take a look at. We are 
mitigating impacts by the private sector. They are for-profit 
businesses, and we need to take a hard look at times at what 
kind of contribution we should get from these entities in 
mitigating the impacts to our local communities.
    Mrs. Napolitano. How long has it been since this--the 5 
percent?
    Mr. Christoffels. Pardon me?
    Mrs. Napolitano. How long have the railroads----
    Mr. Christoffels. The 5 percent has been in statute for a 
long time, and it has not increased.
    Mrs. Napolitano. We will be working to improve the section 
130 program. What role does FRA and the Federal Government play 
in regulating grade crossings in their related projects? And 
can policy or Federal regulations be improved for addressing 
grade crossings' safety and related projects, and what are the 
changes for improvement that you recommend?
    Mr. Christoffels. Well, I think a lot of my fellow 
panelists have spoken about what might they have done on the 
FRA to improve crossing safety. Our experience has been 
relatively positive. We do have some quiet zones which we have 
worked very closely with FRA on in implementing them for the 
communities once these improvements are put in place.
    But, you know, one of the big issues for us as well is the 
blocked crossings. There was the discussion earlier about a 3-
mile train. You can imagine in a community like ours, that's 
six crossings that would be simultaneously obstructed by a 3-
mile train. And what you get and what you have to understand is 
that in addition to crew changes, they're looking for passing 
sidings, looking for a clearance track, and when their passing 
tracks were designed for trains that were only one-half mile in 
length, the rest of that train has to sit somewhere, and where 
it sits, of course, is on active crossings.
    And so as the train length and train volume increases, we 
see more and more of our crossings getting blocked as they're 
waiting for that passing opportunity on their overcrowded 
system. And even technology won't correct that. So I just 
wanted to share that with you that we've seen that, and I think 
FRA needs to take a hard look as train length is increasing, 
what that will mean on especially in an urbanized environment 
where you have very close proximity of your crossings. There 
are no opportunities for a motorist to veer off onto a 
different street to get by this particular train.
    Mrs. Napolitano. Thank you, Mr. Christoffels.
    Mr. Alexy, in December 2019, last year, the FRA pointed out 
that there are no Federal laws or regulations pertaining to 
blocked passage. Why is that?
    Mr. Alexy. I can't speak to why there is not a regulation. 
There is a regulation about if the unnecessary closure of a 
crossing with the signals being activated, so there is that. If 
there are switching operations that are causing the signal to--
or the grade crossing to close and unnecessarily block that 
crossing. But I can't speak to as to why there is not a 
regulation about occupying a crossing.
    Mrs. Napolitano. Would you agree that it's time for a 
change?
    Mr. Alexy. I think that is something that we should 
certainly look into. I think it's a difficult thing to 
regulate. I think there are a variety of issues that need to be 
taken into account. There are regulations that the railroads 
already have to adhere to, and prohibiting the blockage of a 
crossing may then contradict compliance with those other 
regulations, and also this is a potentially difficult 
regulation to enforce.
    Mrs. Napolitano. Thank you, Mr. Chair. I will submit 
questions for the record.
    Mr. Carson. Mr. Balderson.
    Mr. Balderson. Thank you, Mr. Chairman. Thank you, panel, 
for being here.
    Mr. Alexy, for the first question, the FRA recently awarded 
funding to four law enforcement agencies to address railroad 
trespassing enforcement. Your findings show a significant 
reduction in trespassing incidents in these four local 
jurisdictions. How do you think these funds helped reduce 
railroad trespassing and does the FRA plan to expand this 
program so more law enforcement agencies can crack down on 
trespassing incidents and improve safety?
    Mr. Alexy. So thank you for that question. Yes, we have 
seen the benefit of having these law enforcement liaisons that 
work with law enforcement and to train them, to spend time out 
there educating the public, working with judges for the 
prosecution of violations under--to make the local law 
enforcement understand how important it is that they do enforce 
the local trespassing rules.
    So yes, it has been very, very helpful, and we will expand 
it as we are currently doing that. We have a grant that is out 
and we are looking at the applications that are coming in. So 
we hope to expand this to as great an extent as we can.
    Mr. Balderson. All right. Thank you very much.
    Mr. Morris, thank you for being here this morning, and I 
know that you have discussed this a little bit this morning, 
but I just want to get into it a little bit deeper because we 
are dealing with Ohio, and that is my home State. But in your 
testimony you discussed Norfolk Southern's partnership with the 
Waze navigation app. I see from your testimony that Toledo, 
Ohio, is one of the pilot projects targeted. While I don't 
represent Toledo, I am interested in how we can expand this 
technology across the Buckeye State.
    Can you discuss how this program has been successful and 
does Norfolk Southern have plans to expand it to other parts of 
its network?
    Mr. Morris. Yes, sir. Happy to discuss it. Our pilot 
project really started in March of 2019, and the idea was to 
utilize the advertising aspect, the targeted advertising aspect 
of Waze. So Toledo was one of the areas. There were seven 
crossings that we wanted to target. And what we do is set up a 
geofence around the area that we would like to target. When a 
motorist uses the app and they are inside of that geofence, you 
get an advertisement that pops up, an awareness message from 
the railroad, and that allows us to reach not only those that 
may go over the crossing but those that are generally in that 
area.
    It only pops up when the vehicles stop. So we can kind of 
sidestep any issue or thoughts about distraction. We are 
planning to continue the campaign because we found great 
success in those areas.
    The idea is to kind of take that total market saturation, 
expand it not just in the number of locations that we're 
targeting, but also taking the message and potentially, I guess 
you would say, specializing the message for the area or for 
what we are finding in that specific area, and then linking in 
on the back end for those who want to save it for later or 
click through, you know, more indepth messaging about Norfolk 
Southern, about grade crossing and trespassing awareness, and 
really link that in to our overall grade crossing awareness 
campaign. And that would match with the efforts of our 
operation awareness and response train.
    As we go around to communities, we have added a grade 
crossing safety component to that to go along with the 
education that we provide for first responders for hazmat and 
accident response and those issues.
    Mr. Balderson. OK. Thank you very much for your answer, and 
Mr. Chairman, I yield back my remaining time.
    Mr. Carson. Gentleman yields back. Thank you.
    Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. Mr. Alexy, I wish--you 
know, we are kind of talking in hypotheticals pretty much for 
this discussion. But I wish I was still speaking in a 
hypothetical, but, you know, a frequent cause of fatalities at 
grade crossings is a driver trying to make it across a railroad 
crossing before an oncoming train arrives. Sadly, there were 
two fatalities just last month in New Jersey when a train hit a 
car in a railroad crossing. It is unclear if the driver was 
trying to cross while the train was coming, oncoming, or if 
there were other circumstances.
    However, I believe the FRA should be giving States all 
necessary resources to enhance grade crossing safety to 
minimize fatalities.
    Can you elaborate on what assistance the FRA is offering to 
help States prevent deaths for motorists entering grade 
crossings in the path of oncoming trains?
    Mr. Alexy. Well, we have grade crossing inspectors across 
the entire country. And we work closely with communities. You 
know, we go out and we make sure, one, that everything is 
functioning as it is supposed to at a crossing. And we do a lot 
of outreach. But as far as what we're giving to States in 
particular, as far as the Office of Safety, which is my office, 
I am not familiar with anything in particular other than what 
we do as far as our enforcement and outreach efforts.
    Mr. Payne. So the only resources are in outreach, and is 
that correct?
    Mr. Alexy. I think there is probably more. There are 
additional resources in our grant program that if localities 
want to apply for CRISI grants or those types of grants, that 
they certainly can.
    So FRA in general does.
    Mr. Payne. And those are readily made available? Do 
communities know of these grants?
    Mr. Alexy. Yes, they are publicly--they are announced and 
they are out there.
    Mr. Payne. OK. All right. Mr. Morris, a key component of 
grade crossing safety is ensuring that grade crossings are not 
blocked by oncoming trains for extended periods of time. What 
is Norfolk Southern doing to reduce the risk of blocked grade 
crossings and to improve grade crossing safety overall?
    Mr. Morris. Another very good question, sir, and I can 
understand the interest of everybody, and that is why we 
appreciate being a part of this hearing. I think one of the 
things that we continue to stress is just the partnership with 
the communities that are out there.
    With the emergency notification system coming in, we get--
you know, when we get a report, it is routing that through to 
the appropriate people to understand what is happening and 
understand why, and then evaluating to see if there are 
repeated instances. So I think there is a difference in 
handling on a case-by-case basis, a one-off versus something 
that appears to be happening repeatedly are going to be handled 
differently in evaluating, hey, what is--what is the proper 
course of action here?
    And as we have already indicated, sometimes it is an 
engineering answer; sometimes it is an education answer about 
where we can stage our trains; sometimes it is an education 
answer with the community about specifically what is happening. 
But really the feedback loop is the most important thing of 
understanding, you know, hey, we understand it is an issue and 
we are trying to get to the bottom of what is going on.
    Mr. Payne. OK. Mr. Chair, I will yield back the balance of 
my time.
    Mr. Carson. The gentleman yields back.
    Mr. Pence.
    Mr. Pence. Thank you, Mr. Chairman. Indiana has over 3,800 
miles of Class I railroad tracks, the majority operated by CSX 
and Norfolk Southern Corporation. As the crossroads of America, 
our rail industry is one of the busiest in the Nation, holding 
true to our nickname as the crossroads of America, moving over 
328 million tons of freight annually.
    According to the 2018 Indiana State Freight Plan, our State 
ranks ninth in the U.S. for railroad miles, yet that same year 
we ranked sixth in the Nation for railroad crossings. As Mr. 
Morris says in his written testimony, we are now number 5.
    Safety is the major concern. The city of Rushville, in my 
district, has a population of 6,000 people. When a freight 
train stops at one of their main crossings, it splits the town 
in half. Ambulances and firefighters could be rerouted, 
threatening lives in case of emergency. Mr. O'Shea, as you 
noted, 10 minutes could mean zero chance to save a life, as it 
does in your community where my grandfather and grandmother 
lived for many years.
    In Muncie, Indiana, the Tillotson crossing splits a local 
neighborhood from West View Elementary School, and you are not 
going to believe this but maybe it can--I have received calls 
from constituents and local officials in Muncie who have 
witnessed children climbing under and around the train to get 
to school. I am sure we can all agree that that is a major 
safety concern.
    Mr. Morris, we are grateful that Norfolk Southern vowed to 
work with the Muncie, Indiana, transit system to address this 
specific problem.
    In addition, I am pleased that in Rushville, CSX joined a 
task force with local officials to reduce stoppages and the 
impact on their community. These are both great examples of 
industry and Government working together to improve grade 
crossing safety and minimizing avoidable stoppages.
    Mr. Morris, I appreciate that you highlighted Indiana's 
Local Trax Rail Overpass program, a public-private partnership 
grant program created by Governor Holcomb in 2017 to enhance 
railroad intersections with local roads.
    Regardless of these ongoing efforts, my office--and I know 
my colleague and fellow Hoosier, Representative Carson, our 
offices are inundated with calls about problems that our 
constituents encounter in rural communities.
    Mr. Morris, in your testimony you agree there is more to be 
done, stating the rail industry is not satisfied either. With 
population size among the grant eligibility criteria, small 
towns like Rushville will likely never qualify for Local Trax 
or section 130 funding, like L.A. or Chicago.
    Mr. Morris, do you see an opportunity for industry and 
Government to develop a strategy like an operating procedure or 
a set of standards to mitigate the impact on rural communities 
that will not be awarded competitive grants because of their 
size?
    Mr. Morris. Thank you. Yes, sir, I do. I mentioned we have 
about 24,000 grade crossings on Norfolk Southern. The fact that 
I recognize Tillotson should, I think, tell you everything 
about it. And that is a perfect example of we mentioned 
engineering as one solution, education, and this is a great 
example of education both inward and outward.
    That was the situation where we were actually able to kind 
of take that feedback, look at the operation, get a sense of 
what was creating the issues, and by adjusting the locations of 
pickups and set-outs of customer freight on two trains 
operating in the area, adjusting some of the timing of some of 
our more irregular local trains that were operating on less of 
a scheduled time, we think that we have addressed that issue.
    But I think that is a perfect example of where it goes to, 
you know, some of these issues, really, they start to get very 
complicated because it can create a cascading effect if you are 
trying to fix it by pulling on the wrong lever. And that was a 
perfect example of getting kind of the safety people, our 
operating folks together and saying, hey, what gives? And you 
should see that decrease. But perfect example of education 
works both ways.
    Mr. Pence. Thank you all for being here. Mr. Chairman, I 
yield back.
    Mr. Lipinski [presiding]. The Chair will now recognize Ms. 
Norton for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. I appreciate this 
hearing. Well, I have an interest in railroads and trespassing, 
and the statistics that show that people are often killed by 
walking the railroads. This is a kind of romantic notion of 
walking on the railroad tracks. And I have some statistics, and 
there is also the notion, of course, of taking a shortcut 
across the railroad tracks. And so I am trying to find out what 
we are doing about that. And I noted some data that surprised 
me. Up to 500, 400, between 400 and 500 casualties, or I'm 
sorry, fatalities, perhaps many more injuries than we know, 
because only the casualties, I believe, are reported.
    Now, I appreciate that the FRA has looked at the 
statistics, done a lot of research and come up with some 
notions like educating the public. I am more interested in one 
of their ideas about law enforcement and policing and fines. I 
recognize that would take some work, but when you have that 
amount of--that number of fatalities, it seems to me it is 
worth the work.
    Now, I do note the interest therefore in warning signs and 
medians and signage generally. Are there--I suppose this 
question could go to Mr. Vercruysse, Mr. Christoffels, or 
Alderman O'Shea, or all of you, are there any--what work is 
being done that you know of and are there grade crossing 
projects that may be ineligible for the Federal funding 130 
program that you believe should be eligible under that program 
to bring funding to it as a safety matter?
    Mr. Vercruysse. Thank you very much. I am happy to answer 
the question and address trespassing more from the State 
funding perspective and what we are doing, and maybe that could 
serve as guidance to--at the Federal level and what we have 
been discussing with the FRA. In 2001, our State statutes were 
changed so that we could fund pedestrian bridges, overpasses, 
underpasses, and that was in direct response to a location 
where we had blocked crossings and kids going through trains.
    Ultimately, the first bridge project that we did construct 
was at a location where a middle school was separated from a 
whole community and the children have to walk 1\1/2\ to 2 miles 
along an unimproved area. The seventh grader, she was killed at 
this location and from there we started building bridges.
    And that is when we started getting involved in what was 
really trespassing mitigation. More recently in the last--I 
would say in the last 6 months, we have been looking at our 
State statutes on how we can address trespassing mitigation 
especially with the findings by the FRA that 75 percent of the 
incidents happen within 1,000 feet of a crossing. How do we 
expand that definition of the crossing, or at least whatever we 
are working on--trying to take care of two factors?
    So as part of our State statute in review of what we are 
trying to do is to allow us to help fund those projects which 
might be fencing. It may be more bridges that we have done in 
the past. We know how to do those things. I think the bigger 
challenge is how do we make it for law enforcement so on their 
normal patrols and their normal day-to-day operations that we 
integrate it? How do we use technology whether it is radar 
systems or other detection modes for trespassers going off of 
the crossing, and then provide that information to law 
enforcement in a usable way?
    We have worked with programs before, actually one that was 
funded federally, the PEERS Program, the Public Education and 
Enforcement Research Study, and I believe some of these 
programs after that have been just, you know, part 
continuation. Those did show a benefit but that involved--
overtime, that involved trying to, you know, make sure you have 
those resources always available. So our question is using 
technology today, what can we get to the police departments and 
how can they address it in a more immediate fashion? Thank you.
    Ms. Norton. Thank you very much, Mr. Chairman. I think this 
is a matter that has received too little attention from the 
Congress, for these fatalities demand our attention. Thank you 
very much.
    Mr. Lipinski. Thank you. Now, the Chair will now recognize 
Mr. Bost for 5 minutes.
    Mr. Bost. Thank you, Mr. Chair. Just so you know, I served 
as a professional firefighter, as a union firefighter for many 
years, and I was trained at one of the best schools in the 
Nation, the Illinois Firefighters Academy. It is second best in 
the Nation only to New York. Now, part of that training and let 
me tell you--look at me. It was a long time ago.
    The training dealing with hazmat spills whether it was 
train or whether it was other transport, and/or dealing with 
fires on those types of situations was a pretty intense 
training. And then--and I'm not joking about this. This is 
actually some of the training. Then we had what was known as 
the ``cop'' test.
    We would come with the firetruck, OK? You hit one-eighth 
mile off. You get your binoculars out and if you think you'd 
had a hazmat spill, if the cops were down, don't go in. That 
really was part of it back then. Now, things have changed since 
then on how training goes, but that being said we are trained 
on a lot of things. And just recently we had a train derailment 
right in my district and there was a fire, and fortunately no 
lives were lost.
    And no property was destroyed except for the damage to the 
train that occurred there. That being said, Mr. Morris, how are 
you working--because I was in a fire department that we had 
professional training because we were paid by the city. The 
city could afford that. We could afford to be sent to the best 
training. How are you working with rural area first responders 
on trying to make sure that they are trained to the level they 
are that can assist to be the responders they need to be?
    Mr. Morris. It is a very important issue and Norfolk 
Southern's approach has been to as much as possible take the 
training to the departments. And that is the Operation 
Awareness and Response training that I mentioned, and the stops 
across our system. We have an 18-stop tour scheduled for 2020.
    This is something we have done for years. We pick areas 
across the system. We let people know that we are coming and 
then that training is provided free of charge to first 
responders to let them know what they need to know when it 
comes to dealing with hazmat, and to let them know resources 
that are out there.
    The industry has put a lot in developing technology 
resources, like the AskRail app that is out there from the 
railroad industry and available for our first responders to 
where you can actually log in, and at the click of a button get 
a better understanding of what is in the consist. And not only 
that but it routes you out to some of the emergency response 
guidelines, such as your clear distances and evacuation or 
isolation distances to let you know more about that particular 
commodity and the dangers associated.
    Beyond that, we fund scholarships. Again, on the industry 
level to our SERTC Program out in Pueblo, Colorado, that is run 
in collaboration with TTCI to give an even more indepth 
training where people leave that training HAZWOPER certified. 
So I think the industry would agree that it is very important 
for our first responders to have at least some familiarity with 
the different commodities that we're moving and how to 
appropriately respond in an incident.
    Mr. Bost. I am glad you mentioned the app and I am glad 
technology is being dropped in there because whenever I was 
firefighting and I was responding you had a book in the glove 
compartment. And then you had to go with a number, and the 
description and find it. And it had all that information, but 
today, the technology a firefighter can en route, hopefully, be 
able to get the information.
    So the other question I have here and I have just got a 
short period of time, but so when you say you notify the 
communities, you just go down your existing rail and say OK, 
this is a community that hasn't been trained yet. Boom. That is 
when we are going to--and then you reach out to the local law 
enforcement and/or first responders, or how is that done?
    Mr. Morris. We have hazmat officers located around our 
system and hazmat officers and environmental operations 
officers that, you know, really a lot of them are former first 
responders, and they have partnerships and relationships with 
the communities. It is on our web--it is also a link to it from 
our website.
    I don't think it is on the actual Norfolk Southern. It is a 
separate website that you can get to from there that will allow 
you to get the information. And I believe it is joinnsoar.com. 
And that is in the written testimony as well. So people can go 
to that and get more information about where those events are 
and when they are coming.
    Mr. Bost. All right. Thank you very much. With that, Mr. 
Chairman, I yield back.
    Mr. Lipinski. The Chair now recognizes Mr. Carson for 5 
minutes.
    Mr. Carson. Thank you, Chair. Mr. Morris, in your testimony 
you ask for increased Federal funding for the section 130 
program. How has your organization invested in improving grade 
crossing safety and how does fiscal year 2020 projected 
spending compare to previous years?
    Mr. Morris. Another very important topic which is section 
130. I think it is at $245 million for 2020 and our 
recommendation that it be maintained at that if not increased 
as we move into the future. It is important to realize that we 
are not just asking for this money and not investing in 
anything ourselves. The railroad industry spent hundreds of 
millions of dollars a year on our infrastructure maintenance as 
it directly connected to grade crossings.
    Norfolk Southern, itself, spends $30 to $40 million a year 
maintaining warning devices and we are reimbursed under $2 
million for that work. So it is an ongoing effort. I think when 
we look to section 130, what we are looking at for those 
projects are projects that can have an outsized influence.
    You know, these larger grade separation projects where we 
think we can solve a lot of issues in collaboration with 
localities and others to really have a larger impact. So that 
money is not for little things. The, you know, $245 million or 
more that goes into that, I think you can see from the other 
witnesses there is an outsized impact of what goes into that.
    Mr. Carson. Thank you, sir. Mr. Vercruysse, your testimony 
states that four-quadrant gates should be the goal of efforts 
to install, renew and significantly change crossing. What 
safety benefits do four-quad gates offer railroads and 
communities? And do barriers exist to installing these gates?
    Mr. Vercruysse. Thank you, very much. Four-quadrant gates, 
we have 178 locations in the State of Illinois and primarily we 
have an accident figure, where approximately 25 percent of 
people go around the gates. The four-quadrant gates will seal 
off the entire crossing so that that person or motorist cannot 
go around the gates.
    And we have gone farther in use of vehicle detection in the 
crossing and along our corridor from Chicago to St. Louis. 
Those vehicle loops also have additional services. So this 
vehicle detection will actually communicate back to the train 
if we have an obstruction, say a farm vehicle, a truck or some 
other implement on the crossing.
    So there we can provide safety in terms of avoiding 
derailments. Our passenger trains, those passengers on the 
train did not go around the gate. We need to find a way to 
address all of their concerns. But four-quadrant gates to us 
provide the best available technology that solves about--we see 
25 percent of the accidents. And if we were not to look at 
that, we have not looked at all of our engineering solutions. 
And as such we found a great benefit in accident reduction 
through that area.
    Mr. Carson. Thank you, sir. Thank you, Chair. I yield back.
    Mr. Lipinski. Thank you, Mr. Carson. I now yield 5 minutes 
to Mr. Davis.
    Mr. Davis. Thank you, Mr. Chair. I appreciate the 
opportunity. I apologize I missed opening testimony and some of 
the other questions. So I am going to keep my questions to more 
of a local-level issue and Mr. Vercruysse, good to see you 
again. Thank you for being here. I have heard from one of my 
good friends, Mayor Chris Koos of Normal. Normal, Illinois, for 
those of you who have not been there. It is issues regarding 
rail blockings.
    I understand his office has been in close communications 
with the rail company which really is key to addressing these 
local-level concerns. And as we draft the next surface 
transportation bill, what can we as legislators provide you in 
Illinois to make sure our State is the safest in the country 
when it comes to rail crossings?
    Mr. Vercruysse. Thank you very much and good to see you 
too. With the rail crossings, I think in terms of blocked 
crossings we would like to see a plan in place as far as when 
operation changes occur, how are these to be addressed. If 
there is a continuous need to address the blocked crossings, 
then are we looking to infrastructure plans and how do we fund 
those plans?
    How do we get all of the parties together and formulate 
what is a coordinated effort before it happens? That would be a 
primary goal. After that, expanding past the normal area, loss 
of shunt issues and trying to go to the next development of 
Positive Train Control, right now we still have track circuits 
that were derived from the late 1800s.
    So that is the underlying technology that is used, and then 
obviously through our great use of computing power we have been 
able to augment that, but we still are relying on track 
circuits. So under a new Federal legislative initiative, I 
think it would be nice to see help and have Positive Train 
Control addressing the grade crossings.
    Mr. Davis. OK. Well, I appreciate your viewpoint on that 
and you mention the short shunt issue and the impact on rail 
safety. I know this is also an issue that has been raised in 
connection with Amtrak's Illini route and how it may have 
affected their on-time performance. The Illini route services 
my constituents in Champaign-Urbana, and can you speak to your 
efforts with the railways IDOT and Amtrak to address this issue 
so that our commuter trains arrive safely, but also on time?
    Mr. Vercruysse. Yeah. Thank you. There has been a great 
effort in the last 2 years with the railroads, all of the major 
parties. Yesterday I was at a meeting of the loss of shunt 
committee which had pretty much the ``who's who'' of railroad 
signaling and warning devices present to help address the 
concerns.
    And as a result there have been modifications to warning 
systems, settings. There have been software modifications but 
yet there are the speed restrictions that you have discussed 
that ultimately affect or impact what the commuter time may 
take. But at this point we are working towards the next product 
which is something that has been utilized in Europe for quite 
some time and is to help assist that track circuit that I 
discussed with the old signal technology.
    We just signed an agreement to help fund that portion. In 
addition, the railroads have expended a great deal of 
resources. Amtrak is working towards a solution as is the 
Illinois Department of Transportation. So this project, we 
anticipate, will be 1 year to 2 years, but ultimately, we still 
believe the direction would be to move to that next level of 
radio-based or wireless detection.
    Mr. Davis. So the implementation of PTC technology as we 
see it nationwide probably isn't going to affect the issue that 
you think we may be having on the Illini route?
    Mr. Vercruysse. Correct. It does not address the at-grade 
crossings and my understanding it doesn't solve the loss of 
shunt concern.
    Mr. Davis. OK. Well, I look forward to continuing to work 
with you and the commission, and also our partners in the rail 
industry, Amtrak and IDOT too, to move forward on both of these 
issues. Thank you for your time, and thank you to all of the 
witnesses.
    I yield back, Mr. Chair.
    Mr. Lipinski. Thank you, the Chair now recognizes Mr. 
Garcia for 5 minutes.
    Mr. Garcia. Thank you, Mr. Chairman and to all of the 
witnesses who came this morning, I apologize I couldn't be here 
for all of your statements. I had a bill up in a neighboring 
committee. But I am glad to see not one but two witnesses from 
Illinois here. Thank you, Alderman O'Shea and Administrator 
Vercruysse. And of course it makes sense that we have great 
representation from the Chicago area at today's hearing.
    Chicago is America's transportation hub with over 7,400 
miles of railroad tracks and thousands of rail crossings. We 
are quite familiar with rail and all of the positive and 
negatives that come with it. Safety, of course, must be our top 
priority. So I am glad we are focused on that today. One area 
of safety I think we often overlook, however, is the long-term 
dangers of communities in close proximity or immediate 
adjacency to heavily industrialized areas or major rail 
infrastructure.
    More often than that it is working-class communities and 
communities of color that run along railroad tracks. These are 
areas that need more infrastructure investment right where I 
live. In the district I represent we have trains and tracks 
running right through our neighborhoods by our schools. It is 
part of life.
    You hear the trains rumble through at all hours of the day 
and night, and of course we are all too familiar with blocked 
crossings. What we don't talk about enough are the 
environmental justice implications of blocked crossings. Those 
of us who don't live near railroad tracks may not see this but 
I see it all the time in my district.
    A few weeks ago, the Chicago rep from CSX, Tom Livingston, 
gave me a tour of CREATE, a landmark public-private partnership 
to clear up congestion in Chicago. And my key takeaway is when 
we invest and bring Government and the public sector together, 
we can provide real solutions. But there is still so much more 
we can do.
    On the Northwest Side we get backups along Belmont between 
Pulaski and Kedzie Avenue. And the Southwest Side by my home we 
have got issues like the ones we see on Pulaski and 33rd 
Street. When blocked trains back up traffic, it is not just a 
nuisance or congestion. It is a health and safety issue as 
well. Idling trucks from the local freight and logistics 
operation lead to heavy tractor-trailers idling right outside 
of schools and right through neighborhoods.
    There are plumes of smoke at times and the constant smell 
of thick, diesel fumes. There are kids that walk all along 
these congested truck routes. My question is what happens to 
the families and the kids for whom this is their everyday? This 
is simply the air they breathe day in and day out. What about 
their safety?
    So, Mr. Christoffels, in your testimony you shared a lot 
about the success of the Alameda Corridor Project. Can you talk 
about the added air quality and environmental benefit you have 
achieved by successfully completing grade separation projects?
    Mr. Christoffels. Yes, thank you for the question. I stated 
earlier in my testimony the crossings that we have eliminated 
through grade separation has reduced approximately 2,000 
vehicle-hours of delay per day. So that's--again, that's 2,000 
vehicles sitting there, idling in these neighborhoods that you 
were just alluding to.
    That is pollution that these residents and children are not 
being subjected to. The same thing also--in providing these 
crossings we are moving the freight through their communities 
as opposed to allowing those trains to sit, and stall and idle, 
which is also improving the air quality for those residents 
living in the area.
    And of course there is beyond just the environmental; it is 
a safety issue. We now have the ability to get students to 
their classrooms via these underpasses where they will not be 
subjected to standing at a crossing, and being in close 
proximity to the rail engines as they are traveling through 
their communities.
    Mr. Garcia. Thank you, and do you believe that more Federal 
funding for these grade separation projects and a dedicated 
funding stream would help?
    Mr. Christoffels. Absolutely. Yes.
    Mr. Garcia. Excellent. Now, I want to turn to Alderman 
O'Shea and maybe, perhaps if time allows, back to Mr. 
Christoffels. Can you speak to some of the same concerns about 
blocked crossings and the resulting air quality issues that can 
arise from idling trucks and diverted traffic, because in 
Chicago the first person they call is the local alderman, as 
you know too well, Alderman O'Shea? And do you believe that the 
Federal Government could provide a more dedicated funding 
stream to build grade separated crossings?
    Mr. O'Shea. Thank you for the question. Something I didn't 
talk about in my testimony but also is a problem in communities 
throughout the country, and I have certainly seen it, when 
trains are stopped, maybe not necessarily blocking a crossing, 
but stopped because the motor facility or the yard they are 
headed to is crowded, they will sit in my community for hours 
at a time with the locomotive running.
    And that is a tremendous amount of pollution that the 
residents in that area will see. And like your neighborhood 
that you represent, the neighborhood I represent, I remember 
when the Surface Transportation Board came out. They couldn't 
believe the proximity from the residential homes to the rail 
lines.
    I mean, literally in my community there are homes 60 feet 
from the rail line. And when you have 5,000-foot-long trains 
with a locomotive running, idling for, in some cases, hours at 
a time, that is a tremendous amount of pollution being released 
in the air which is really bad for a community.
    So although my--the problems I have seen in my community 
are a little different, that most certainly is a real problem. 
We have got to keep these trains moving. I think any community 
would understand that we need freight rail traffic. This is 
commerce, but we need the trains to move. And when they stop, 
whether it is blocking a crossing which is dangerous to both 
pedestrians, but also dangerous and problematic, and quality of 
life issues for motorists and community residents, stopped 
trains that are idling is also a very serious issue as far as 
it pertains to pollution.
    So I would welcome any thoughts, any ideas to try to 
resolve some of these issues as it affects my neighborhood on 
the Southwest Side of Chicago.
    Mr. Garcia. Thank you, sir. Thank you, Mr. Chairman for 
your indulgence. I yield back.
    Mr. Lipinski. Thank you, Mr. Garcia. The Chair now 
recognizes Ms. Wilson for 5 minutes.
    Ms. Wilson. Thank you, Mr. Chairman. Preventing grade 
crossing collisions and fatalities is a major challenge in 
Florida where passenger and freight railroad tracks stretch 
across the State. I have watched several troubling videos of 
vehicles narrowly escaping Brightline trains in my district.
    While these incidents did not result in fatalities or 
injuries, so many others have. FRA data and those reports 
indicate that since 2017, at least 40 Brightline collisions 
have resulted in fatalities. It is absolutely incredible and we 
have never experienced anything like this before in the 
railroad industry.
    Given this deadly increase, I urge FRA to review these 
incidents and issue recommendations. I encouraged Brightline to 
attend this hearing. They declined but said they would include 
a statement for the record, because we need to find new 
effective solutions to this problem because whatever everyone 
has been doing up to this point is simply not working.
    I have a few questions. Mr. Alexy, the rail line in 
Florida, itself, has been around for years as part of the 
Florida East Coast Railway. But Brightline began operating in 
2017 and has dramatically expanded service. In the past, slower 
freight trains used the line, but Brightline now runs up to 20 
trains per day operating at an average speed of 80 miles per 
hour.
    Since Brightline launched 2 years ago, on average more than 
one person a month has been killed on the tracks in a car, on a 
bike or on foot. An analysis by the Associated Press found that 
this was the worst death rate per mile of any of the Nation's 
railroads. And as of today more than 40 lives have been lost. 
How is the FRA working with Brightline and local authorities to 
reduce incidents and fatalities?
    Mr. Alexy. Thank you. Thank you for the question. We are 
well aware of the issues down there and it is important to us. 
We have been working with Brightline from the beginning, from 
the inception of the project, and to ensure that their 
operations one, are in compliance.
    We have also worked with them for outreach reasons to reach 
out to others--to the communities along that route to 
understand the differences in the operations that you point 
out, that these are much faster trains. And the time that they 
catch up with you is much shorter. So there is less time, but 
the important thing is to get people to--whatever we can do to 
get them to stop trespassing.
    That is an important element of this and that outreach is 
vital, and important to that. We also have--again, I have 
spoken about it before about the grants that are available to 
do any type of grade crossing upgrades or improvements and the 
like, and also trespass prevention as well for local 
communities.
    Ms. Wilson. Have you given any safety recommendations to 
Brightline itself and have they been implemented, 
recommendations that the company can do to stop some of these 
deaths?
    Mr. Alexy. Well, we have stressed the importance of 
outreach and working with the communities----
    Ms. Wilson. We have done outreach. We have done outreach. 
We have--in fact, I taped a commercial myself to--for the 
community and for people to understand the difference in the 
speed of the trains. But that has not worked.
    Mr. Alexy. We have--you know what? I will say that we have 
done a lot of enforcement. We have been down there making sure 
that one, their gates and lights, and their crossing equipment 
is working right, and their operations are all in compliance. 
And generally their compliance record is very good. And we 
continue to keep a very close eye on them.
    Ms. Wilson. Have you spoken with them at all about having 
law enforcement or private security companies stationed at the 
crossings when the trains are scheduled to come along the 
tracks?
    Mr. Alexy. I have not. I can check on that to find out if 
we have had those conversations. I know the president of 
Brightline was up meeting with our Deputy Administrator to talk 
about different strategies they have implemented. I will have 
to go back and doublecheck that to find out if that 
conversation happened, but--and we can submit that.
    Ms. Wilson. Ms. Maleh, thank you and your colleagues at 
Operation Lifesaver for your work to promote rails safely and 
save lives in Florida, and across this Nation. Can you 
highlight Operation Lifesaver's work to reduce Brightline 
related fatalities and the potential impact on increased 
Federal funding? How would that help those efforts?
    Ms. Maleh. Thank you very much for the question. We 
recently participated in a safety blitz in Florida with 
Brightline with our State coordinator there. And my colleague 
Chantez Bailey who is here with me in the room did multiple 
press conferences. They also ran a mobile van throughout the 
State where the tracks run to share the importance of when you 
see tracks, think train.
    It is really the outreach and the education. I think a lot 
of people don't realize how fast the train is moving. It is an 
optical illusion or they are distracted and they don't stop, or 
they are used to driving around a gate because trains never 
come. It has moved slowly. So we are trying to change human 
behavior which is a daily, as well as an hourly, project that 
we undertake through our education efforts.
    But we are also reaching back younger, to the younger ages, 
to students in schools to work with school administrators to 
get the word out through their school assemblies. We are 
working with driver's education programs so that they learn the 
signs, as my colleague to my left talked about, so that drivers 
know what the signs mean and how to yield or stop at a 
crossing.
    So we do a multitude of trainings and education, and 
outreach throughout the State of Florida as well as the other 
States in the country. One of the things that is really--that 
we are noticing is the selfies and photographers taking 
pictures on the tracks.
    So one of the outreaches that we did with Brightline was 
educating photographers, amateur photographers and the 
teenagers not to take photos on the tracks. So they had this 
mobile selfie booth with rail safety messages near the 
crossings as part of events so that they were part of a 
community outreach festival.
    Ms. Wilson. I yield back.
    Mr. Lipinski. Thank you. We have been going for over 2 
hours now. So at the risk of prolonging this, I want to see if 
any of the witnesses had any short comment they want to add at 
this time? All right. Thank you. And everyone else thanks you 
too, probably. I want to thank all of you for your testimony 
today.
    The discussion has been very informative and helpful. You 
know this is an issue where we need to figure out where we are 
going to draw lines because no one--as I said in my opening 
statement, our freight rail network is the envy of the world 
and helps our country be--all of our businesses be more 
efficient.
    There are issues though that arise because of the vast 
network of freight railroads and we need to figure out the 
right place to make sure that communities are protected from 
the negatives that do come from that. So I think all of the 
testimony today has been very helpful as we move forward with 
writing the reauthorization bill.
    And we will continue to have discussions with all of you 
and relevant stakeholders as we move forward in the next month 
or two. So with that I want to ask unanimous consent that the 
record of today's hearing remain open until such time as our 
witnesses have provided answers to any questions that may be 
submitted to them in writing.
    And I ask unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing. Without objection so ordered, and if no other Members 
have anything to add, the subcommittee stands adjourned.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman Lipinski and Ranking Member Crawford, for 
calling today's hearing to look at issues surrounding grade crossing 
safety.
    The last time this Committee held a hearing to examine grade 
crossing issues was 15 years ago. A lot has changed since then. We all 
now have cell phones, which is the number one contributor to distracted 
driving. We rely on apps like Google Maps and Waze to find shortcuts to 
help us get to our destinations faster. The Class I railroads have 
implemented Precision Scheduled Railroading (PSR), which includes 
operating longer trains, closing yards, and demanding signalmen cover 
more and more territory in order to cut labor expenses. All these 
changes have an impact on safety at public grade crossings.
    States and localities have tried to address some of the grade 
crossing issues they face but have a hard time keeping up--often with 
little financial support from the Federal Government or railroads. 
While the railroads advocate for closing more grade crossings, these 
projects often aren't realistic solutions in densely populated 
communities that have been built around rail lines.
    Grade crossing separation projects can increase capacity and free-
flowing movement for both trains and vehicles, while reducing vehicle-
train conflict and increasing safety. However, we'll hear from 
witnesses today just how expensive these projects can be. With only 
$245 million available nationwide this year for projects through the 
Section 130 Railway-Highway Grade Crossing Program, many states 
struggle to cover the costs of multi-million dollar projects. As a 
result, we plan to provide more funding opportunities for these larger 
grade crossing safety projects through rail safety grants in the Rail 
Title of the Surface Reauthorization bill.
    Another issue compounding the problems at grade crossings is the 
growing length of freight trains. Though railroads don't make train 
length publicly available, two Class I railroads provided information 
to the Government Accountability Office that showed train length has 
increased by 25 percent in just the last 10 years. I am very concerned 
by this trend and suspect that train length will continue to grow with 
the Class I railroads' implementation of Precision Scheduled 
Railroading.
    While increasing train lengths to over 3 miles long might provide a 
cost-savings to the railroads, it has major impacts on the communities 
these trains traverse, sometimes bisecting entire communities and 
bringing traffic to a halt for hours or even days! And without sidings 
long enough to hold such long trains, trains idle on tracks while 
waiting to enter a yard, sometimes blocking crossings and creating 
traffic jams.
    We have heard from numerous state and local officials that long 
trains and trains stopped on crossings have prolonged response times 
for emergency responders and forced them to find alternative routes.
    Thirty-five states and Washington, D.C. have laws in place allowing 
them to issue a civil fine to a railroad when it blocks a crossing for 
an extended amount of time. But in the last decade, the railroads have 
challenged many of these state laws in court on the grounds that they 
are pre-empted by federal law. However, there are no federal 
regulations pertaining to trains blocking public grade crossing.
    To make matters worse, FRA Administrator Ronald Batory told this 
Committee last June that solutions to these problems should be 
addressed at the local level leaving little incentive for railroads to 
take community concerns seriously. States continue to try to address 
persistent blocked crossings by working with railroad representatives, 
but problems persist, and I continue to hear complaints from 
constituents.
    Today's panel includes witnesses with varied first-hand experiences 
in dealing with grade crossings issues. I look forward to hearing their 
suggestions on improving grade crossing safety, reducing blocked 
crossings, and how best to engage railroads, local communities, and the 
Federal Government in being cooperative partners on grade crossing 
issues.

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    I want to thank Chairman Lipinski for holding this hearing, and I 
want to thank our witnesses for attending.
    Today's hearing is a good opportunity to evaluate the work being 
done to improve railroad grade crossing safety, including the critical 
issues of railroad trespassing and suicides, as well as problems with 
blocked grade crossings.
    Railroad safety is a top priority for the rail industry, for our 
states and communities, and for this Committee. Preventing injuries and 
fatalities on our nation's railroad tracks, including through 
initiatives that address suicides, is crucial to the future of our rail 
system.
    Finding practical and cost-effective solutions to improve grade 
crossing safety, such as through equipment upgrades, grade visibility 
improvements, and closing or eliminating crossings, serve to not only 
to save lives, but also eliminate traffic and gridlock in our 
communities.
    The rail industry and local communities have focused in on 
addressing grade crossing issues. Efforts have been made to track and 
prevent railroad trespassing and suicides through the use of various 
technologies and expanded public education.
    The FRA has recently highlighted the issue of blocked grade 
crossings. It has taken steps to better understand this problem through 
stakeholder outreach and improving tracking efforts, and through 
soliciting public input on individual blocked crossing incidents.
    I look forward to hearing about the FRA's current work to improve 
grade crossings, and future plans to continue this work.
    I also look forward to hearing from railroad stakeholders on the 
challenges they face with grade crossing issues, including efforts to 
enhance safety and save lives, and potential solutions to these 
concerns.
    The various federal grant programs directed at improving grade 
crossings have provided assistance with crossing upgrades. The Section 
130 program, which is funded by the federal government and administered 
by the states, directly addresses hazards at rail crossings.
    We should continue to evaluate these grant programs to ensure the 
money is accessible and is being used effectively.
    Thank you again to our witnesses, and I look forward to our 
discussion.

                                 <F-dash>
    Statement of Jerry C. Boles, President, Brotherhood of Railroad 
      Signalmen, Submitted for the Record by Hon. Peter A. DeFazio
    Thank you, Mr. Chairman, Ranking Member, and honorable members of 
the Railroads, Pipelines, and Hazardous Materials Subcommittee. My name 
is Jerry Boles, President of the Brotherhood of Railroad Signalmen 
(BRS). The BRS is primarily responsible for performing the 
installation, maintenance, repair, and testing of safety critical 
highway-rail grade crossing warning systems. On behalf of more than 
9,600 BRS members and railroad workers across the country who serve 
this nation's transportation needs, I want to express my appreciation 
to the Subcommittee for holding this hearing on current issues 
regarding highway grade crossings including blocked grade crossings, 
the improvement of grade crossing safety, and the concerns that many 
communities have regarding highway grade crossings. It is imperative to 
understand that the issues reflected in my testimony affects not only 
the general public, but also our members, and the general safety of the 
railroad.
    Much of this testimony delves into life-saving and safety critical 
work on highway grade crossing warning systems, which the Subcommittee 
should be familiar with. While the general subjects of my testimony are 
of a somewhat different nature than that under consideration by the 
Subcommittee today, they are pertinent to reach the goal of zero 
accidents, injuries, and/or fatalities.
    As railroading has evolved, safety has always been the highest 
priority for the BRS and we have worked diligently towards achieving 
it. A prime example of the BRS working towards necessary safety 
improvements came in the early 1990's with the implementation of life 
saving and critical highway grade crossing regulations that are in 
place today. These regulations addressed serious gaps in highway grade 
crossing warning system safety and improved the safety of the general 
public and railroad workers, as well as protected and safeguarded 
railroad property. In fact, before these regulations were implemented, 
there were not federal requirements to document problems and issues 
that occurred at highway grade crossings, nor were there measures to 
prevent them.
    A brief explanation of some of the key improvements that came with 
the implementation of these regulations is proper. One of the key 
improvements came under 49 CFR Part 234--Subpart D--234.225, which 
established parameters on a highway grade crossing warning system's 
minimum warning time. 49 CFR Part 234--Subpart D--234.225 reads as 
follows (in part):

        ``A highway-rail grade crossing warning system shall be 
        maintained to activate in accordance with the design of the 
        warning system, but in no event shall it provide less than 20 
        seconds warning time for the normal operation of through trains 
        before the grade crossing is occupied by rail traffic.''

    The aforementioned regulation established that, at minimum, there 
must be at least 20 seconds of actual warning time before a train 
occupies the street that the railroad crosses. Conversely, 49 CFR Part 
234--Subpart A--234.5 defined what occurs if that crossing warning 
system does not provide the minimum warning time of 20 seconds. 49 CFR 
Part 234--Subpart A--234.5 reads as follows (in part):

        Activation failure means the failure of an active highway-rail 
        grade crossing warning system to indicate the approach of a 
        train at least 20 seconds prior to the train's arrival at the 
        crossing, or to indicate the presence of a train occupying the 
        crossing, unless the crossing is provided with an alternative 
        means of active warning to highway users of approaching trains. 
        (This failure indicates to the motorist that it is safe to 
        proceed across the railroad tracks when, in fact, it is not 
        safe to do so.) A grade crossing signal system does not 
        indicate the approach of a train within the meaning of this 
        paragraph if--more than 50% of the flashing lights (not gate 
        arm lights) on any approach lane to the crossing are not 
        functioning as intended, or in the case of an approach lane for 
        which two or more pairs of flashing lights are provided, there 
        is not at least one flashing light pair operating as intended. 
        Back lights on the far side of the crossing are not considered 
        in making these determinations.''

    Before these regulations were in place, there was not a requirement 
establishing a minimum warning time nor were there any reporting 
requirements for an activation failure. Simply put, the railroads may 
have desired to provide sufficient warning time; however, there was not 
a regulation requiring it, nor were there any consequences if there was 
not sufficient warning time. Also, there were not any requirements to 
report a situation where there was not sufficient warning time.
    When the minimum warning time requirement was established for 
highway grade crossing warning systems, it prompted 49 CFR Part 234--
Subpart D--234.257. This regulation established the timelines for on-
site testing and visual inspections, reading as follows (in part):

        ``(a) Each highway-rail crossing warning system shall be tested 
        to determine that it functions as intended when it is placed in 
        service. Thereafter, it shall be tested at least once each 
        month and whenever modified or disarranged.

        (b) Warning bells or other stationary audible warning devices 
        shall be tested when installed to determine that they function 
        as intended. Thereafter, they shall be tested at least once 
        each month and whenever modified or disarranged.''

    Establishing that a highway grade crossing warning system can only 
be considered safe with at least 20 seconds of warning time, a 
regulation requiring that highway grade crossing warning systems need 
to be tested and inspected every 30 days was implemented to ensure that 
all components are functioning as intended. While this is a very 
rudimentary explanation, the aforementioned regulations are examples of 
how regulations help address and alleviate safety and problems before 
they occur.
    It must be noted the regulations cited above are a small sampling 
of the many life-saving and critical highway grade crossing test and 
inspection requirements in place that define exactly what must be done 
by signal workers in order to ensure highway grade crossing warning 
systems are functioning properly. The additional regulatory 
requirements were established and have proven time and time again to 
provide for the safest and most reliable highway grade crossing warning 
systems in the railroad industry. A more detailed explanation regarding 
the current regulations in place for highway grade crossing warning 
systems can be provided, should the Subcommittee desire.
    Since the implementation of the highway grade crossing warning 
system regulations, accidents, and incidents have decreased 
significantly. Concurrently, highway grade crossing warning systems 
have seen vast and significant technological changes resulting in 
dramatic advancements. As with any technological advance, safety of the 
general public and of the workers tasked to install and maintain these 
systems should be the driving force behind implementing them. However, 
while technology is a valuable tool and can help increase safety at 
highway grade crossings, it in no way trumps or replaces the proven 
test and inspection system currently mandated.
    Carriers are installing the most technologically advanced crossing 
warning systems available and, in some cases, are attempting to use 
those systems to argue for deregulation of time-proven tests and 
inspections at highway grade crossings. Further exacerbating this 
problem are the many waiver applications Administrator Batory's Federal 
Railroad Administration are granting. Simply put, the more waiver 
applications that are granted, the less that on-site testing and 
inspections will occur. This puts the public, rail workers, and 
Carriers' property at a much higher risk. Additionally, under the 
inflexible Precision Scheduled Railroading (PSR) business model many 
railroads employ, eliminating regulations will result in larger and 
unrealistic territory size. This will no doubt result in more equipment 
failures, including highway grade crossing warning systems, increasing 
the potential for tragic incidents and consequences.
    I am certain that the main reason there are so few tragic failures 
that result from equipment malfunction on highway grade crossing 
warning systems is due to the fact that signal workers are on-site 
doing required, regular testing and inspections. What Congress, 
regulatory agencies, and the general public may not realize is there 
are many times that failures of the highway grade crossing warning 
system, and the potentially tragic consequences that may occur, never 
actually happen because of the regulatory mandate for on-site testing 
and inspections.
    Further, while some would try to convince us that technology can 
somehow replace the regulations currently in place, this would actually 
be a step back and would no doubt result in more accidents and 
incidents. Moreover, individuals not familiar with the day to day 
testing and inspection requirements would have us believe that 
technology is somehow responsible for the good track record in highway 
grade crossing safety, rather than current testing and inspection 
requirements, which is simply not true. Make no mistake, technology 
does not make highway grade crossing warning systems safe; life- saving 
testing, inspection requirements, and the workers tasked with 
performing them make crossings safe.
    Our economy is reliant upon the many trains that ship our goods 
across our country. Shipping by rail is one of the safest, most 
efficient, and environmentally-friendly transportation options 
available, and it is incumbent upon all of us to find ways to minimize 
the likelihood of another accident at any railroad grade crossing. The 
BRS has consistently fought to improve safety for our members and the 
public through measures such as highway grade crossing warning system 
regulations, roadway worker rules, and the Rail Safety Improvement Act 
of 2008. These are just some of the innovations we are proud to have 
advocated for and accomplished. However, we realize that the work of 
keeping our nations rail network safe never ends and we will continue 
to work with Labor, the FRA, the National Transportation Safety Board 
(NTSB), Railroads, and Congress to ensure safety for the general 
public, rail workers, and railroad property.

                                 <F-dash>
   Letter of February 13, 2020, from Ann Begeman, Chairman, Surface 
 Transportation Board, Submitted for the Record by Hon. Daniel Lipinski
                                                 February 13, 2020.
Hon. Daniel Lipinski,
Chairman,
Subcommittee on Railroads, Pipelines, and Hazardous Materials, U.S. 
        House of Representatives, Washington, DC.
    Dear Chairman Lipinski,
    I am writing in response to certain witness testimony given last 
week during your Subcommittee's hearing entitled, ``Tracking Toward 
Zero: Improving Grade Crossing Safety and Addressing Community 
Concerns.'' Specifically, Alderman Matthew O'Shea commented on the 
impacts of blocked crossings in his ward as a result of rail operations 
by CSX Transportation Inc. (CSXT) on the Elsdon Line in the Chicago 
area. The purpose of this letter is to address issues raised by 
Alderman O'Shea with respect to the Surface Transportation Board (STB 
or Board) and its work concerning the Elsdon Line.
    In 2013, the Board approved CSXT's application to acquire an 
operating easement over the Grand Trunk Western Railway Company's 
Elsdon Line. See CSX Transp., Inc.--Acquis. of Operating Easement--
Grand Trunk W. R.R., FD 35522 (STB served Feb. 8, 2013). That approval 
was made subject to conditions, including voluntary mitigation measures 
proposed by CSXT and mandatory mitigation measures developed by the 
Board's Office of Environmental Analysis (OEA), to help mitigate 
anticipated effects of the transaction with respect to, among other 
things, traffic and grade crossing delay, emergency response, 
pedestrian and bicycle safety, and rail safety. The Board also imposed 
monitoring and enforcement conditions requiring CSXT to report 
quarterly (for three years) on the progress of, implementation of, and 
compliance with, the mitigation measures.
    The Board recognized that the Village of Evergreen Park and other 
communities experienced frustrating and difficult challenges when CSXT 
commenced operations on the Elsdon Line. That is why the Board remained 
actively engaged after the transaction's approval. In addition to the 
Board-monitored mitigation, Board members met with CSXT officials to 
discuss operational concerns on the line. Board members and staff also 
traveled to Evergreen Park in 2014 and 2015 to visit with officials and 
tour the most impacted areas first-hand. And, Board staff communicated 
regularly with State Representative Kelly Burke, Mayor James Sexton, 
and CSXT representatives to address community concerns regarding rail 
operations.
    These efforts continued until the Board formally reopened the 
proceeding on June 22, 2016, stating that CSXT had been allowed more 
than enough time to address the many problems that had arisen on the 
line since the application was approved. The Board ordered CSXT to 
comply with the representation it made in its application (that it 
would not route a train onto the Elsdon Line unless the line was clear) 
or show cause why it is unable to do so. Additionally, the Board 
ordered CSXT to report monthly on a number of issues, including gate 
malfunctions and crossing blockages exceeding 10 minutes. The Board 
twice extended CSXT's monthly reporting requirements, with the final 
monthly report being filed July 16, 2018. In a decision served July 27, 
2018, the Board noted that, while CSXT's monthly reports indicated that 
CSXT had reduced the number of false activations on the line, issues 
remained regarding the number and duration of blocked crossings. The 
Board ordered CSXT to establish and provide to the Board a plan 
detailing additional actions CSXT would take to improve fluidity and 
reduce the number and duration of blocked crossings on the line. CSXT 
submitted its response in August 2018.
    Please be assured that the Board has maintained an active role, 
both formally and informally, in overseeing CSXT's implementation of 
the transaction and the required mitigation measures and has continued 
its informal oversight. Last May, the Board sent a letter to CSXT 
President and CEO James Foote requesting an update on operations over 
the Elsdon Line, specifically asking about the line's fluidity and 
specific actions CSXT had taken during 2019 to enhance train movement 
and bolster community engagement. In response, Mr. Foote reported 
continued favorable performance trends including a 35% reduction in the 
number of blocked crossings and a 23% reduction in the total duration 
of those blockages. CSXT further reported that 97% of trains traversed 
a grade crossing in 10 minutes or less. Moreover, I request an update 
on operations on the Elsdon Line each time I meet with CSXT officials.
    Attached please find a status update regarding the three mitigation 
provisions raised in the Alderman's testimony. I'd be happy to answer 
any questions you may have regarding these matters. The Board's 
decisions, parties' filings, and CSXT monthly reports related to these 
matters may be found on the Board's website under Docket No. FD 35522. 
Additionally, the Board's May 2019 letter to Mr. Foote is available on 
Board's website under Non-Docketed Public Correspondence.
    Thank you for the opportunity to provide information regarding some 
of the Board's many actions concerning the Elsdon Line. Please do not 
hesitate to contact me or Lucille Marvin, Director of the Office of 
Public Assistance, Governmental Affairs, and Compliance, if you or your 
staff have any questions or would like further information.
        Sincerely,
                                   Ann Begeman,
                                           Chairman.
                               attachment
    Alderman O'Shea's testimony included allegations concerning three 
specific mitigation measures imposed by the Board in its 2013 decision 
approving the transaction. The three mitigation measures are stated 
below, along with the status of their implementation:
    Mandatory Mitigation Measure 2 (MM 2). MM 2 required CSXT to 
consult with all appropriate agencies and hospitals to install a 
closed-circuit television system with video cameras so that the 
movement of trains could be predicted at the 95th Street highway/rail 
at-grade crossing. CSXT was to fund, install, and maintain all 
necessary equipment. This was to be done in order to further assist 
with the timely response of emergency service providers for Advocate 
Christ Medical Center and the Little Company of Mary Hospital.
    <bullet>  In its December 31, 2013 quarterly monitoring report, 
CSXT informed the Board that installation and operation of the closed-
circuit camera was completed. Evergreen Park controls the camera. The 
Board has not been received any complaints or comments regarding this 
mitigation measure or its status of completeness.

    Voluntary Mitigation Measure 37 (VM 37). VM 37 required CSXT to 
notify Emergency Services Dispatching Centers for communities along the 
affected segments of all crossings blocked by trains that are stopped 
and may be unable to move for a significant amount of time. CSXT was 
required to work with affected communities to minimize emergency 
vehicle delay by maintaining facilities for emergency communication 
with local Emergency Response Centers through a dedicated toll-free 
number.
    <bullet>  In its May 31, 2016 quarterly monitoring report, CSXT 
informed the Board that it had installed a dedicated toll-free number 
on all road crossings and CSXT's Public Safety Coordination Center was 
notifying its Command Center of blocked crossings.

    Voluntary Mitigation Measure 6 (VM 6): VM 6 required CSXT to 
operate under U.S. Operating Rule No. 526 (Public Crossings), which 
provides that a public crossing must not be blocked longer than 10 
minutes, unless the blockage cannot be avoided. VM 6 also required that 
the train be promptly cut to clear the blocked crossing if the blockage 
was likely to exceed this time frame.
    <bullet>  On July 27, 2017, the Board granted CSXT's unopposed 
request to revise VM 6 because, based on CSXT's monthly reports, the 
voluntary mitigation measure proposed by CSXT--that it would cut a 
train if that train would block a crossing for more than 10 minutes--
had proven infeasible (causing longer delays) in many circumstances. 
Accordingly, VM 6 was revised to read as follows: ``CSXT shall take 
appropriate actions to clear a public crossing or crossings blocked by 
a stopped train as quickly as possible, including by cutting the train 
where it appears that cutting the train would be the fastest way to 
clear the crossing and, if possible, rail cars, engines, and rail 
equipment may not stand closer than 200 feet from a highway/rail at-
grade crossing when there is an adjacent track.''

                                 <F-dash>
Letter of February 11, 2020, from John Patelli, Head of Regulatory and 
    Federal Affairs/Associate General Counsel, CSX Transportation, 
            Submitted for the Record by Hon. Daniel Lipinski
                                                 February 11, 2020.
Hon. Daniel Lipinski,
Chairman,
Subcommittee on Railroads, Pipelines, and Hazardous Materials, 
        Committee on Transportation and Infrastructure, Washington, DC.
    Dear Chairman Lipinski,
    CSX is submitting this letter and request it be included in the 
hearing record in response to certain testimony at the Subcommittee on 
Railroads, Pipelines and Hazardous Materials' February 5, 2020 hearing: 
Tracking Toward Zero: Improving Grade Crossing Safety and Addressing 
Community Concerns. Specifically, certain testimony presented by a 
Chicago alderman at that hearing contained significant misstatements 
about CSX's operations on the Elsdon Line in the Chicago area and the 
Surface Transportation Board's (``STB's'') monitoring of those 
operations. These misstatements included inaccurate allegations that 
grade crossing blockages on the Elsdon Line remain a significant 
problem; that CSX had not complied with an STB condition requiring 
construction of a closed circuit television monitoring system; and that 
the STB should not have concluded formal monitoring in June 2018.
    The facts show that the Elsdon Line is a tremendous success story 
for what can be achieved by railroads, communities and government 
striving towards a common goal. When CSX acquired operating rights on 
the Elsdon Line in 2013, the track and signals on the Line were not in 
the condition required for consistent and reliable operations, and we 
experienced equipment failures and operational problems that led to an 
unexpectedly high number of blocked grade crossings, including in the 
communities of Evergreen Park and the 19th Ward. But the story did not 
end there. We responded to the community's and the STB's concerns by 
taking multiple significant actions to improve our performance and 
reduce the impact of rail operations in the communities through which 
the Line runs. We made $31 million in capital investments in the Line, 
including major investments to replace signals equipment, improve 
fluidity, and alleviate chokepoints. We also took a hard look at our 
operating procedures to find ways to reduce blocked crossings, 
including improved communications with connecting railroads. We also 
committed to extensive engagement with the community, meeting regularly 
with community leaders to address issues and ensuring that the public 
had clear ways to express and resolve their concerns. Our capital 
investments, operational changes, and improved community outreach are 
detailed in our STB filings.\1\
---------------------------------------------------------------------------
    \1\ See, e.g., Response to July 27, 2018 Decision, CSX Transp., 
Inc.--Acquisition of Operating Easement--Grand Trunk W. R.R., STB 
Docket No. 35522 (filed Aug. 23, 2018)
---------------------------------------------------------------------------
    These efforts resulted in substantial reductions in blocked 
crossings on the Elsdon Line. In 2018, CSX showed that the Elsdon's 
fluidity level (as measured by average train speed) was on par or 
better than any other CSX Chicago corridor.\2\ Indeed CSX's performance 
on the Line has only improved since the STB discontinued monthly 
reporting. For example, during the entire month of January 2020, only 
two CSXT trains were forced to stop in the portions of the Line running 
through Evergreen Park and the 19th Ward (which are the portions of the 
Line that were the focus of grade crossing concerns expressed to the 
STB). Every other train traversed these communities without stopping 
once. During the fourth quarter of 2019 and the partial first quarter 
of 2020, 95% of trains passing through Evergreen Park and the 19th Ward 
cleared grade crossings in less than 10 minutes.
---------------------------------------------------------------------------
    \2\ See id. at 32-35.
---------------------------------------------------------------------------
    Moreover, the alderman's claim that CSX is not complying with a 
condition that the STB placed on the transaction is simply wrong. The 
alderman testified that CSX had disregarded the STB's requirement that 
CSX install a closed circuit television system to monitor the 95th 
Street at-grade crossing to assist with the timely responses of 
emergency service providers to the Advocate Christ Medical Center and 
the Little Company of Mary Hospital. He specifically said that ``no 
system has been installed,'' and suggested that the STB had failed to 
take any action to enforce this condition. This is not true. In 2013, 
CSX completed installation of a closed-circuit TV monitoring system 
after consultation with the Village of Evergreen Park, Advocate Christ 
Medical Center and the Little Company of Mary Hospital. Based on that 
consultation, cameras were installed on the roof of the Evergreen Park 
municipal facility, which provides a good vantage point to view the 
95th Street grade crossing, and monitoring equipment was provided to 
Evergreen Park. CSX paid for all installation, equipment, and training 
costs. It was agreed by all parties that Evergreen Park would maintain 
control of the camera and the monitoring system; because hospitals do 
not dispatch ambulances, they saw no need to themselves monitor the 
video feed.
    CSX reported to the STB in 2013 that the closed circuit TV was 
installed.\3\ The alderman should have been well aware of this fact, 
since it was discussed at a technical hearing before the STB on October 
21, 2016 that he attended and in multiple pleadings with which he was 
served.\4\ Before the alderman's testimony last week, CSXT's compliance 
with this requirement has never been contested by the alderman, the 
Village of Evergreen Park, or any other party.
---------------------------------------------------------------------------
    \3\ See Quarterly Status Report, Summary of Elsdon Subdivision 
Mitigation Measures at 6, CSX Transp., Inc.--Acquisition of Operating 
Easement--Grand Trunk W. R.R., STB Docket No. 35522 (filed Dec. 31, 
2013) (``Installation and operating of the closed circuit camera[a] is 
complete. Evergreen Park is controlling the camera.'').
    \4\ Technical Conference Tr. at 64-65, 120-21, CSX Transp., Inc.--
Acquisition of Operating Easement--Grand Trunk W. R.R., STB Docket No. 
35522 (Oct. 21, 2016); see also Reply to Petition to Reopen, at 17, CSX 
Transp., Inc.--Acquisition of Operating Easement--Grand Trunk W. R.R., 
STB Docket No. 35522 (filed Mar. 10, 2016) (discussing installation of 
closed circuit cameras); Report on Operational Fluidity, at 36-37, CSX 
Transp., Inc.--Acquisition of Operating Easement--Grand Trunk W. R.R., 
STB Docket No. 35522 (filed May 30, 2017) (same).
---------------------------------------------------------------------------
    Finally, it was ill-informed to suggest the STB should not have 
discontinued formal monitoring of the Line back in June of 2018. On the 
contrary, the STB responded to the community's concerns by requiring 
monthly reporting on blocked crossings for two years (July 2016 through 
June 2018). The STB only discontinued that monitoring after CSX 
presented a detailed report explaining the actions it had taken to 
reduce grade crossing blockages on the Elsdon, the actions it planned 
to take in the future, and how CSX's fluidity on the Elsdon compared to 
other lines in Chicago. No party contested that evidence.
    Similarly, the complaint about the STB's decision to amend the 
condition indicating that any trains blocking a crossing for more than 
ten minutes must be cut ignores the STB's sound basis for that 
amendment. In most circumstances, the operation to cut and reassemble a 
train would take an hour or more, and make grade crossing delays worse, 
not better. As a result, the STB made a well-supported decision to 
amend this condition into a requirement that CSXT ``take appropriate 
actions to clear a public crossing or crossings blocked by a stopped 
train as quickly as possible, including by cutting the train where it 
appears that cutting the train would be the fastest way to clear the 
crossing.'' \5\ No party opposed this request.
---------------------------------------------------------------------------
    \5\ CSX Transp., Inc.--Acquisition of Operating Easement--Grand 
Trunk W. R.R., at 3, STB Docket No. 35522 (July 27, 2017).
---------------------------------------------------------------------------
    We hope that this correction to the record is useful to the 
Subcommittee's work. CSXT remains committed to providing excellent, 
fluid service over the Elsdon Line and being actively engaged with all 
the communities through which we operate. Please let us know if we can 
provide further information or do anything else to assist you or the 
Subcommittee. We look forward to continuing to work with you on these 
important issues in the district and around the nation.

                                              John Patelli,
  Head of Regulatory and Federal Affairs/Associate General Counsel.

                                 <F-dash>
Letter of February 19, 2020, from Hon. Jim Cooper, a Representative in 
Congress from the State of Tennessee, Submitted for the Record by Hon. 
                            Daniel Lipinski
                                                 February 19, 2020.
    Chairman Lipinski and Ranking Member Crawford,
    I appreciate the opportunity to submit documents for the record on 
behalf of my constituents who are elected leaders in Nashville. Their 
statements demonstrate the impact of blocked grade crossings on our 
community.
    Middle Tennesseans are far too familiar with the inconvenience and 
safety concerns that blocked rail crossings pose to Nashville--from 
blocked roads during rush hour to emergency response vehicles being 
routinely rerouted. It's frustrating and dangerous.
    CSX's former CEO famously believed that their freight always came 
before Nashville commuters or commuters anywhere. I strongly disagree. 
That kind of thinking gives freight rail a bad name. Respecting rush 
hour, and the needs of commuters, should be the normal course of 
behavior for railroads.
    There must be ways to force railroads to work with U.S. taxpayers 
to help everyone get their work done on time. Freight railroad 
companies should be able to turn a profit and move Middle Tennessee's 
goods without an entire community grinding to a halt.
    If the Federal Railroad Administration won't take action to 
regulate blocked crossings, Congress needs to step in and allow cities 
and states to govern the issue themselves. Who knows the area better 
than our locally-elected officials?
    I am thankful to you for holding this hearing and calling attention 
to a problem that has persisted far too long. In the meantime, I am 
going to keep trying to find a way to stop this abuse and I look 
forward to continue working with the Subcommittee.
        Sincerely,
                                   Jim Cooper,
                                           Member of Congress.

                                 <F-dash>
Letter of February 14, 2020, from Hon. John Cooper, Mayor, Metropolitan 
 Government of Nashville and Davidson County, Tennessee, Submitted for 
                   the Record by Hon. Daniel Lipinski
                                                 February 14, 2020.
Hon. Daniel Lipinski,
Chairman,
Subcommittee on Railroads, Pipelines, and Hazardous Materials, 
        Committee on Transportation and Infrastructure, Washington, DC.
Hon.  Rick Crawford,
Ranking Member,
Subcommittee on Railroads, Pipelines, and Hazardous Materials, 
        Committee on Transportation and Infrastructure, Washington, DC.
    Dear Chairman Lipinski and Ranking Member Crawford,
    Every four hours in America, either a person or a vehicle is hit by 
a train--and many of these crashes occur at-grade crossings. As Mayor 
of a city with 142 public at-grade crossings, many of which are in dire 
need of improvement, I'm writing to urge you both to strongly consider 
increasing infrastructure investments to help improve the condition of 
railroad crossings throughout Nashville and the State of Tennessee.
    Nashville's SMSA population has exponentially grown to over 1.9 
million residents in recent years. Last year alone, we broke visitor 
records with 16,000,000 tourists from throughout the United States and 
around the world. Accordingly, our community's infrastructure requires 
a considerable amount of maintenance to protect in order to protect the 
safety of all our residents and visitors alike.
    I strongly encourage you and the other esteemed members of the 
House Committee on Transportation and Infrastructure to consider the 
safety and well-being of Nashvillians, as well as the economic 
contributions and burdens of municipalities like ours, when carefully 
deliberating the benefits of increased at-grade railroad crossing 
investments.
        Sincerely,
                                   John Cooper,
                                           Mayor, Metropolitan 
                                               Government of Nashville 
                                               and Davidson County.

                                 <F-dash>
 Letter of February 10, 2020, from Jeff Syracuse, Metropolitan Council 
Member, District 15, Nashville, Tennessee, Submitted for the Record by 
                          Hon. Daniel Lipinski
                                                 February 10, 2020.
Hon. Daniel Lipinski,
Chairman.
Hon. Rick Crawford,
Ranking Member.
    Dear Sirs,
    Thank you for the opportunity to give input to the Subcommittee on 
Railroads, Pipelines, and Hazardous Materials. In addition to being a 
member of Metro Council, I also represent Metro Nashville-Davidson 
County as a board member of the Nashville & Eastern Rail Authority and 
have enjoyed my service there. As Nashville and Middle Tennessee's 
growth continues to skyrocket, the number of commuters on our roads 
has, of course, increased as well and ``rush hour'' has become a multi-
hour challenging commute. Traffic jams can occur much more quickly due 
to the high volume of automobiles and those negative effects are 
compounded when long freight trains cross major arteries during those 
times.
    My constituents have reported to me on many occasions about their 
experiences when a train is crossing the highway during morning and 
afternoon rush hour. Three such examples of areas receiving numerous 
reports are:
    <bullet>  The crossing over U.S. Highway 70 / State Route 24 at 
Lebanon Pike where it becomes Hermitage Avenue.
    <bullet>  The crossing near Elm Hill Pike at Arlington Avenue. Elm 
Hill Pike is parallel to Lebanon Pike as well as Interstate 40 and all 
are used to commute into and out of downtown Nashville. Although Elm 
Hill Pike is not a U.S. Highway or State Route, it is a four-lane road 
with the same auto capacity as the Lebanon Pike crossing.
    <bullet>  The crossings over 2nd Avenue, 4th Avenue, and Chestnut 
Avenue.

    This not only affects automobile commuters, it has also affected 
WeGo, our public transit system. The CSX crossing on Nolensville Pike 
is one such location where a WeGo bus is stuck fairly regularly.
    Thank you again and I stand ready to assist with this issue however 
I can be of service.
        Best Regards,
                                   Jeff Syracuse,
                                           Metro Council Member, 
                                               District 15.

                                 <F-dash>
Statement of Paul P. Skoutelas, President and Chief Executive Officer, 
American Public Transportation Association, Submitted for the Record by 
                          Hon. Daniel Lipinski
                              Introduction
    Chairman Lipinski, Ranking Member Crawford, and Members of the 
Subcommittee on Railroads, Pipelines, and Hazardous Materials, on 
behalf of the American Public Transportation Association (APTA) and its 
1,500 public- and private-sector member organizations, thank you for 
the opportunity to submit testimony for the record on ``Tracking Toward 
Zero: Improving Grade Crossing Safety and Addressing Community 
Concerns.''
    My name is Paul Skoutelas, and I am the President and Chief 
Executive Officer (CEO) of APTA, an international association 
representing a $71 billion industry that employs 430,000 people and 
supports millions of private-sector jobs. We are the only association 
in North America that represents all modes of public transportation--
bus, paratransit, light rail, commuter rail, subways, waterborne 
services, and high-performance intercity passenger rail.\1\
---------------------------------------------------------------------------
    \1\ APTA members include public transportation systems; planning, 
design, construction, and finance firms; product and service providers; 
academic institutions; state transit associations; and state 
departments of transportation.
---------------------------------------------------------------------------
    Public transportation not only spurs economic growth, but reduces 
congestion, improves air quality, saves time and money, and advances an 
equitable and better quality of life for our communities.
                             Commuter Rail
    Nearly 40 years ago, Congress enacted the Northeast Rail Services 
Act of 1981 (P.L. 97-35) to salvage commuter rail operations from 
Conrail and created six commuter rail authorities.\2\ The state of 
commuter rail at that time suffered from low and declining ridership 
and equipment long beyond its useful life. These agencies and the many 
others across the nation that existed then or have started anew have 
transformed commuter rail into an essential, reliable, growing, safe, 
and affordable mobility option carrying hundreds of millions of 
travelers each year.
---------------------------------------------------------------------------
    \2\ The six commuter rail authorities are the: Metropolitan 
Transportation Authority; Connecticut Department of Transportation; 
Maryland Department of Transportation; Southeastern Pennsylvania 
Transportation Authority (SEPTA); New Jersey Transit Corporation; and 
Massachusetts Bay Transportation Authority.
---------------------------------------------------------------------------
    Today, commuter rail is a $9.9 billion industry, creating and 
supporting more than 200,000 public- and private-sector jobs. Moreover, 
the overwhelming majority (63 percent) of this funding flows to the 
private sector.
32 Commuter Rail Agencies
    Today, there are 32 agencies operating commuter railroads.\3\ 
Commuter rail services are higher-speed, higher capacity trains with 
less frequent stops. They are traditionally used to connect people from 
suburban areas to city centers. In the last decade, nine new commuter 
rail systems \4\ have begun operation, with the latest--TexRail in Fort 
Worth, Texas--starting up last year.
---------------------------------------------------------------------------
    \3\ A list of commuter railroad agencies can be found in Appendix 
A. APTA's list includes all commuter and hybrid rail agencies that 
receive funding from the Federal Transit Administration (FTA) and 
report data to the National Transit Database.
    \4\ The nine new systems are Portland, OR (Westside Express, 2009); 
Minneapolis, MN (Northstar, 2009); Austin, TX (Capital MetroRail, 
2010); Denton, TX (A Train, 2011); Orlando, FL (SunRail, 2014); Denver, 
CO (A Line, 2016); Marin County, CA (SMART, 2017); Antioch, CA (eBART, 
2018); and Fort Worth, TX (TEXRail, 2019).
---------------------------------------------------------------------------
              Commuter Rail Agencies in the United States
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         Safety is a Core Value
    For commuter rail operators and the entire public transportation 
industry, safety is a core value--a non-negotiable operating principle 
and promise to our riders. The men and women responsible for managing 
and operating public transportation systems are fully committed to the 
safety of their systems, passengers, employees, and the general public.
    As a result of this overriding and sustained commitment to safety, 
public transportation is the safest form of surface transportation. 
Every year, 32 commuter railroads across America safely carry 
passengers on more than 500 million trips. And, traveling by commuter 
and intercity passenger rail is 18 times safer than traveling by car.
Highway-Rail Grade-Crossing Safety and Trespassing Issues
    Highway-rail grade-crossing safety and trespassing remain 
significant issues for commuter rail. Over the last five years (2014-
2018), 96 percent of commuter railroad fatalities were attributable to 
highway-rail grade-crossing or trespassing. Commuter rail systems 
operate on approximately 3,447 publicly accessible grade crossings.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Grade-Crossing Safety
    Our commuter railroads have been working hard to mitigate these 
grade-crossing incidents, often involving unlawful entry to the 
railroad's right of way. These incidents cost lives, cause serious 
injuries and property losses, and result in delays to the traveling 
public. To address highway-rail grade-crossing hazards, commuter rail 
agencies are using myriad treatments and technologies, including 
creating pedestrian crossings, constructing corridor fencing, 
installing delineators, and placing cameras at crossings and in 
railcars. Engineered solutions are very expensive to construct. 
According to a recent Government Accountability Office (GAO) report,\5\ 
2016 Department of Transportation data show that separating a grade 
crossing from traffic can cost between $5 million and $40 million, 
while installing four quadrant gates to grade crossings with flashing 
lights can cost between $250,000 to $500,000.
---------------------------------------------------------------------------
    \5\ See GAO, Grade Crossing Safety; DOT Should Evaluate Whether 
Program Provides States Flexibility to Address Ongoing Challenges (GAO-
19-80) (November 2018), at 24.
---------------------------------------------------------------------------
    Private-sector mapping technology is also critical to combating 
this significant safety issue. For example, the Metropolitan 
Transportation Authority's Long Island Rail Road (LIRR) and Metro-North 
have partnered with Waze to integrate a railroad crossing warning into 
its GPS application. The application warns drivers that they are 
approaching a grade crossing and not to turn onto the tracks. LIRR and 
Metro-North automated a feed to ensure the hazard alerts are always 
maintained in the Waze application. In conjunction with the Waze 
implementation, LIRR installed delineators and road markings at its 
more than 290,000 grade crossings. As a result, LIRR experienced an 
immediate and remarkable reduction in events significantly enhancing 
its safety and operations. SEPTA also partners with Waze and provides 
the company with a table of its grade-crossing locations. Using this 
table, Waze updates the information daily for six months. After the 
six-month period is up, SEPTA re-sends Waze the grade-crossing file.
    APTA is encouraged by these individual partnerships with technology 
companies and welcomes other map navigation developers to work with our 
industry to add automatic notifications of railroad grade crossings to 
their maps. There are too many senseless incidents and deaths because 
cars do not stop at grade crossings or bypass the gates. Navigation 
developers have created powerful tools for helping us find our way and 
drive more safely. With their support, we can provide an important tool 
to warn drivers and prevent needless accidents and deaths.
    Education is key and many commuter rail agencies have participated 
in specific campaigns to reduce highway-rail grade-crossing incidents. 
It will take a collective effort to reduce these grade-crossing 
incidents. Although we are grateful for Congress' continued funding of 
grade-crossing measures under the railway-highway crossings set-aside 
(23 U.S.C. 130), more needs to be done.
    APTA urges Congress to authorize a total of $1.5 billion over six 
years ($225 million per year) under the CRISI program to provide grants 
to commuter rail and operators in high-ridership corridors for highway-
rail grade-crossing safety initiatives.
Trespassing on Railroad Properties
    Commuter railroads are also addressing the long-standing, critical 
issue of trespassing on railroad tracks. APTA's most recent analysis of 
commuter rail data over the last five years indicate that trespassing 
remains a major contributing factor to railroad fatalities--nearly 70 
percent of rail-related fatalities were as a result of trespassing. 
Causal factors for trespassing-related fatalities include suicide, 
direct-route crossing, and general distraction.\6\ Trespassing issues 
are complex. Our commuter railroads have partnered with their local 
communities, mental health care providers, law enforcement, and 
national organizations to launch educational campaigns about the 
dangers of trespassing and to develop ways to mitigate these incidents.
---------------------------------------------------------------------------
    \6\ Federal Railroad Administration, Report to Congress: National 
Strategy to Prevent Trespassing on Railroad Property (October 2018), at 
11.
---------------------------------------------------------------------------
    For example, in 2016, Metro-North launched a rail education and 
community outreach program designed to reduce grade-crossing incidents. 
Its safety outreach program, Together Railroads And Communities Keeping 
Safe (TRACKS), was developed in response to a 2015 grade-crossing 
incident in which six people were killed. One focus of the TRACKS 
program is to educate the younger members of the Metro-North community 
with presentations specifically targeted to children using a character 
called Metro-Man. Since its launch, TRACKS has reached nearly 345,000 
people in the Metro-North service area and Metro-North reports a 
decrease in trespasser strikes of 14 percent in 2019.\7\
---------------------------------------------------------------------------
    \7\ LIRR launched its TRACKS program in 1988 as a result of the 
deaths of nine teenagers whose van was hit by a train after driving 
around activated crossing gates. In partnership with the MTA Police 
Department, the program reaches over 100,000 participants annually. 
Training is provided to audiences from preschool through adults in 
schools, community settings, and businesses.
---------------------------------------------------------------------------
    APTA and its commuter rail members will continue to be leading 
advocates to improve railroad and public safety. We urge Congress to do 
its part by providing the funding that is needed to assist commuter 
rail in making these important safety investments. In addition, we urge 
Congress to ensure that the rail statutes and regulations, which are 
often very prescriptive, do not prevent railroads from introducing new 
technologies to make our railroads safer.
          Surface Transportation Authorization Recommendations
    On October 12, 2019, APTA's Board of Directors unanimously approved 
APTA Recommendations on Surface Transportation Law, reflecting the 
consensus views and priorities of APTA's diverse membership, including 
commuter rail.
    APTA strongly urges the Committee to invest $145 billion over six 
years in public transportation and fund critical projects that will 
repair, maintain, and improve our public transit systems (including 
commuter rail) today and in the future. Our proposal, which includes 
$112 billion for Urbanized Area Formula, State of Good Repair, and CIG 
grants, would address the entire state-of-good-repair backlog and fund 
all CIG projects in the pipeline in the next six years.
    Together with this increased funding, APTA recommends that the 
Committee conduct a zero-based review of the CIG program to assess all 
statutory, regulatory, and other administrative requirements. We have 
previously testified that the bureaucratic maze that project sponsors, 
including commuter railroads, must adhere to is costly and burdensome.
    Finally, APTA calls on the Committee to create a Passenger Rail 
Trust Fund funded in part with new, long-term, dedicated revenues to 
significantly increase passenger rail investment to $32 billion over 
six years. This investment would include $7.1 billion for CRISI grants.
    More investment is needed to ensure that commuter rail agencies can 
pay for important safety initiatives, including mitigating grade-
crossing incidents and funding the operation and maintenance costs of 
positive train control (PTC). APTA urges the Committee to expand the 
eligibility of the CRISI grant program to commuter rail to provide 
specific funding for:
    <bullet>  Passenger Rail-Highway Grade Crossing Grants ($250 
million per year; $1.5 billion over six years); and
    <bullet>  Operations and maintenance of PTC ($160 million per year; 
$1 billion over six years).

    We urge Congress to provide the necessary, dedicated funding to 
ensure safe, reliable, and efficient commuter rail systems.
                               Conclusion
    On behalf of APTA, thank you for giving us the opportunity to 
submit testimony for the record on ``Tracking Toward Zero: Improving 
Grade Crossing Safety and Addressing Community Concerns''. We look 
forward to working with the Committee on Transportation and 
Infrastructure as it writes the next Surface Transportation 
Authorization Act. It is imperative that we make meaningful investments 
in commuter rail to enable these critical services to continue to 
remain safe, grow, serve our communities, and contribute to the 
national economy.
                               Appendix A

                                            32 Commuter Rail Agencies
----------------------------------------------------------------------------------------------------------------
                                                                                                      Ridership
                                                                                                         2018
     State        Primary City   Urbanized Area                    Agency                     Year    (Unlinked
                      Name                                                                   Opened   Passenger
                                                                                                        Trips)
----------------------------------------------------------------------------------------------------------------
        Alaska       Anchorage       Anchorage         Alaska Railroad Corporation (ARRC)     1923       199,666
    California                Los Angeles     Los AngeleSouthern California Regional Rail     1991    12,523,337
                                                            Authority (SCRRA) (Metrolink)
    California       San Diego       San Diego    North San Diego County Transit District     1995     3,838,002
                                                              (NCTD) (Coaster & Sprinter)
    California   San Francisco   San Francisco      Peninsula Corridor Joint Powers Board     1992    18,562,763
                                                                       (PCJPB) (CalTrain)
    California   San Francisco   San Francisco       San Francisco Bay Area Rapid Transit     2018     1,316,134
                                                                  District (Bart) (eBART)
    California      San Rafael   San Francisco    Sonoma Marin Area Rail Transit District     2017       714,653
                                                                                  (SMART)
    California        Stockton        San Jose       Altamont Commuter Express (ACE) (ACE     1998     1,479,150
                                                                                    Rail)
      Colorado          Denver          Denver   Regional Transportation District (Denver     2016     7,619,589
                                                                                     RTD)
   Connecticut       New Haven       New Haven   Connecticut Department of Transportation     1990       597,616
                                                                                   Shore Line East (SLE)
       Florida           Miami           Miami      South Florida Regional Transportation     1989     4,414,030
                                                                     Authority (Tri-Rail)
       Florida         Orlando         Orlando                                    SunRail     2014     1,114,859
      Illinois         Chicago         Chicago       Northeast Illinois Regional Commuter     1856    68,446,239
                                                                    Railroad Corp (Metra)
       Indiana         Chicago         Chicago   Northern Indiana Commuter Transportation     1908     3,400,197
                                                           District (NICTD) (South Shore Line)
         Maine        Portland        Portland        Northern New England Passenger Rail     2001       534,058
                                                                       Authority (NNEPRA)
      Maryland       Baltimore       Baltimore     Maryland Area Regional Commuter (MARC)     1830     9,387,801
 Massachusetts          Boston          Boston           Massachusetts Bay Transportation     1931    32,143,251
                                                                         Authority (MBTA)
     Minnesota     Minneapolis     Minneapolis      Metro Transit Northstar Commuter Rail     2009       787,327
                                                                              (Northstar)
    New Jersey        New York        New York         New Jersey Transit Corporation (NJ     1839    91,170,160
                                                                  TRANSIT) (Rail & River Line)
    New Mexico     Albuquerque     Albuquerque                   New Mexico (Rail Runner)     2006       771,602
      New York        New York        New York      Metro-North Commuter Railroad Company     1832    91,873,366
                                                                            (Metro-North)
      New York        New York        New York                                       MTA Long 1844nd 105,538,101LIRR)
        Oregon        Portland        Portland     Tri-County Metropolitan Transportation     2009       394,708
                                                    District of Oregon (TriMet) (Westside
                                                                                 Express)
  Pennsylvania      Harrisburg    Philadelphia   Pennsylvania Department of Transportation    1980     1,533,055
                                                                                Keystone Line (Keystone)
  Pennsylvania    Philadelphia    Philadelphia   Southeastern Pennsylvania Transportation     1834    33,318,746
                                                                        Authority (SEPTA)
     Tennessee       Nashville       Nashville   Regional Transportation Authority (Music     2006       298,765
                                                                               City Star)
         Texas          Austin          Austin        Capital Metropolitan Transportation     2010       807,869
                                                                   Authority (Metro Rail)
         Texas          Dallas          Dallas              Trinity Railway Express (TRE)     1990     2,039,990
         Texas          Denton          Denton   Denton County Transportation Authority (A    2011       409,667
                                                                                   Train)
         Texas      Fort Worth          Dallas                                    TEXRail     2019           N/A
          Utah           Salt Lake City  Salt Lake CUtah Transit Authority (Front Runner)     2008     5,082,168
      Virginia      Washington      Washington             Virginia Railway Express (VRE)     1992     4,529,091
    Washington         Seattle         Seattle       Central Puget Sound Regional Transit     2000     4,631,525
                                                                      Authority (Sounder)
----------------------------------------------------------------------------------------------------------------
APTA's list includes all commuter and hybrid rail agencies that receive funding from the Federal Transit
  Administration and report data to the National Transit Database.
NNEPRA and Keystone are operated by Amtrak and are counted in the FTA National Transit Database.
TexRail opened in 2019 and therefore does not have any 2018 ridership.


                                 <F-dash>
  Letter of February 20, 2020, from Mike O'Malley, President, Railway 
   Supply Institute, Submitted for the Record by Hon. Daniel Lipinski
                                                 February 20, 2020.
Hon. Daniel Lipinski,
Chairman,
House Subcommittee on Railroads, Pipelines, and Hazardous Materials, 
        Washington, DC.
Hon. Rick Crawford,
Ranking Member,
House Subcommittee on Railroads, Pipelines, and Hazardous Materials, 
        Washington, DC.
    Dear Chairman Lipinski and Ranking Member Crawford,
    On behalf of the members of the Railway Supply Institute (RSI), 
thank you for this opportunity to submit this statement for the record 
in response to the February 5, 2020 hearing ``Tracking Toward Zero: 
Improving Grade Crossing Safety and Addressing Community Concerns.'' 
RSI is a trade association representing more than 200 companies 
involved in the manufacture of products and services in the freight 
car, tank car, locomotive, maintenance-of-way, communications and 
signaling, and passenger rail industries. America's railway suppliers 
represent a $74 billion/year industry supporting more than 125,000 
American workers.
    Rail suppliers serve as a critical component to the railroad 
industry, and our economic impact on the communities in which we 
manufacture our products is vitally important. From rail cars and 
tracks to signals and switches, the railway supply industry has been a 
vital and dynamic part of the U.S. economy for over 200 years. Railway 
suppliers play an essential role in supporting the rail system here in 
the U.S. and have done so since the origin of U.S. railroads in the 
early 1800's. In 2017, the North American railroad system comprised 
more than 1.6 million railcars powered by more than 38,000 locomotives 
over more than 140,000 miles of rail. Nearly every piece of this 
intricate puzzle was shaped and put into place by railroad suppliers 
for their railroad customers. Today, the rail industry is leading the 
transportation world in technological advancements and has embraced 
digitization and the Internet of Things (IoT). Such technology has 
generated significant improvements in operational safety and network 
efficiency and much of it was developed and driven by the railway 
supply community.
    Increased investment in our rail and public transportation systems 
will vastly improve the safety, efficiency and productivity of moving 
goods and people across the United States. Greater public investments, 
coupled with policies that incentivize private investments, could 
relieve major bottlenecks and chokepoints and increase track, tunnel, 
bridge and station capacity across the passenger and freight rail 
system. Such enhanced investments will also encourage greater use of 
rail in moving both people and goods, thus reducing harmful emissions 
and growing congestion on our nation's roadways. These investments also 
will help directly support and sustain the more than 125,000 jobs tied 
to the rail supply industry, including high-value manufacturing jobs 
spread across all parts of the country.
    RSI encourages Congress to support rail safety by continuing to 
provide funds for the elimination of hazards at railway-highway 
crossings. The Section 130 Railway Highway Crossing Program has helped 
railroads, suppliers, and our state partners deliver a significant 
decrease in fatalities at railway-highway grade crossings. From 1987 
through 2018, fatalities at these crossings have decreased by 58 
percent. RSI strongly supports the Section 130 program and makes the 
following recommendations to further strengthen it:
    A.  Increase federal match for Section 130 program to 100% federal 
share, like many other highway safety programs.
    B.  Incentive Payments: States and railroads currently may make 
incentive payments of up to $7,500 for the permanent closure of 
railway-highway grade crossings. Although there are funds set aside to 
help incentivize communities to close grade crossings, the $7,500 limit 
is often not enough to convince officials to support closing as these 
projects are substantially more expensive. Congress should increase the 
limit on incentive payments from $7,500 to $100,000 for the closing of 
a railway-highway grade crossing.
    C.  Modernize Eligible Activity: There is confusion among the 
states as to whether Section 130 funds can be used for the replacement 
of functionally obsolete warning devices. It is imperative to make 
clear that these funds can be used for their replacement because these 
devices are critical to the safe and efficient operation of railway-
highway grade crossings.
    D.  In Section 130(f)(3) of S. 2302, the Senate Environment & 
Public Works Committee approved bill, the measure directs GAO to 
perform a study of the effectiveness of the Section 130 program. RSI 
recommends adding an additional requirement that the railroad and rail 
supply industry be consulted as party of this study.

    RSI also supports continued funding for Operation Lifesaver (OLI), 
a nonprofit public safety education and awareness organization 
dedicated to reducing collisions, fatalities and injuries at railway 
highway crossings and trespassing on or near railroad tracks. OLI plays 
a critical role in rail safety and is funded by a combination of 
federal and private funding. With a nationwide network of volunteers, 
OLI provides free safety presentations and creates education programs 
and public awareness campaigns to reach audiences of all ages. In 2017, 
the organization reached 2.1 million people directly via 21,226 safety 
presentations, 245 training sessions and 1,821 special events conducted 
by state programs nationwide in 2017. In addition, 333 CDL drivers and 
1,912 school bus drivers were exposed to OLI's online eLearning safety 
programs during the year. Section 1418, Consolidation of Programs, of 
FAST Act authorizes not less than $3.5 million from Highway Safety 
Improvement Program for fiscal years 20162020 distributed among four 
activities: Operation Lifesaver, Work Zone and Guardrail Safety 
Training, the National Work Zone Safety Information Clearinghouse, and 
the Public Road Safety Clearinghouse. RSI recommends continuing or 
expanding federal investments in OLI given its demonstrated track 
record in enhancing safety awareness nationwide.
    Finally, as Congress considers the reauthorization of the FAST Act, 
this subcommittee can help ensure public investments achieve better 
reliability and resiliency by recognizing and incentivizing digital 
infrastructure applications as part of eligible public investments to 
provide increased reliability, efficiency, and lengthen the life of 
rail assets. These applications should advance rail and transit 
automation for both commuter and intercity passenger rail, and 
intermodal applications including seaport-rail network connections 
where appropriate. Today's rolling stock manufacturers and rail 
technology suppliers offer Internet of Things (IoT) platforms to 
virtually monitor, analyze and predict rail operations for smarter, 
safer and more reliable systems. By incentivizing the increased 
deployment of the ``Internet of Trains,'' commuter and intercity 
passenger rail operators can bring their operations into the digital 
era. Public benefits include reduced unplanned downtime, improved 
operational efficiency, better business planning, improved performance, 
as well as energy savings. Digitalizing rail operations that receive 
federal funds is the single best way to maximize the use of public 
funds granted to localities and take advantage of technologies that 
have already been widely deployed by America's privately-owned 
railroads.
    In closing, RSI continues to seek dedicated investment in 
infrastructure, balanced economic regulation, and the promotion of 
domestic manufacturing to drive American innovation. We are encouraged 
by the interest shown by Congress to bring America's transportation 
systems into the 21st century. We look forward to working with this 
Subcommittee as we continue to look for ways to innovate, enhance and 
promote investment in rail infrastructure and our national freight and 
passenger rail system.
    Thank you for the opportunity to share our views.
        Sincerely,
                                   Mike O'Malley,
                                           President.

                                 <F-dash>
  Statement of Ian Jefferies, President and Chief Executive Officer, 
  Association of American Railroads, Submitted for the Record by Hon. 
                       Eric A. ``Rick'' Crawford
                              Introduction
    On behalf of the members of the Association of American Railroads 
(AAR), thank you for the opportunity to submit this statement for the 
record. AAR members include the seven U.S. Class I freight railroads; 
scores of U.S. short line and regional freight railroads; Amtrak and 
several major U.S. commuter railroads; and dozens of suppliers and 
others associated with the rail industry.
    Railroads are well aware that blocked grade crossings can lead to 
friction with impacted communities. Railroads try to be good neighbors 
at all times and seek to minimize negative community impacts in all 
aspects of their operations. However, as communities near rail lines 
and rail facilities expand; as motor vehicle traffic increases and new 
roads are built; and as rail traffic patterns change, new challenges 
related to grade crossings continuously arise.
    Railroads don't want a stopped train any more than the broader 
community does--it's in the best interest of railroads to keep trains 
moving safely and efficiently and to minimize conflicts with the 
communities in which they operate. Because of the complexity of rail 
operations and the sometimes-competing demands of other stakeholders 
(for example, rail customers versus residents living near those 
customers), finding effective solutions to the challenges often takes 
significant time and effort, but railroads are committed to working 
cooperatively with local officials and other stakeholders to address 
these challenges as effectively as possible.
                 Why Do Grade Crossing Blockages Occur?
    A highway-rail grade crossing is where a railway and roadway 
intersect at the same level. There are nearly 210,000 public grade 
crossings (that is, where a rail line intersects with a road) in the 
United States. Meanwhile, total motor vehicle miles driven in the 
United States continue to rise, reaching a record 3.24 trillion in 
2018,\1\ thanks in part to the fact that the U.S. population sets a new 
record every day. And demand for moving things by rail won't go away: 
the Federal Highway Administration forecasts that total U.S. freight 
shipments will rise from an estimated 17.8 billion tons in 2017 to 24.1 
billion tons in 2040, a 35 percent increase.
---------------------------------------------------------------------------
    \1\ Federal Highway Administration, Highway Statistics 2018, Table 
VM-1.
---------------------------------------------------------------------------
    In aggregate, these and related factors mean that interactions 
between railroads and the public, and potential conflicts, are a fact 
of life and have to be actively managed.
    There's no simple answer to the question ``what causes blocked 
crossings?'' because there are so many actual and potential causes. 
Some blockages result from what are basically random acts over which 
railroads have little or no control--e.g., weather events or an ``act 
of God'' like a sudden rockslide in an inopportune area; an accident at 
a neighboring grade crossing that halts nearby trains; vandalism of 
rail signals or tracks; the presence of trespassers on rail tracks; 
emergency response activity in an area that requires trains to stop; 
and so on. It is impossible to plan in advance for these kinds of 
eventualities, but when they occur, railroads work very hard to return 
to normal operations and eliminate negative impacts on nearby 
communities.
    Other blockages are the result of actions or factors that are 
associated with rail operating practices in one way or another--e.g., 
temporary blockages as railcars are dropped off or picked up at a rail 
customer facility that's located near a grade crossing, or congestion 
on the tracks ahead or in a nearby rail yard; \2\ a track signal 
malfunction; equipment breakdowns or lack of preparedness at rail 
customer facilities that make timely rail movements impossible; a 
defective freight car or segment of track that necessitates slow speeds 
or an emergency halt in train movements; or mandatory safety tests or 
crew changes required by government regulation.
---------------------------------------------------------------------------
    \2\ In many cases, blockages occur at crossings near customer 
facilities or rail facilities that were originally built in isolated 
areas but, because of community expansion, now find themselves adjacent 
to roadways or developed areas.
---------------------------------------------------------------------------
    In these and similar cases, railroads don't want blockages any more 
than anyone else and already are incentivized to work diligently to 
prevent them from occurring.
     Ways Railroads Are Working to Reduce Grade Crossing Blockages
    The reasons why blockages occur are varied, which is why railroads 
use a variety of ways to try to reduce their prevalence.
    One important way is to gather useful intelligence. Railroads work 
with local officials, their own operating personnel, their customers, 
and others to identify where and why blockages are occurring and to 
develop counterstrategies to avoid foreseeable future problems.
    Today, every public grade crossing has a 24/7 emergency phone 
number and an identification number that callers can use to communicate 
crossing-related issues with the owning railroad. Railroads use this 
caller information, information from their operating teams, and 
information gathered from other sources to help identify workable 
short- and long-term solutions to blocked crossings.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In addition, some railroads are partnering with technology 
companies to develop dynamic signs that let motorists and first 
responders know when a train is occupying a crossing so they can choose 
a different route in advance. ``Estimated Wait Time'' signs are already 
in use in some locations.
    Information gathering and subsequent investigations sometimes 
reveal that site-specific adjustments to operating practices are 
feasible. For example, in cases where blockages are caused by trains 
entering or exiting a customer facility, it is sometimes possible to 
modify the time these activities take place to minimize blockages. Or, 
in cases where trains stop to enable crew changes, it may be possible 
to switch the crew change to locations with less potential conflict 
with the public.
    Changes to rail operating practices are not always feasible, 
though. Rail customers, and the broader economy, depend on a rail 
industry that is as safe, efficient, and cost effective as possible. 
Railroads must be able to always take the big picture into account when 
determining the best way to operate their networks, with the 
understanding that railroads should always act in good faith in their 
interactions with public officials and with the communities in which 
they operate.
    In some cases, railroads address grade crossing blockages through 
new investments. For example, infrastructure investments such as 
lengthening rail sidings or building new sidings to accommodate current 
train lengths are undertaken to help prevent grade crossing blockages.
    Blocked crossings can be eliminated if the crossing is closed or if 
the crossing is grade separated by building either an underpass or an 
overpass. When considered objectively, thousands of existing grade 
crossings serve no significant transportation mobility or access 
purpose. Many of these crossings remain open only because small but 
vocal local opposition transforms what should be an objective 
transportation safety and mobility decision into an emotional political 
confrontation. Make no mistake, railroads are not saying that crossings 
that experience blockages should simply be closed. Rather, when 
evaluating how to minimize problems associated with any aspect of rail 
operations, including blocked crossings, it's best to consider all 
potential solutions. In some cases, closing a particular crossing might 
be the best answer.
    Likewise, even though grade separations can cost millions of 
dollars for a single crossing, there are cases where they could be the 
best answer to the problem of blocked crossings in locations with very 
high train and/or motorist traffic.
    I respectfully suggest that Congress could take steps to help 
mitigate grade crossing blockages and other community impacts as part 
of the FAST Act reauthorization. For example, in addition to at least 
maintaining--or, better yet, increasing--dedicated funding for the 
federal Section 130 program (which provides funds to eliminate hazards 
at highway-rail grade crossings), Section 130 incentive payments for 
grade crossing closures could be increased from the current cap of 
$7,500 to $100,000. In addition, FAST reauthorization could enable or 
incentivize states to bundle grade crossing projects into a single 
grant application under applicable discretionary grant programs, such 
as BUILD, INFRA or CRISI. Railroads also respectfully urge policymakers 
to increase funding for these important discretionary grant 
programs.\3\
---------------------------------------------------------------------------
    \3\ Railroads respectfully suggest that, as part of the FAST Act 
reauthorization, Congress consider other grade crossing-related policy 
changes that would make crossings safer. For example, policymakers 
should expand flexibility in the use of Section 130 funds by 
eliminating the existing arbitrary 50 percent cap on spending for 
hazard elimination projects, and by allowing Section 130 funds to be 
used to replace functionally obsolete warning devices at crossings.
---------------------------------------------------------------------------
    As I noted in testimony to this committee on December 5, 2019, 
recent years have been the safest in rail history, but creating an even 
safer rail network requires a modernized approach to federal 
regulations that allows railroads to innovate with new technologies and 
processes. Unfortunately, the regulatory approach to rail safety today 
is largely prescriptive and does not readily allow for the 
incorporation of new technologies that would improve safety and 
performance. Consequently, innovation is impeded because existing 
designs, technology, and ways of thinking are largely ``locked in'' by 
existing command-and-control regulations. A shift to a performance-
based approach--under which railroads would have discretion to test new 
ways to improve safety, though they would still be subject to Federal 
Railroad Administration (FRA) oversight--would mean rail safety would 
be enhanced more effectively than is possible today.
    There would be other additional benefits, though, of shifting from 
a command-and-control to a performance-based safety regulatory regime. 
One probable additional benefit would be fewer blocked crossings. 
That's because some blocked crossings occur because railroads must 
adhere to various FRA regulations before train movements can take 
place. For example, today, FRA regulations require manual brake 
inspections at intervals determined by mileage. However, technology 
exists that can better measure actual braking performance. One example: 
wheel temperature detectors that use infrared sensors to measure the 
surface temperature of wheels passing the detectors. Using well-
developed algorithms, these temperature measurements determine whether 
brakes on a railcar are working properly. ``Cold'' wheels could 
indicate ineffective or inoperative brakes, while unusually ``hot'' 
wheels could indicate brakes that are sticking. The detectors measure 
performance objectively, quantifiably, and independently of conditions 
that can impair a visual inspection by a human (such as weather, 
lighting, fatigue, inexperience, or error).
    A modification of FRA regulations to allow more widespread use of 
wheel temperature detectors in place of some manual brake tests 
required by mileage would enhance safety, but it would have the 
ancillary benefit of reducing the number of blocked crossings caused by 
the inability to move trains until the manual brake tests are 
performed.
    This is just one example of the many cases where unnecessary and 
outdated regulatory requirements negatively impact rail operations and 
have negative spillover effects on the wider community. The public 
would be better served by a regulatory system that looked forward 
instead of backward and that encouraged innovation and the development 
of new technologies that would make railroads safer and less prone to 
negative community impacts.
                               Conclusion
    To sum up, railroads are always seeking to minimize negative 
impacts from their operations. Negative impacts are not good for the 
communities in which railroads operate, and most of the time they 
aren't good for railroads either. Railroads work closely with their own 
operational teams, community leaders, government partners, first 
responders, and the public to manage and mitigate blocked crossings 
across the nation's rail network.

                                 <F-dash>
  Fact Sheet: ``How Railroads Collaborate With Stakeholders to Reduce 
Grade Crossing Impacts,'' Association of American Railroads, Submitted 
            for the Record by Hon. Eric A. ``Rick'' Crawford
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                
Letter of February 17, 2020, from Chris Arvas, State Coordinator, Idaho 
Operation Lifesaver, Submitted for the Record by Hon. Eric A. ``Rick'' 
                                Crawford
                                                 February 17, 2020.
Hon. Daniel Lipinski,
Chairman,
Subcommittee on Railroads, Pipelines and Hazardous Materials, U.S. 
        House of Representatives, Washington, DC.

Letter:  Regarding Federal Funding for safety around railroad crossings 
and right of ways

    Dear Ranking Member Crawford,
    My name is Chris Arvas and I serve as the State Coordinator of 
Idaho Operation Lifesaver, Inc. I am writing you and The Subcommittee 
on Railroads, Pipelines and Hazardous Materials on behalf of our 
organization regarding Federal funding for Rail Crossing safety.
    I am writing regarding the testimony presented to the House 
Subcommittee on Railroads, Pipelines and Hazardous Materials on 
February 5, 2020 by Ms. Rachel Maleh from Operation Lifesaver Inc. and 
by Jason Morris of the Norfolk Southern Corporation.
    We agree with many of the points made during the testimony of Ms. 
Maleh and Mr. Jason Morris. We rely upon and need the funding and 
support of our many railroad crossing safety partners including the 
FRA, FHWA and FTA. To lose any of this funding and support would be a 
severe blow to our program and Rail Crossing Safety efforts. Currently, 
Operation Lifesaver Inc. has determined that unless the state programs 
sign a partnership agreement with them, we are not eligible for any 
federal funds.
    Idaho Operation Lifesaver along with a few other states have 
declined to sign a partnership agreement which would essentially 
subordinate our program to the wishes of Operation Lifesaver Inc. and 
would eliminate our ownership of the name Idaho Operation Lifesaver 
Inc. We ask that a funding formula of the allocated funds be designated 
for state Operation Lifesaver programs not affiliated with Operation 
Lifesaver Inc.
    From the very beginning of the founding of Operation Lifesaver in 
Idaho, the first in the nation, we have maintained a strong and 
effective Rail Crossing Safety Program. Idaho was the first state to 
have an Operation Lifesaver program which began in our state in 1972 
and then spread in the following years to other states until now every 
state in the Union has a program. The name Idaho Operation Lifesaver 
was established by Idaho Law Enforcement at the Peace Officers 
Association meeting in Coeur d'Alene Idaho at the inception of the 
program.
    Idaho Operation Lifesaver is a 501 C3 nonprofit and our safety 
partners include:

     The Idaho Chief of Police Association
     The Idaho Sheriff's Association
     Idaho State Police
     Idaho Department of Transportation
     Idaho Department of Education
     Idaho Public Utilities Commission
     Idaho Railroads
     Idaho Community Volunteers

    The work of the Idaho program is done by folks from the above 
groups. These folks speak to over 100,000 people annually at 
presentation, community events and state fairs regarding the potential 
dangers that exist around railroad right of ways and railroad 
crossings. We give presentations to groups ranging from preschool to 
senior citizens with a special emphasis on student driver education 
classes and professional drivers.
    Operation Lifesaver Incorporated the National organization was 
established in 1986 as a support and referral center for the various 
state programs and has since morphed into an autocratic organization 
that was not foreseen or anticipated at the time of its creation.
    We feel that all states that have an established, effective and 
active Operation Lifesaver program should share in federal funding, not 
just those who are affiliated with Operation Lifesaver Incorporated.
    We believe that the non-affiliated states should be able to apply 
to the FRA, FHWA and FTA directly for their fair piece of the funding 
pie.
    We hope you will give our request due consideration. We appreciate 
this opportunity to present our concerns and recommendations to the 
subcommittee.
        Sincerely,
                                   Chris Arvas,
                                           State Coordinator, Idaho 
                                               Operation Lifesaver.

                                
  Letter of February 14, 2020, from Vern Keeslar, Executive Director, 
 Utah Operation Lifesaver, Inc., Submitted for the Record by Hon. Eric 
                          A. ``Rick'' Crawford
                                                 February 14, 2020.
    Dear Chairman Lipinski, Ranking Member Crawford, and Members of the 
Subcommittee,
    Thank you for allowing public input on the testimony given at the 
Hearing on Tracking Toward Zero: Improving Grade Crossing Safety and 
Addressing Community Concerns from February 5, 2020.
    My name is Vern Keeslar and I have been the Executive Director of 
Utah Operation Lifesaver, Inc. for the past 16 years. Utah Operation 
Lifesaver, a nonprofit 501 (c) (3), has been a constant and consistent 
voice for highway-rail grade crossing safety and trespass prevention 
education in Utah since 1976.
    Utah Operation Lifesaver continues to perform public outreach and 
education by providing presentations and educational material to the 
following targeted audiences; elementary, junior high, and high school 
students, driver education students, school bus drivers, professional 
truck and bus drivers, first responders, and other community and civic 
organizations. In fact, Utah is the only State in the country that 
requires one hour of railroad crossing safety instruction be given in 
public driver education classes!
    I want to bring to your attention to a few items listed below 
regarding Federal funding.
    1.  Operation Lifesaver was first started as a grassroots safety 
program in the State of Idaho in 1972.
    2.  Operation Lifesaver, Inc. (OLI) was formed in 1986, originally 
as a support and referral center for the established State Operation 
Lifesaver programs.
    3.  OLI receives Federal funding from the Federal Railroad 
Administration (FRA), Federal Highway Administration (FHWA), and the 
Federal Transit Administration (FTA) all while being housed in the 
offices of the Association of American Railroads (AAR)--a lobbying 
organization for the freight railroads.
    4.  OLI has terminated their partnership with Utah Operation 
Lifesaver because we would not sign a subscription agreement with them 
because we want to maintain our independent voice for rail safety 
education in Utah. We are a rail safety education organization, not a 
railroad organization!
    5.  OLI has also informed Utah Operation Lifesaver in writing that 
they are not eligible for these Federal grants from the FRA, FHWA, and 
FTA even though it is Utah Operation Lifesaver that implements and 
coordinates all rail safety outreach in Utah.
    6.  If governmental Federal funding is being distributed by the 
FRA, FHWA, and FTA to a nongovernmental organization, in this case OLI, 
shouldn't all State rail safety programs be eligible for this funding? 
According to OLI they are not. I wonder if the Administrators of the 
FRA, FHWA, and FTA know that their funding is not being considered for 
all States.

    I am recommending a full investigation into this matter of OLI 
playing favorites by not allowing Federal funding to be distributed to 
all State rail safety programs.
        Sincerely,
                                   Vern Keeslar,
                                           Executive Director, Utah 
                                               Operation Lifesaver, 
                                               Inc.

                                 <F-dash>
Statement of Patrick Goddard, President, Virgin Trains USA Florida, LLC 
(aka Brightline Trains), Submitted for the Record by Hon. Frederica S. 
                                 Wilson
                              Introduction
    Chairman Lipinski, Ranking Member Crawford and members of the 
subcommittee, my name is Patrick Goddard and I am the President of 
Virgin Trains USA Florida, aka Brightline Trains. While I was not able 
to participate in this hearing on grade crossing safety, I am pleased 
to submit this statement for the record outlining our passenger rail 
company's initiatives to address crossing safety along our South 
Florida rail corridor.
    Virgin Trains USA Florida (VTUSA), is a wholly owned subsidiary of 
Florida East Coast Industries, LLC (FECI) a transportation, 
infrastructure, and real-estate development company based at our 
signature Virgin MiamiCentral station in downtown Miami.
    Our passenger train subsidiary was established in 2012 to pursue 
passenger rail opportunities on a private, for-profit basis. VTUSA is 
the first major private passenger rail start-up effort in last 100 
years and represents the return of intercity passenger rail on the 
historic Florida East Coast Railway corridor.
    FECI traces its roots to the late 1890's and the company founded by 
Henry Flagler who first introduced an integrated rail network into 
Florida. That railroad gave rise to the growth of most of what is now 
the country's third largest state. Originally the system was built as a 
railroad that carried passengers from points north to new development 
projects along the Florida coastline, and also carried the freight to 
support the needs of those people and of those building the communities 
emerging along the new infrastructure backbone. FEC Railway supported 
Flagler's chain of resort hotels stretching from St. Augustine to Key 
West, including the famed Breakers, still owned and operated by today 
by descendants of Flagler. In the late 1960's the passenger service 
ceased operations, but the freight service continued to support the 
growth of the state. After some 120 years of continuous operations, the 
original railroad remains a profitable private enterprise.
    In 2007, Fortress Investment Group (a New York based investment 
management firm) acquired Florida East Coast Industries, which was at 
the time a publicly traded company, and converted the assets into two 
distinct private companies with interests divided between freight and 
passenger railroad operations. In 2017, the freight operator, Florida 
East Coast Railway, was sold by Fortress Investment Group and is no 
longer part of the Fortress/FECI family of companies. However, Virgin 
Trains and Florida East Coast Railway continue to operate along the 
rail corridor under a permanent easement and Joint Use Agreement.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 A Vision for Passenger Rail in America
    Leveraging the legacy of the original company and its historic 
assets, VTUSA is investing $4 billion of private capital toward the 
reintroduction of passenger rail service to major Florida cities. This 
express, intercity passenger train is a newly created, consumer-
oriented brand built to support an optimistic vision for what it means 
to travel by train in America. VTUSA is being introduced in two phases. 
Phase one service between Miami, Fort Lauderdale and West Palm Beach 
began revenue operations in 2018, with phase two service extending from 
West Palm Beach to Orlando International Airport currently under 
construction. Service to Orlando is expected to begin service in 2022. 
Phase three planning and design to Walt Disney World and Tampa is 
underway.
    Virgin Trains USA is also working to bring our transformative rail 
system to other regions. We recently acquired the rights to build a 
high-speed rail between Las Vegas and Southern California. Construction 
is expected to begin late 2020. These new passenger systems are an all-
important first step toward the reintroduction of private passenger 
rail in America, financed through private investment and with a vision 
to connect major markets which are ``too long to drive and too short to 
fly''.
    Only six years since it was conceived, Virgin Trains is now 
carrying customers in a fleet of new and innovative, biofuel powered 
100% made in America trains. In 2019, our first year of full 
operations, we safely carried more than one million passengers.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



     Brightline/Virgin Trains Siemens Charger Locomotives, made in 
                            Sacramento, CA.

                            Safety by design
    With safety our foremost goal, in the design and operation of this 
passenger railroad we have incorporated the most advanced signaling and 
safety technology available, including Positive Train Control.
    Our existing railroad crossings have been significantly upgraded 
with additional safety components and traffic warning systems under the 
stringent supervision of the Federal Railroad Administration (FRA) and 
Florida Department of Transportation (FDOT) in strict compliance with 
the FRA Highway-Rail Grade Crossing Guidelines for High Speed Passenger 
Rail. Conducted by a team of engineers from FRA, FDOT, VTUSA, and each 
county and city public works department, every highway-railroad 
crossing between Miami and Cocoa was subject to on-site inspection and 
evaluation to determine the scope of improvements necessary for the 
safe operation of higher speed passenger rail.
    In the course of this evaluation, the FRA and FDOT determined that 
they would require VTUSA to upgrade crossings to meet national ``Sealed 
Corridor'' standards where speeds exceed 79 mph.
    A major component of our commitment to safety was the restoration 
of the previously removed second track that will allow for joint 
freight and passenger use. The FEC Railway has always been considered 
the gold standard for safety and for the early adoption of new 
technologies, such as the addition of Automatic Train Control (ATC) in 
the 1980's. ATC is a forerunner to PTC, which is currently being 
installed and will be operational by the end of 2020 in phase one. PTC 
will be fully installed in phase two by the time it begins service in 
2022.
    We are one of the early railroads that will utilize a new 
technology, Vehicle Presence Detection (VPD), a warning system that 
will automatically open an exit gate for a vehicle stopped on the track 
while simultaneously warning an approaching train.
    In South Florida, where speeds do not exceed 79 mph, our trains 
began testing in 2017 with revenue service commencing in 2018 under the 
Brightline brand. During our two years of operations we have moved over 
1.7 million people safely. Commensurate with this service, we've taken 
an aggressive approach to safety by launching safety awareness 
campaigns, focused on education . . . engineering . . . and 
enforcement.
    We are experimenting with new technologies and engaging in an 
ongoing education program, distributing materials to the local schools 
and working with influencers and local celebrities to sign our rail 
safety pledge.
                       Trespassing on the Tracks
    Since a year prior to launching operations, Brightline engaged in a 
tri-lingual safety education campaign in the South Florida area. In 
2017, prior to Brightline's launch of service Florida saw a ten year 
high in railroad fatalities totally 64. The past two years, fatalities 
rates actually gone down. Unfortunately, we still see incidents along 
the corridor. To be clear, not a single incident on our railroad has 
been due to a failure of safety systems associated with this rail 
service. Those who have been injured or tragically died have either 
ignored warning signals by circumventing the safety equipment designed 
to protect them or by committing suicide.
    Too many people take unnecessary chances with their lives, ignoring 
warning signals attempting to drive around the gate or to run across 
the tracks. These actions are dangerous and illegal, and they put other 
lives at risk. Our public education efforts focus on asking members of 
the public to treat train crossings like red lights or stop signs and 
to pay attention around the track.
    Train fatalities pale in comparison to automobile incidents. In 
2018, the state of Florida had over 3,100 auto-related fatalities from 
a total of over 400,000 auto incidents. Florida also saw nearly 150 
bicycle related fatalities.
    These fatalities can also be considered in the context of other 
traffic safety risks. In 2018 (the most recent year available), the 
Florida Department of Highway Safety and Motor Vehicles reported 725 
fatalities from motor vehicle crashes in the three counties served by 
Brightline: Miami-Dade, Broward and Palm Beach. 201 pedestrian 
fatalities were reported in these three counties in 2018.
    Dividing the number of motor vehicle crash fatalities in these 
three counties by the number of annual vehicle miles traveled results 
in a motor vehicle fatal crash rate. Factoring the fatalities and 
vehicle miles traveled for these three counties for the three years of 
2016 through 2018 results in a motor vehicle fatal crash rate of 4.99 
fatalities per million vehicle miles traveled. Using 2019 Brightline 
ridership figures (total of 1,012,804) and allocating across the three 
city pairs of service (FLL-MIA, FLL-WPB, and MIA-WPB) produces a 
Passenger Miles Traveled measure (defined by the Federal Transit 
Administration's National Transit Database). This calculation results 
in 47,541,020 passenger miles traveled in 2019. Applying the average 
fatal crash rate to this measure of intercity passenger rail travel can 
approximate the relative risk of fatal crashes not experienced by 
Brightline passengers in these three counties. This calculation 
estimates that 237 fewer crash fatalities by intercity passenger rail 
trips in 2019 in these three counties.\1\
---------------------------------------------------------------------------
    \1\ Rail Safety Analysis, Allan Rutter, Freight and Investment 
Analysis Division Head, Texas A&M Transportation Institute, January 
2020.
---------------------------------------------------------------------------
    Based on all numbers available, train travel is safer than cars.
    However, we are committed to do more to prevent these types of 
incidents. To protect the public, we are engaged in several new 
initiatives, including:
    <bullet>  Utilizing drones to patrol the railroad corridor and 
alert local authorities when trespassers or potential suicide victims 
are spotted on the corridor
    <bullet>  Installing additional fencing or natural barriers in 
certain areas where active trespassing is occurring
    <bullet>  Installing additional crossing warning and safety systems 
such as additional gates or delineators to deter drivers who might 
consider going around gates
    <bullet>  Installing Active Warning Signs . . . digital messaging 
signs and ``Moving Eyes'' which provide pedestrian and vehicular 
warnings. These signs remind pedestrians and drivers to look both ways 
prior to crossing. The dynamic or active message sign is interconnected 
with the railroad signal system and remains dark until it receives an 
alert that a train is approaching. This triggers the active message 
sign to display its warning messages.
    <bullet>  Working with Florida Department of Transportation to add 
``dynamic envelopes'' at crossings, a reflective, bold striping on the 
pavement to prevent vehicles from stopping on or too close to crossings
    <bullet>  Working with FDOT and state and local law enforcement 
agencies, including the Florida Highway Patrol, sheriffs, and police 
chiefs, to help enforce rail safety laws
    <bullet>  Virgin Trains will participate with the Federal Railroad 
Administration in a May 2020 Regional workshop on Right of Way 
Trespassing in West Palm Beach, FL.
                                Suicide
    While many incidents are due to reckless behavior at crossings, a 
higher number have been due to people taking their own lives. The 
majority of our incidents have involved individuals that have been 
impaired by drugs or alcohol or have been as a result of suicide. This 
estimation is based on a compilation of data obtained from Medical 
Examiner conclusions and autopsy toxicology reports, eyewitness 
accounts as observed by on-board train personnel, video records from 
on-board cameras, and narrative incident descriptions as reported to 
the Federal Railroad Administration under 49 CFR Part 225. This in an 
industry-wide concern. Suicide rates have increased more than 30% in 
the last 15 years. Florida's suicide rate is higher than the national 
average. Suicide by rail is a growing problem that should be addressed 
in another forum in the context of mental health issues and opioid 
abuse.
    To address this problem locally, VTUSA recently formed a 
collaboration with a major South Florida mental health and suicide 
prevention organization to raise awareness of local help programs to 
intervene and direct those considering suicide to counseling and mental 
health programs.
    Major components of this program include signage at railroad 
crossings directing people in crisis to the ``211 Helpline'' where 
counselors will engage with them and find them the help they need. The 
program will focus on homeless, low income and at-risk populations near 
South Florida railroad corridors where suicide rates are higher. 
Services include disseminating information about 211 Helpline and 
mental health and counseling services through events and outreach in 
targeted communities. The program will also utilize PSA's, print and 
social media and include outreach to school children.
                               Education
    Be assured, Virgin Trains is not content with simply accepting 
injuries and deaths when people trespass on active railroads or ignore 
warning signals. We have taken extraordinary extra steps to educate the 
public about safe behavior around railroads and to explore additional 
ways to reduces incidents.
    Since Virgin Trains began service in January of 2018, we have added 
a number of initiatives to our ongoing safety campaign, including:
    <bullet>  Placing Variable Message Signs (VMS) at major crossings 
with warning messages about new train activity
    <bullet>  Working with Operation Lifesaver, training 40+ teammates 
as authorized Operation Lifesaver Volunteers
    <bullet>  Broadcasting over 1000 public service announcements on TV 
and Radio
    <bullet>  Deploying Teammates at major highway-railroad crossings 
to meet with pedestrians, hand out flyers in nearby businesses, and 
engage and educate our South Florida communities about the importance 
of staying safe around active railroad tracks
    <bullet>  Conducting more 40 emergency response seminars, training 
more than 350 First Responders in 18 fire and police departments
    <bullet>  Working jointly with the Palm Beach State College Fire 
Academy developing an ongoing training curriculum and holding full 
scale emergency response exercises.
    <bullet>  Mailing 92,000 safety pamphlets to families with school-
age children. School children are given pledge cards where they pledge 
to never walk or bike along tracks, cross tracks when a train is moving 
and to ``b'' safe near railroads
    <bullet>  Training 500 bus drivers about train activity and safe 
driving near tracks
    <bullet>  Employing off-duty police at key crossings to step up 
enforcement of trespassing laws
    <bullet>  Working with local cities, installing additional safety 
features where feasible.

    Our most innovative awareness education initiative received a 2019 
Rail Safety Certificate of Merit from APTA. Known as the Buzz Boxx, 
this unique safety campaign is a mobile Barber Shop that we place at 
homeless organizations and youth centers. In exchange for taking a rail 
safety pledge, we provide a free haircut. We also provide mental health 
counselors at certain venues. Partnering with more than a dozen law 
enforcement and community service agencies, the Buzz Boxx is an 
effective and unique way to engage kids and teach them about safety 
around railroads and raise awareness.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Brightline Buzz Boxx Safety Education Mobile Barbershop

                         What can Congress do?
    In considering new programs to prevent trespassing, we urge 
Congress to provide additional funding for programs that provide for 
more aggressive enforcement of trespassing and disobeying crossing 
signals, including increased penalties.
    Congress should explore ways to limit liability claims against 
private railroads due to damaged or missing fences.
    Maintenance of fencing over hundreds of miles is costly and 
difficult to manage. Numerous studies have shown that widespread 
installation is impractical and often ineffective as those determined 
to trespass will vandalize, damage or otherwise destroy them in order 
to restore the unfettered access they were previously accustomed to. In 
such case railroads are vulnerable to lawsuits for injury to 
trespassers who gain entry through a damaged fence.
    Increase funding for crossing grade separation programs, crossing 
safety infrastructure, fencing and other barrier systems to prevent 
unauthorized access to rail corridors.
    With the growing emergence of private sector passenger rail in the 
U.S., we also urge Congress to make private passenger rail companies 
eligible for crossing safety and trespass prevention grant programs 
which currently allow only public agencies to apply.
                               Conclusion
    VTUSA is operating on a rail corridor that has been in continuous 
use since 1895, private property on which VTUSA and Florida East Coast 
Railway share ownership. Having spent more than $2 billion dollars to 
date, none of which are taxpayer funds, we are committed to completing 
this rail system to Orlando and then Tampa, making real a long-sought 
Florida dream to give our 20 million residents and 115 million visitors 
an alternative to crowded highways.
    As we continue work on the expansion of our system, we invite each 
member of this committee and others interested to visit our operations 
in Florida and to meet with those directly involved with the safety and 
security of our railroad. We have designed a thorough and complete set 
of initiatives focused on education, engineering and enforcement and a 
first-hand look is critical.
    Thank you for the opportunity to submit our comments.



                                Appendix

                              ----------                              


     Questions from Hon. Peter A. DeFazio to Karl Alexy, Associate 
  Administrator for Railroad Safety and Chief Safety Officer, Federal 
                        Railroad Administration

    Question 1. When Administrator Batory testified before the 
Subcommittee in June, he stated that some trains can measure as long as 
16,000 feet.
    a.)  Does the FRA collect data on train lengths? In the case that 
FRA does not collect data on train lengths, has FRA studied potential 
safety problems at various lengths? If so, please share your research 
with the Committee.
    Answer. FRA does not directly regulate train length, and as such, 
FRA does not collect comprehensive data on train length. However, FRA 
does require railroads to report certain information when reporting 
accidents/incidents. For all reportable accidents/incidents, FRA 
requires the involved railroads to report the number of cars in the 
train, but not the train length itself. Although cars are manufactured 
in various lengths, knowing the number of cars can produce an estimate 
of the train's overall length.
    As noted in GAO's May 2019 Report (Report No. GAO-19-443), ``Rail 
Safety: Freight Trains Are Getting Longer, and Additional Information 
Is Needed to Assess Their Impact,'' FRA, through its Office of 
Research, Development, & Technology (RDT), is currently evaluating the 
braking performance of longer trains (i.e., freight trains with 150-to-
250 railcars), with technical feedback and collaboration with the 
industry. FRA's study includes evaluations of the train dynamics of 
operating longer trains. See GAO Report at 22-26. That study is on-
going, with a target of completing the first phase of the study by the 
end of 2020 and the second phase by the end of 2021. The phases of the 
study are described in the GAO report. See GAO Report at 23, Table 1.
    In addition, through FRA's comprehensive safety program, the agency 
continually assesses railroad safety performance through data analysis, 
simulation, inspections, audits, and accident investigations. FRA has, 
in-house, two simulators that evaluate train performance, taking into 
consideration the number and types of cars in the train, train makeup 
(i.e., the location of car types within the train), and brake 
performance, as well as the physical characteristics of the route. 
These simulators are being used to support FRA's study. If FRA has 
reason to believe the length of the train or train makeup was a factor 
in an accident/incident, FRA evaluates that issue during its accident 
investigation, including simulation.

    b.)  Is the FRA confident that braking systems, end-of-train 
devices, and distributed power units can consistently communicate over 
the length of trains, including those that can run up to 16,000 feet 
long?
      i.)  If so, what data has been gathered by the FRA to support 
this?
      ii.)  Up to what distance do braking systems, end-of-train 
devices, distributed power units, and handheld radios generally 
transmit properly? Up to what distance do they generally transmit in 
mountainous terrain?
      iii.)  Can you provide that research to this Committee?
    Answer b.)i.) through b.)iii.). The ability of braking systems, 
end-of-train devices, distributed power units, and handheld radios to 
communicate over the length of trains is affected by several factors. 
For example, surrounding terrain (e.g., mountains and valleys) and 
structures may impact the systems' ability to consistently communicate 
over the length of a train. To better understand how various factors 
affect the ability of these systems to maintain communications and what 
operational and technological solutions exist to ensure communications 
are maintained, FRA, in a notice of proposed rulemaking published on 
January 15, 2020, requested data related to: (1) the frequency and 
duration of communications losses; (2) what operational and 
technological solutions for communication losses the industry has 
considered and implemented; and (3) how and when an emergency signal 
should be sounded or other notification sent to a locomotive engineer 
when a loss of communications has occurred. 85 FR 2494. FRA is using 
all relevant data and information received in response to this request 
for information to inform its future actions on this issue.
    In the meantime, FRA requires railroads to comply with federal rail 
safety regulations that specify the minimum requirements for the safe 
use of braking systems, end-of-train devices, and radio and wireless 
communications. FRA's regulations are designed so that a properly 
performed brake test should provide the necessary safety assurances 
that the brakes will work as intended until the next required brake 
inspection. Moreover, FRA's regulations specify actions that must be 
taken when radio communications and end-of-train devices and such 
systems fail to work properly. See 49 CFR Part 220, Subpart B, and 49 
CFR Part 232, Subpart E.
    Distributed power units are locomotives and are regulated under 
FRA's regulation on locomotive safety standards. See 49 CFR Part 229. 
The number and placement of distributed power units within a train 
consist impacts the quality of brake signal transmissions throughout 
the train consist. A distributed power locomotive, in the middle of a 
train consist, effectively acts as a repeater of the brake signal 
transmission from the controlling locomotive to the rear of the train, 
which enhances the ability to maintain communication between the front 
and rear of the train through a variety of circumstances. (Distributed 
power locomotives have the added advantage of helping to control in-
train lateral forces, depending on where they are located in the train 
consist). For example, operations under an FRA test waiver (Docket No. 
FRA-2016-0086 at www.regulations.gov) have demonstrated that even in 
cold weather conditions, when it takes longer to pressurize air brake 
systems and trains are more prone to air brake leakage, a distributed 
power equipped train can withstand leakage at 50% more air flow than a 
conventional train and still have compliant brake performance. The 
distributed power locomotive reduces the time required to pressurize 
the air brake system throughout the train consist, despite train 
length, allowing the brakes to effectively function despite the brake 
pipe leakage. In the final phases of the FRA RDT study, FRA will study 
distributed power quantity and placement in longer trains.

    Question 2. As discussed during the hearing, please provide the 
responses that the FRA received from the freight railroads relating to 
Administrator Batory's May letter to the Class I's on blocked crossings 
prevention.
    Answer. The letters FRA received from BNSF, CSX, Kansas City 
Southern, Norfolk Southern, and Union Pacific are attached.
                            attached letters
                                      BNSF Railway,
                                       2600 Lou Menk Drive,
                               Fort Worth, TX 76131, June 13, 2019.
Hon. Ronald L. Batory,
Administrator,
Federal Railroad Administration, United States Department of 
        Transportation, 1200 New Jersey Avenue, SE, Washington, DC.

    Dear Administrator Batory:
    I write in response to your May 16, 2019 letters addressed to Carl 
Ice, BNSF Chief Executive Officer, and me regarding the issue of 
blocked highway-rail grade crossings and your request for our 
assistance in this matter. As you outline in your letter, blocked 
crossings are a recognized area of concern within some of the 
communities where we operate and BNSF is always concerned about the 
potential impact to public safety and quality of life in those 
communities. BNSF is pleased to work further with the Federal Railroad 
Administration (FRA) on this matter, as requested in your letter.
    At BNSF, we have been and will continue to be committed to the 
practices discussed in your letter, as well as other efforts to 
mitigate and prevent road and rail traffic conflict where it is within 
our ability to improve outcomes. Given increased vehicular traffic near 
the rail network, the problem is often more complex than railroad 
operating practices. Therefore, BNSF appreciates the comprehensive 
approach that the Department of Transportation (DOT) is taking on this 
matter.
    As context to overall grade crossing safety at BNSF, BNSF has the 
lowest highway-rail grade crossing collision rate in the industry, 
reducing the rate of grade crossing collisions over 70% since the 
creation of BNSF in 1995. Much of BNSF's success is the product of 
grade crossing safety programs and processes which, like much of the 
industry, are centered around engineering, enforcement and education. 
Included in these efforts has been the elimination of over 6,400 
highway-railroad grade crossings on BNSF since 2000. While BNSF's 
efforts have consistently resulted in industry low incident rates, 2019 
is producing historical lows in both grade crossing and trespasser 
incident rates. The well-established corporate grade crossing programs 
and processes, coupled with strong community, public safety officer and 
responder outreach will continue to guide us in this area. Although we 
are proud of this history, BNSF's focus is the path to zero--an 
imperative that supports our safety vision of an incident and injury-
free operation.
    These grade crossing safety practices are an important part of the 
multi-pronged approach that BNSF takes to addressing blocked crossings. 
Our approach consists of an ongoing effort to understanding which 
crossings are vulnerable to blockage as well as when and why. We apply 
significant planning tools and practices to operations, which I will 
discuss further below. In addition, BNSF's current operating rules seek 
to minimize occupation of a crossing under any operating scenario or 
unnecessarily activating automatic warning devices at crossings.
    Blocked crossings, nevertheless, can result from a variety of 
operating activities and conditions. BNSF's ongoing review indicates 
that addressing unplanned train stoppages has significant leverage in 
avoiding blocked crossings. In short, BNSF's technology and operational 
programs designed to improve the reliability of our track and 
mechanical infrastructure directly affects its success with avoiding 
blocked crossings. BNSF has improved rail equipment incident rates by 
nearly 50% since 2000. Important to those efforts is our continued 
effective collaboration with the FRA in areas such as our automated 
track inspection pilot and brake health effectiveness waiver, among 
others. We know that the DOT is aware of BNSF's commitment to further 
the use and reliance upon these technologies--which not only improve 
safety, but provide the opportunity to improve operational and 
maintenance planning and, therefore, network fluidity.
    Dispatcher training is also an important element of BNSF's 
operational approach to avoiding and mitigating blocked crossings on 
the network. Dispatchers are familiarized with public crossing 
locations and trained to minimize blocking these crossings as they 
operationalize siding utilization and meet/pass opportunities, 
opportunities for train stopping points, and clearance points and the 
distance between identified locations, including public crossings. 
Dispatchers plan operations to provide the most efficient train 
movement with the least impact to crossing operations. Likewise, BNSF's 
crew planning process is designed to include information on relevant 
public crossings as an important consideration in locating crew change 
points. Ultimately, there is specific focus on this issue at every 
level--at the department level, at each operating division, and with 
individual employees at the local level.
    Finally, BNSF relies on its employees and the communities we serve 
to provide the company ongoing awareness of when conditions develop on 
the network and a public crossing is blocked. Like other railroads, 
BNSF utilizes a 1-800 emergency contact number which is broadly shared 
with the public and posted at all public grade crossings to contact the 
BNSF 24-hour Resource Operations Center with crossing related concerns. 
When a situation develops real-time, BNSF operations acts with urgency 
and part of that process includes ensuring appropriate contacts are 
made and lines of communication are open. Many times providing a local 
level of engagement and access helps to alleviate a blocked crossing 
situation. Where there is the potential for an ongoing chronic 
condition, we look at whether longer-term ongoing remediation plans can 
be put into place--for example, an operational change identified by 
local BNSF operating leadership, or working with local emergency 
responders to identify road crossing alternatives. BNSF has found that, 
in most cases, the best way to address these concerns is to engage 
local BNSF teams to coordinate with the community.
    BNSF regularly assesses its existing processes, procedures and 
controls related to blocked highway-rail grade crossings. We will 
continue to do that and provide your staff insight into that process. I 
further commit to you that we will work with interested local 
communities and the Department of Transportation where grade separation 
opportunities present themselves. BNSF encourages public policies that 
support these projects where appropriate.
    We appreciate you reaching out to us and partnering with us in this 
important area. I look forward to working with you and your team as we 
continue to provide safe, reliable and efficient transportation 
services.
        Sincerely,
                                              Katie Farmer,
                              Executive Vice President, Operations.
                                   CSX Corporation,
                                       500 Water St., C900,
                             Jacksonville, FL 32202, June 24, 2019.
Mr. Ronald L. Batory,
Administrator,
U.S. Department of Transportation, Federal Railroad Administration, 
        1200 New Jersey Avenue, SE, Washington, DC.

    Dear Mr. Batory:
    I am responding to your recent letter concerning blocked highway-
rail grade crossings across the United States.
    Your letter requested CSX Transportation assess its operations to 
minimize blocked highway-rail grade crossings across its network. CSX 
continuously reviews its operations to determine how best to avoid 
disruptions caused by blocked crossings and has taken many steps to 
alleviate such issues. For example, CSX's operating rules include 
specific instructions that standing trains and switching movements 
should avoid blocking highway-rail grade crossings. Our train crews and 
dispatchers also understand the need to regularly communicate with one 
another about blocked crossings when trains are stopped or delayed and 
take additional steps (including, at times, separating the train) to 
minimize the impact to motor-vehicle traffic at these locations. 
Furthermore, our Network Operations team regularly reviews trains that 
have stopped to determine if additional assistance is required to avoid 
any disruptions to the public and surrounding communities.
    You also ask that CSX consider train lengths and locations when 
stopping trains could potentially occupy a crossing or impede traffic. 
Regardless of train size, our Network Operations team carefully plans 
where our trains meet with one another to avoid such issues, including 
taking into consideration nearby sidings or timing such meets to reduce 
disruptions when other viable alternatives are limited. When necessary, 
we also identify locations in our timetables that additionally instruct 
crews to avoid occupying a specific crossing (or crossings) with a 
standing train or a train engaged in switching.
    Finally, you encourage CSX to engage with state and local 
governments to discuss blocked-crossing issues and work to mitigate 
community-specific impacts. CSX's Operations and Public Affairs teams 
often engage state and local officials across our network to address 
community concerns. Our teams work directly with local officials to 
develop a workable solution to mitigate blocked crossings, solutions 
that have included crossing re-location or removal, operational changes 
and infrastructure investments. In fact, just recently CSX worked with 
local representatives in Fairport, New York where CSX rescheduled its 
operations to commence at midnight in an effort to avoid blocked 
crossings during the day.
    In addition to the above steps, the efficiency gains achieved by 
CSX has further helped reduce blocked highway-rail grade crossings 
across our network. Increased velocity, reductions in terminal dwell 
and a decrease in the number of cars on line all result in less 
crossing disruptions. As a result, CSX is currently on track to receive 
approximately 30% less blocked crossing complaints then it did in 2018. 
Nevertheless, and as suggested in your letter, CSX will continue to 
assess its operations and engage with its Operations team and the 
communities across our network to further mitigate highway-rail grade 
crossing issues.
    Please feel free to contact me should you have any additional 
questions or concerns.
        Sincerely,
                                            James M. Foote,
                             President and Chief Executive Officer.

cc: Mr. Ian Jefferies, President & CEO, AAR
   Mr. Ed Harris, Executive Vice President Operations, CSX
                      Kansas City Southern Railway,
                    Cathedral Square, 427 West 12th Street,
                          Kansas City, MO 64105, September 5, 2019.
Hon. Ron Batory,
Administrator,
Federal Railroad Administration, U.S. Department of Transportation, 
        1200 New Jersey Avenue, SE, Washington, DC.

Re: KCS Efforts to Minimize Blocked Crossings

    Dear Administrator Batory:
    Our Chief Executive Officer Pat Ottensmeyer asked me to respond to 
your recent letter highlighting the Federal Railroad Administration's 
(``FRA's'') attention to the issue of blocked at-grade crossings, and 
requesting that The Kansas City Southern Railway Company (``KCS'') re-
examine its operations to avoid crossing blocking. I am happy to report 
that KCS is making strides to address this issue.
    Like FRA, KCS is acutely aware that blocked grade crossings can be 
a point of friction between the railroad and the communities where we 
operate. KCS tries to be a good neighbor in the communities where we 
operate, and we have worked with many communities on crossing blocking 
issues. Sometimes this has involved bearing costs of improving some 
crossings while paying communities to close others. In one instance we 
have conferred with a community about installing a detection system at 
a crossing that the community felt was especially critical to its 
cross-town emergency vehicle and school bus traffic. The system would 
provide an advance notice to drivers several blocks from the crossing 
that could have allowed them to divert to other routes if the crossing 
was occupied. In another community we modified our operation so that 
trains would be held outside town if the railroad swing bridge on the 
other end of town needed to open to let river tows pass. Nevertheless, 
as the communities around our lines and yards continue to grow, their 
vehicular traffic increases and new streets are built, and as our own 
traffic grows, new challenges arise continually. Sometimes we simply 
have to apologize to our neighbors and tell them that we will try to do 
better.
    I am pleased to tell you that, spurred by your letter to Mr. 
Ottensmeyer, KCS is taking further steps to track and assess blocked 
crossing reports. We have recently instituted a system for cataloging 
and handling blocked crossing calls received by our Critical Incident 
Desk (CID). Each time a call comes in, the Coordinator, whose office is 
in our central dispatching center, will make contact with the 
dispatcher or yard handling operations at the location of concern to 
determine additional facts about the situation, and will provide 
feedback to the caller about the situation and what we know about when 
it will resolve. In some instances, we have heard even while we are on 
the phone with the caller that the blockage is resolving. Call 
information is regularly reviewed by our operating and health & safety 
teams.
    Call information thus far shows several common causes of blocked 
crossings, some of which should be manageable and some that are random 
or beyond our control. In the former category are train meets and 
trains being held out of a yard unexpectedly, sometimes by us and 
sometimes by our interchange partners. In the latter category are 
problems like equipment breakdowns, short-notice bridge openings for 
river traffic to pass, and even a tie fire on the track. Often the 
complaint involves industry switching, an activity that obviously must 
occur and that has to be scheduled when the shipper is able to receive 
the traffic. We have seen repeat problems at a couple of crossings, and 
so will be looking into those more intensively to see what can be done.
    We are working to develop the best systematic way of using blocked 
crossing information to help avoid foreseeable future problems. Whether 
that requires discussions with teams in our operating department to 
develop a set of best practices and best alternatives or whether it 
requires site-specific adjustments of an operating pattern remains to 
be seen. Both may be helpful.
    Thank you for your leadership on this issue and for motivating KCS 
to do more to be a good neighbor to the communities where we operate. I 
am confident that your encouragement to us to increase attention to 
crossing blocking will pay dividends for KCS and for the cities and 
towns where we operate.
        Sincerely,
                                               Jeff Songer,
                                    EVP & Chief Operations Officer.
                      Norfolk Southern Corporation,
                                    Three Commercial Place,
                        Norfolk, Virginia 23510-2191, July 9, 2019.
Mr. Ronald L. Batory,
Administrator,
Federal Railroad Administration, 1200 New Jersey Avenue, SE, 
        Washington, DC.

    Dear Administrator Batory:
    I appreciate this opportunity to respond to your letter regarding 
complaints about blocked crossings. Norfolk Southern (``NS'') addresses 
grade crossing safety, railroad trespassing prevention, and community 
concerns over blocked crossings in a very proactive manner. Norfolk 
Southern's approach to each of these issues is built on working 
collaboratively with the communities in which we operate and the 
customers we serve.
    Over the next several decades, America's transportation system 
faces a doubling of freight volumes. The demands on railroads to meet 
this challenge will require a financially stable industry that can 
invest in new technologies which enhance safety, improve productivity, 
and create operational efficiency. In light of these trends Norfolk 
Southern has undertaken a dedicated approach to working with state 
transportation departments, state legislatures, and local elected 
officials. This new focus on creating state programs that seek to 
eliminate redundant crossings while also grade separating where 
appropriate will, we believe, provide the most benefits for all 
stakeholders.
    The creation of novel programs to fund grade separations and road 
redesign, which enhance surface transportation mobility, has also been 
a primary concentration. Our efforts have been focused on our heaviest 
volume routes that tend to experience the largest number of crossing 
impacts in communities on our lines. In 2015, Norfolk Southern 
proactively began to work with the State of Indiana to foster a model 
grade crossing safety program centered on a corridor approach. In 2018, 
eight local governments along NS mainlines were awarded projects 
through Indiana DOT's Local TRAX Program. More information about the 
program can be found at: https://www.in.gov/indot/files/
Local%20TRAX%20Presentation%20.pdf.
    In 2019, NS began the effort to take the model Indiana program to 
other states along our Chicago line. I am pleased to report that the 
states of Illinois, Michigan, and Ohio are very interested in this new 
approach, and NS has or will soon be approaching numerous communities 
in these states concerning projects that support closing redundant 
crossings and grade separating additional crossings. In some instances 
these projects have been identified using data indicating significant 
positive impacts for motorists. In Ohio, for example, we are already 
working with Ohio Rail Development Commission and ODOT to begin the 
process to grade separate a crossing in Cleveland identified by FRA in 
2016 as one of the fifteen most dangerous at-grade crossings.
    The best solutions for providing predictable mobility at grade 
crossings require a shared vision and can take years to construct. 
Norfolk Southern is a willing partner to discuss these opportunities 
with any community who is seeking a long term solution to at-grade 
crossings. In a few instances Norfolk Southern has partnered with 
communities through the FRA's CRISI Grant Program. We are a strong 
proponent for expanding this program, and we appreciate working with 
the FRA and grant recipients on these meaningful partnerships.
    Finally, I would also like to ask for your assistance in helping to 
modernize the Section 130 Railway-Highway Crossing Program. Norfolk 
Southern is a strong proponent of this best in class safety program. 
While this program is under the sole jurisdiction of the Federal 
Highway Administration, I wanted to share with you our team's ideas on 
some changes we think will make it even better. These changes include 
the following; 1) increasing the current limit of $7,500 for incentive 
payments to localities for the closing of a grade crossing to $100,000; 
2) adding eligibility of Section 130 funds for the replacement of 
functionally obsolete warning devices, and 3) increasing the federal 
match for small or rural communities to 100%.
    Norfolk Southern is deeply focused on safety where highways and 
railways cross. Our customers also depend on NS to operate a safe, 
efficient and high velocity network, which includes avoiding 
operational impediments such as trains stopped on mainline tracks. 
Enhancing the safe movement of goods and providing for an efficient 
transportation system benefits transportation providers, communities, 
and customers alike.
        Sincerely,
                                          James A. Squires,
                   Chairman, President and Chief Executive Officer.

cc: Ian Jefferies--President and CEO, AAR
   Michael J.Wheeler--EVP and COO, NSC

                               __________

                          Union Pacific Corporation
                           1400 Douglas Street, 19th Floor,
                                     Omaha, NE 68179, June 7, 2019.
Hon. Ronald Batory,
Administrator,
Federal Railroad Administration, U.S. Department of Transportation, 
        1200 New Jersey Avenue, SE, Washington, DC.
    Dear Administrator Batory:
    Thank you for your May 16, 2019, letter regarding blocked crossing 
complaints. Union Pacific shares FRA's mission to enable the safe, 
reliable and efficient movement of goods, now and in the future. Our 
industry succeeds--and our communities, employees and customers 
benefit--when our trains are moving.
    As you know, we operate a highly interconnected network covering 23 
states. Events in one location can sometimes impact the efficient flow 
of trains hundreds of miles away. For these and other reasons, a 
blocked crossing may feel local but is actually often the result of a 
distant or more complex operational issue. Sometimes weather, 
locomotives or railcar mechanical failures, and other unforeseen 
interruptions to operations can cause a crossing to be blocked for an 
unexpected duration. As you acknowledge in your letter, sometimes 
trains stop to comply with federal regulations, such as brake tests and 
equipment inspections.
    Despite these obstacles, we must do better. We are cognizant of the 
negative impacts blocked crossings have on communities, and we are 
sensitive to their concerns. Union Pacific's public affairs team works 
tirelessly with state and local officials to listen to their concerns 
and create collaborative solutions that minimize impacts on surrounding 
vehicle traffic. We also assist state and local road authorities with 
their highway rail crossing assessment and improvement plans. These 
plans help identify crossings that are good candidates for 
improvements, closure and grade separation. In addition to these 
efforts, Union Pacific has made significant crossing infrastructure 
investments and improvements to promote safety and mitigate local 
community concerns.
    More remains to be done. I will emphasize with my operating team 
that, in the development and execution of our transportation plan, we 
will scrutinize how our operations affect local communities, and we 
must make every operational effort to minimize blocked crossings. 
Moreover, if Union Pacific knows in advance of an operational issue 
that may significantly affect a community, our Response Management 
Communication Center (RMCC) dispatchers will work with local emergency 
dispatchers to eliminate imminent safety concerns.
    We appreciate the open dialogue with the FRA regarding this issue, 
and we will continue to monitor our blocked crossing data and other 
risk identification tools to determine any safety mitigation or 
operational modifications that will allow us to develop enduring 
solutions to these issues. If you have further questions or concerns, 
please do not hesitate to contact me.
        Sincerely,
                                            Lance M. Fritz,
                                      Chairman, President, and CEO.

   Questions from Hon. Randy K. Weber, Sr., to Karl Alexy, Associate 
  Administrator for Railroad Safety and Chief Safety Officer, Federal 
                        Railroad Administration

    Question 1. With five ports in my district, railroads are a 
critical mode of transportation, with hundreds of train cars moving 
goods from all over the world to distribution points further inland, 
while also facilitating an explosion of exports to overseas 
destinations. At the same time, these same trains can present 
challenges to our local communities.
    Galveston, Texas is a case in point.
    In addition to significant freight activity at the port, Galveston 
is also the fourth busiest cruise ship homeport in the United States. 
There are only two primary emergency evacuation routes from the City of 
Galveston: Broadway Avenue (Texas State Highway 87) and Harborside 
Drive. Lengthy train delays occur on one of these two critical routes 
from Galveston Island. Trains blocking Harborside Drive greatly impact 
public safety by eliminating half the primary available routes to and 
from the Island. The railroad companies using the associated tracks are 
Union Pacific Railroad and BNSF Railway.
    According to city officials, the railroads are increasing their 
extended blocking of Harborside Drive for durations reaching or 
exceeding 30 minutes. These blockages of the roadway occur at early 
morning, during the evening commute, and many times throughout the day. 
Delays impact commerce at the port, as well as port cruise operations.
    More specifically, Harborside Drive is a main artery to the 
University of Texas Medical Branch. The route is used by emergency 
vehicles daily.
    Local administrators have complained that communication with the 
rail operators has not been easy; moreover, there does not appear to be 
any method to contact on-the-ground supervisory personnel for the 
railroads in Galveston. For example, one of the operators experienced a 
derailment near 77th Street, but there was no communication from the 
railroad to the city's public safety personnel.
    As noted above, increased rail activity on the island--while 
reflective of a booming economy--may pose risks to public safety. The 
blocking of city streets and state highways, along with the 
transportation and storage (siding) of hazardous materials, heightens 
the risk to the general public.
    While grade-separation projects are the most effective method to 
address blockages and improve safety, these are costly projects and may 
not always be fiscally or logistically realistic for the local 
community. Although other federal and state transportation funding can 
also be applied, grade crossing improvements--especially costly grade 
separation projects--must compete against a wide range of critical 
transportation needs. With these concerns in mind, the Section 130 
Highway-Rail Crossing Safety Program provides states with federal 
formula funds to eliminate hazards posed by blocked grade crossings due 
to idling trains.
    What protocols are in place to ensure that the railroads notify 
local first responders of all derailments, including what types of 
hazardous materials are being stored and/or transported through the 
City?
    Answer. All railroads have protocols in place to notify local first 
responders and, in certain instances, the National Response Center 
(NRC) of any derailments and other rail accidents and/or incidents. FRA 
regulations require railroads to immediately report certain types of 
accidents and incidents to the NRC. 49 CFR Sec.  225.9. The NRC then 
notifies applicable state and Federal agencies to assist in a 
collective response to mitigate risk to the public.
    Regarding hazardous materials, the Pipeline and Hazardous Materials 
Safety Administration (PHMSA), and the Environmental Protection Agency 
(EPA) have regulatory requirements that mandate the reporting of 
hazardous materials incidents to local, State, and Federal authorities. 
PHMSA's requirement is found at 49 CFR Sec.  171.15and EPA's 
requirement is found at 40 CFR Sec.  300.125. As part of its regulatory 
oversight responsibility, FRA, in conjunction with other Federal 
authorities, conducts follow-up with response organizations to ensure 
reporting and information sharing is taking place with the freight 
carriers.
    Communicating information to communities and first responders 
regarding high-hazard flammable trains transported and/or stored in 
their jurisdictions is required under PHMSA regulations. 49 CFR Sec.  
174.312. Additionally, a railroad is required to provide contact 
information to local emergency planning and first responders to request 
information regarding commodity flow information used to assess risk 
and develop emergency action plans. 49 CFR Sec.  172.820.

    Question 2. Does the FRA have any plans to alleviate use 
restrictions--such as the requirement that 50 percent of the Section 
130 program funds must be spent on protective devices--that impede a 
state's ability to select more grade-separation projects or other 
innovative projects?
    Answer. The Section 130 Program is administered by the Federal 
Highway Administration (FHWA), not FRA. In addition, statute requires 
at least 50% of Section 130 program funds to be used for protective 
devices. 23 U.S.C. Sec.  130(e)(1)(B). A legislative change is required 
to alleviate this restriction within the Section 130 Program.

    Question 3. Does the FRA have any plans and/or recommendations for 
greater federal program flexibility to fund innovative approaches to 
significantly mitigate, if not eliminate, blocked railroad crossings?
    Answer. FRA is working with industry and communities to identify 
and evaluate low-cost measures to mitigate the consequences of blocked 
crossings (e.g., new technology to communicate crossing status to 
motorists or emergency services). The City of Hattiesburg, Mississippi, 
was awarded a Consolidated Rail Infrastructure and Safety Improvements 
(CRISI) grant to use technology to communicate crossing status to 
motorists. By partnering with a private company, Trainfo, the City of 
Hattiesburg will install equipment to detect the presence, direction, 
and length of trains. Algorithms will be developed to determine which 
crossings will be blocked ahead of the train and for how long. This 
information will be shared with motorists through mobile mapping 
applications and dynamic message signs along the roadways. Although 
this will be the first use of such a system in the United States, 
Trainfo has successfully worked with local agencies in Canada on 
similar systems already in use.
    Another solution is the innovative use of variable message signs. 
In Kirkwood, Missouri, and in Springfield, Massachusetts, electronic 
message signs are illuminated that direct motorists to nearby 
overpasses when trains are present at frequently blocked crossings.
    In Houston, Texas, the police department started a ``mobility 
committee'' to mitigate impacts of blocked crossings. Representatives 
from the city, police department, and railroads meet monthly to discuss 
issues related to blocked crossings and potential solutions. The city 
of Houston also plans on deploying a camera system in the future to 
monitor blocked crossing hot spots.
    In addition, FRA's blocked crossing data is shared with our 
stakeholders. Communities can use the information to plan emergency 
service contingencies such as staging vehicles or alternative routes 
where they will not be blocked by trains.
    These projects and others like them are eligible projects under the 
CRISI program.
    Projects eligible for CRISI or State of Good Repair grant funding 
include installation, repair, or improvement of grade separations; 
railroad crossing signals, gates, and related technologies; highway 
traffic signalization; highway lighting and crossing approach signage; 
roadway improvements such as medians or other barriers; railroad 
crossing panels and surfaces; and safety engineering improvements to 
reduce risk in quiet zones or potential quiet zones.
    In our outreach to local communities, FRA notifies officials about 
funding opportunities and offers technical assistance for navigating 
federal funding processes and application requirements.

    Question 4. Does the FRA have any authority to hold railroads more 
accountable for identifying solutions in consultation with communities 
adversely impacted by unreasonable or unsafe train delays at railroad 
crossings?
    Answer. Under 49 U.S.C. Chapter 201-213 and its implementing 
regulations, FRA does not have specific authority to regulate railroad 
activity with regards to blocked crossings. Accordingly, the FRA does 
not have the authority to hold railroads accountable for identifying 
solutions to blocked crossings. However, we regularly investigate 
reports of blocked crossings and work with the railroads and the 
communities to collaboratively find solutions. Additionally, FRA 
launched an online portal for the public to report blocked crossings. 
The report includes the location, time, duration, and consequences of 
blocked crossings. FRA uses the data collected from this portal to 
identify frequently blocked crossings (greater than 3 times per month). 
FRA then contacts the railroad to obtain additional information, such 
as the number of cars in the trains and the reason for the stopped 
trains, and notifies the railroad of the issue at each crossing. FRA 
recently developed detailed geographic information system (GIS) maps of 
urban areas with high numbers of blocked crossing reports to provide 
additional information to develop local solutions. These GIS maps show 
locations of all crossings in a defined area, with at-grade and grade-
separated crossings identified; reported blocked crossings; railroad 
infrastructure; streets and highways; and locations of emergency and 
first responder operations. These maps will be used by FRA personnel in 
discussions to develop measures, both by railroads and communities, to 
reduce the frequency, duration, and ultimately the consequences of 
blocked crossings.

   Questions from Hon. Sam Graves to Jason M. Morris, Assistant Vice 
   President, Safety and Environmental, Norfolk Southern Corporation

    Question 1. Would passing a law limiting the amount of time 
railroads could occupy at-grade crossings with a train alleviate or 
mitigate the impacts of grade crossings to communities?
    Answer. No. In fact, enacting such a law would only exacerbate 
those impacts.
    We understand the frustration communities sometimes feel about 
grade crossings that are occupied for longer periods of time than 
expected, and passing a law limiting the amount of time trains can 
occupy grade crossings might seem like a simple solution. But 
prescribing grade crossing time limits will have unintended 
consequences that ultimately will undermine the law's purpose and 
objectives.
    The issue is that railroads only have so many ways in which they 
could comply with such a law, and all of them would create significant 
problems.
    One way to comply would be to stop the train and ``break'' it by 
de-coupling cars and ``clearing'' the crossing of all rail cars before 
the prescribed time limit is reached. But breaking the train takes 
time, as a rail worker would need to travel to the crossing (either on 
foot from the locomotive at the head end of the train or perhaps by 
motor vehicle from some other location), de-couple two of the cars, 
then direct the train's engineer to pull forward so the cars that 
remain attached to the locomotive clear the crossing. If the prescribed 
time limit were too short, it would literally be impossible for a 
railroad to comply in many cases, because there would not be sufficient 
time to complete all of the necessary steps.
    However, even if the crossing could be cleared within the 
prescribed time limit, breaking the train would offer only temporary 
relief. This is because the train crew will need to conduct a brake 
test required by federal regulations once the train is reassembled and 
before and it can move again. All of these activities (re-assembling 
the train, conducting the brake test, and moving the re-assembled train 
through the crossing) must take place while rail equipment occupies the 
crossing. Just as with the process of disassembling the train, there is 
a real question as to whether these activities can be conducted within 
the time period prescribed by a hypothetical law. But that issue aside, 
the total amount of time the train would occupy the crossing as 
required by a grade crossing law (including the time it takes to break 
the train, clear the crossing, re-assemble the train, and conduct the 
brake test) will in many cases exceed the total amount of time the 
train would have occupied the crossing in the absence of a law. Thus, 
the total impact to the community--as measured by the total time the 
train occupies the crossing--will often be greater as a direct 
consequence of the law.
    Other ways to comply with a hypothetical law setting a time limit 
include altering operations by running shorter trains, by running 
trains at higher speeds, or by doing both. Any of these methods of 
compliance would have great potential to create negative community 
impacts.
    Because the rail carrier would need to move the same amount of 
freight over the line irrespective of a hypothetical grade crossing 
law, a choice to operate shorter trains would necessarily mean 
operating more frequent trains. Under this scenario, the total 
community impacts along the lines would not improve. After all, the 
same number of rail cars will pass through these crossings every day, 
which can provide additional opportunities for blocked crossings 
because it increases network congestion. And running more frequent 
trains would increase the chance that one of those trains will be 
involved in a grade crossing or trespasser incident. The only result a 
law designed to improve public convenience will have delivered is an 
enhanced risk to public safety.
    The other choice--operating at higher speeds--is equally 
unavailing. In many cases, rail carriers will not be allowed to make 
this choice because federal law prescribes maximum operating speeds 
depending on the ``class'' of track in question. For a rail carrier 
already operating at the maximum track speed, it simply will not be 
allowed to operate its trains faster in order to comply with a 
hypothetical grade crossing law. For rail carriers operating below the 
maximum speed, the hypothetical grade crossing law may leave them with 
no practical choice other than to operate faster trains. But the 
existing operating practices, including train speeds, are there for a 
reason. In some cases, rail carriers operate below maximum track speed 
to minimize community impacts from train noise or to reduce the 
likelihood or severity of grade crossing accidents. A hypothetical law 
regulating the time a train can occupy a grade crossing may force or at 
the very least encourage railroads to abandon their voluntary speed 
restrictions in order to comply, and all of the public benefits 
delivered by existing operating practices would likely vanish.
    A grade crossing law could have adverse community impacts in other, 
perhaps even less obvious ways. Railroads serve many of their customers 
by switching rail cars directly into their plants. These switching 
operations often require a series of forward and reverse moves, and 
depending on the layout of the customer's facility, the location of the 
track serving the customer, and the location of nearby roads and 
streets, these operations may in the normal course of business occupy 
grade crossings. If a law imposing a limit on the amount of time a 
grade crossing can be occupied by a train, service to these customer 
facilities may have to be abandoned. In some cases it may be possible 
to continue to serve the customer by transloading the freight to trucks 
at another location, but this operation would almost certainly be more 
expensive and less convenient for the customer, and would create 
community impacts as truck traffic is introduced or added at the 
customer's plant, the transload facility, and all points between them.

    Question 2. How would a law regulating maximum train length impact 
rail operations?
    Answer. As I mentioned in my first answer, a law regulating train 
length directly translates to shorter, more frequent trains. Reducing 
train lengths would not help to alleviate the overall inconvenience 
some communities experience from occupied grade crossings, but would 
instead create a heightened public safety risk.
    The impacts would not end there, however. Operating more frequent 
trains would mean consuming more rail capacity to move the same amount 
of freight. This is because most freight rail operations are governed 
by methods that permit only one train to occupy a given segment of 
track at a time. More trains mean more occupied segments. Reduced rail 
capacity leads to potential diversions of freight to truck and the 
attendant increased burdens on roadways and other public 
infrastructure, particularly as demand for freight transportation grows 
(as it is expected to do for the foreseeable future).
    Forcing railroads to operate shorter, more frequent trains also 
would negatively impact customer service. More numerous trains create a 
more complex network that operates more slowly and is more susceptible 
to disruption. In the last year, Norfolk Southern made significant 
gains in customer service by reducing operational complexity. Many and 
perhaps all of those gains would be reversed by a law forcing it to 
operate shorter trains. Unhappy rail customers tend to find other ways 
to more their freight, which would only further drive shipments to 
trucks.
    Finally, operating shorter, more frequent trains would negatively 
impact the fuel efficiency of rail operations. More trains means more 
locomotives, which means higher fuel consumption to move the same 
amount of freight. And higher fuel consumption drives greater 
environmental impacts. These environmental impacts would be further 
exacerbated by the greater reliance on truck transportation resulting 
from the increased burden on rail capacity, the negative impact on 
customer service, and the increase in the cost of rail service 
(resulting from less efficient operations and higher fuel consumption), 
all of which are foreseeable consequences of a law limiting train 
length.

                                    
</pre></body></html>
